<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







      MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2019
_______________________________________________________________________
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                                _________

  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                                AGENCIES

                 CHARLES W. DENT, Pennsylvania, Chairman

  JEFF FORTENBERRY, Nebraska             DEBBIE WASSERMAN SCHULTZ, Florida
  THOMAS J. ROONEY, Florida              SANFORD D. BISHOP, Jr., Georgia
  DAVID G. VALADAO, California           BARBARA LEE, California
  STEVE WOMACK, Arkansas                 TIM RYAN, Ohio
  EVAN H. JENKINS, West Virginia
  SCOTT TAYLOR, Virginia

NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

   Sue Quantius, Sarah Young, Kiya Batmanglidj, and Tracey E. Russell,
                            Subcommittee Staff

                                _________

                                  PART 4

                                                                   Page
U.S. Department of Veterans Affairs..........................         1 
Fiscal Year 2019 Budget Oversight Hearing on Energy, 
  Installations, and Environment.............................        95
Members' Day.................................................        97 




  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                                _________

		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-445                    WASHINGTON : 2018                 














                      COMMITTEE ON APPROPRIATIONS

                                ----------                              

             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\             NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama             MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                      PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho               JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas             ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                   DAVID E. PRICE, North Carolina
  KEN CALVERT, California                 LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                      SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida              BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania           BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                     TIM RYAN, Ohio
  KEVIN YODER, Kansas                     C.A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                  DEBBIE WASSERMAN SCHULTZ, Florida 
  JEFF FORTENBERRY, Nebraska              HENRY CUELLAR, Texas 
  THOMAS J. ROONEY, Florida               CHELLIE PINGREE, Maine   
  CHARLES J. FLEISCHMANN, Tennessee       MIKE QUIGLEY, Illinois    
  JAIME HERRERA BEUTLER, Washington       DEREK KILMER, Washington   
  DAVID P. JOYCE, Ohio                    MATT CARTWRIGHT, Pennsylvania 
  DAVID G. VALADAO, California            GRACE MENG, New York   
  ANDY HARRIS, Maryland                   MARK POCAN, Wisconsin    
  MARTHA ROBY, Alabama                    KATHERINE M. CLARK, Massachusetts  
  MARK E. AMODEI, Nevada                  PETE AGUILAR, California        
  CHRIS STEWART, Utah                       
  DAVID YOUNG, Iowa                           
  EVAN H. JENKINS, West Virginia                           
  STEVEN M. PALAZZO, Mississippi                  
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\ Chairman Emeritus

                   Nancy Fox, Clerk and Staff Director

                                   (ii)

 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2019

                              ----------                              

                                          Thursday, March 15, 2018.

                  U.S. DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

HON. DAVID J. SHULKIN, SECRETARY, U.S. DEPARTMENT OF VETERANS AFFAIRS

                   Opening Statement of Chairman Dent

    Mr. Dent. I am pleased to gavel the subcommittee to order 
for our first hearing on the fiscal year 2019 budget, and 
before the 2018 budget is even finished, so we are here to talk 
about 2019. So welcome, Secretary Shulkin.
    We weren't sure if we were going to be able to pull this 
hearing off because of the plans to bring the omnibus to the 
floor this week, but we managed it, thanks to the leadership of 
Chairman Frelinghuysen, so we are grateful for this 
opportunity.
    And so we are delighted, once again, to welcome back Dr. 
David Shulkin, the Secretary of the Department of Veterans 
Affairs, and discuss his agency's 2019 budget and the issues 
that need to be addressed over the coming year.
    As we all know, there is a lot going on at the VA these 
days, and that may be an understatement. And there are many 
challenges that need to be addressed. Those challenges require 
focused leadership, and we look forward to hearing from you and 
how you intend to address them.
    As always, we certainly appreciate your hard work, your 
dedication to our veterans, and the positive changes that you 
have been able to make for veterans' lives.
    Now we are operating under several constraints today. As 
you know, we are knee deep in negotiations on the omnibus bill 
to get 2018 funding resolved, so we haven't had much of a 
chance to delve into the 2019 budget request.
    Additionally, your budget had late-breaking changes after 
it was printed, reflecting suggestions for more funding because 
of the budget caps agreement. As a result, your budget 
documents haven't been updated at this time, complicating our 
ability to assess your funding needs.
    Our second constraint is that, like us, our fellow 
subcommittees are trying to jump-start their 2019 hearings, so 
there are five hearings with cabinet secretaries this morning. 
I am afraid you are going to see more than the usual bouncing 
around in and out of hearings as they try to also participate 
in those important hearings and briefings this morning.
    In any event, let's get started. And before you give your 
opening statement, Mr. Secretary, I would like to ask our 
ranking member, the distinguished gentlelady from Florida, 
Debbie Wasserman Schultz, for her opening statement.

           Opening Statement Ranking Member Wasserman Schultz

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    And thank you for joining us, Mr. Secretary. And to your 
colleagues as well, we appreciate you being here with us.
    Mr. Chairman, the VA continues to receive tremendous and 
much-needed increases in its budget. For example, the VA 
medical care accounts have grown from $36.7 billion in fiscal 
year 2003 to $64.6 billion in fiscal year 2017. And the overall 
discretionary accounts have increased from $43.6 billion to a 
more robust $74.4 billion in the current budget.
    Fiscal year 2019 is no different. The President's budget 
requests $85.3 billion in VA discretionary funding, a $10.9 
billion, or 15 percent increase, over the 2017-enacted level.
    Other than defense, I am pretty sure that there is no other 
Federal agency that has fared better than the VA while we 
functioned under the budget caps. And that is good news. 
Certainly not complaining. We want to see a great number for VA 
medical care in fiscal year 2019.
    But I am concerned that the budget is seeking to merge a 
congressionally mandated account, as I have mentioned to you, 
that was meant to provide greater accountability and 
transparency of how much care was being sent outside of the VA.
    Merging these accounts is going to hinder our oversight of 
non-VA care. And it looks like, honestly, a backdoor 
privatization effort, especially when you factor in that 
between fiscal year 2017 and fiscal year 2019 requests, 
community care spending will have increased by 49 percent, and 
that is without taking into account the $4.2 billion in 
emergency funding that Congress provided.
    This is compared to the 9 percent spending increase in VA-
provided care during this same period. What has been 
emphasized, I am sure, to many of us from our veterans all over 
the country, is that the best care they get is from the VA. It 
might be hard to get it. They might have to wait a while, but 
they get excellent care at the VA. And so moving in the 
direction of privatization is not something that veterans 
across this country support, nor would it be in their best 
interest.
    So I am glad to see an increased number for the VA in 
fiscal year 2019, but I am concerned that the 2019 budget folds 
that community care account back into the medical services 
account. And I want to hear--I am interested to hear the 
rationale behind this move, because it is my understanding that 
the law dictates that there be a separate account.
    The fiscal year 2019 budget request uses the additional 
funds provided by the budget agreement to provide $1.9 billion 
in discretionary funding for the Veterans Choice Fund.
    Now, my understanding on that is that the budget agreement 
didn't include specifics, but the spirit of the deal, the very 
clear understanding that we had is that these funds were to be 
used for infrastructure needs. I am confident that you will 
find across the Congress that Members would attest to their VA 
infrastructure needs in their own districts. It is critical 
that our understanding from the budget agreement be upheld.
    Turning to the electronic healthcare record modernization, 
the fiscal year 2019 budget requests $1.2 billion to continue 
the massive implementation, preparation, development, 
interface, management, rollout, and maintenance of a veterans 
electronic healthcare records system, which is excruciatingly 
long overdue.
    But despite having assurance during our closed hearing to 
discuss this issue, we need to be very careful to establish 
accountability, which is something I know you share, 
accountability measures through the whole implementation 
process that could fundamentally change the Nation's use of 
electronic records.
    I mean, we are talking about a $16 billion project that 
will take a very long time, probably longer than many of us 
will be here to see it completed. And I can understand this 
degree of complexity will have its growing pains, but it is 
crucial that we understand how its procurement will work.
    I believe that the goal of everyone on this subcommittee is 
to make sure the VA provides the best care to our veterans at 
the best possible cost. And with that in mind, Mr. Chairman, it 
is imperative that we discuss some critical issues, including 
the Choice Program, and the state of the VA's electronic health 
records.
    From our discussions, Mr. Secretary, I believe that you 
earnestly want to reform and improve the VA. But I believe we 
must ensure that you have adequate resources to do that--you 
can't squeeze blood from a turnip--and that proper oversight is 
in place to guard against abuses and mismanagement, which can 
and do occur in projects of this magnitude.
    We have a lot to discuss today. Mr. Chairman, thank you for 
the opportunity to share my concerns and my observations. But 
before I yield back, as we begin your final appropriations 
season, as a Member of Congress, I really think it is important 
that we acknowledge the remarkable contributions that you have 
made.
    You are a classmate of mine. We were both elected together 
in 2004. You have been a voice of reason. You have been a 
trusted colleague. You have the respect of many, far beyond the 
boundaries of your district.
    Really, in short, they just don't make them like Charlie 
Dent that much anymore, and you are going to be missed. And I 
am sure we are going to have an opportunity to celebrate you as 
you close out your service, but as we begin your final 
appropriation seasons, I wanted to start the celebration.
    So thank you, Mr. Chairman, and I yield back.
    Mr. Dent. Thank you for the very generous remarks of my 
friend, Debbie Wasserman Schultz. And I also want to say what a 
pleasure it has been to work with you and every member of this 
subcommittee, you as ranking member, and, of course, Mr. 
Bishop, who has also been a great partner too when he was 
ranking member. It has just been a thrill.
    And I appreciate the spirit and the bipartisan cooperation 
you have always demonstrated here. When there are differences, 
we always figured out ways to work through them, and I want to 
thank you all for that. It is very kind.
    So with that, Mr. Secretary, I would just like you to 
please identify the people at the table with you and then 
proceed with your oral remarks. Your written statement will be 
entered into the record, of course. We would appreciate if you 
could keep your remarks to about 5 minutes so members will have 
more time to ask questions.
    So with that, Mr. Secretary.

                 Opening Statement of Secretary Shulkin

    Secretary Shulkin. Great. Thank you. I appreciate both your 
comments in terms of the complexity of this budget and how fast 
it has been moving, so I am going to need a lot of help during 
this hearing to give accurate answers to all your questions. So 
I brought with me a lot of people.
    This is John Rychalski, who is sitting to my right, who is 
the Assistant Secretary for Management and our chief financial 
officer, who has been on board about 6 weeks?
    Mr. Rychalski. Correct.
    Secretary Shulkin. Okay. And we have an empty chair that 
hopefully people will join when we need their help. We have 
Mark Yow, who is our chief financial officer of the Veterans 
Health Administration; we have Jamie Manker, who is the Acting 
Principal Deputy Under Secretary for the Veterans Benefits 
Administration; Richard Chandler, who is the Deputy Assistant 
Secretary for Resource Management for OIT; and then, finally, 
Matt Sullivan, who is the Deputy Under Secretary for Finance 
for the National Cemetery Administration.
    Mr. Chairman, I can't imagine a nicer introduction of you 
than the ranking member gave. We believe that we have the best 
committees in all of Congress who work on veterans affairs 
issues because we work together in a bipartisan way, put 
differences aside to do the right thing for veterans. And we 
all want to thank you for your tremendous leadership, and thank 
the committee for their continued focus on what is important.
    I think that--I just wanted to take a moment to say that 
with all of the distractions that are happening in Washington 
and all the distractions in VA, the events of the last week 
that have happened should remind us all about why it is so 
important that we are doing what we are doing today and getting 
this budget right and getting VA on track.
    This past week, we had a very troubled veteran who took the 
lives of three heroic women, all dedicated to helping veterans 
who were troubled: Dr. Jennifer Gonzales, who was our employee, 
a tremendous woman who had trained in the VA, just amazingly 
dedicated, lost her life; Christine Loeber, who was the Pathway 
Home director at the state home, who had worked for VA, also 
tragically lost her life; and then Jennifer Golick, the 
clinical director of the Pathway Home.
    And Dr. Gonzales' memorial service is going to be on March 
19. We are all saddened by this and just have to recommit 
ourselves to understanding how important this work is that we 
are doing here today.
    President Trump's 2019 budget and the 2020 advanced 
appropriations is a very strong budget, and it reflects the 
President's commitment to veterans and their families. I do 
believe it provides the resources necessary so that we can 
continue the modernization work that we are doing at VA.
    It focuses on increasing the foundational services, better 
access to care, effective management practices, and modernizing 
our infrastructure and legacy systems, as the ranking member 
has pointed out, is so important. In my written statement, I 
have given a detailed plan about how we are going to use these 
funds to target innovation and improvement.
    The 2019 budget that the President proposed is $198.6 
billion for the Department, $88.9 billion in discretionary, and 
$109.7 billion in mandatory. The discretionary budget reflects 
an increase of $6.8 billion, or an 8.3 percent increase over 
the 2018 request. And it also reflects an additional $2.4 
billion in discretionary funding that is now available because 
of the work that you did to raise the caps.
    We want to thank Congress for this additional funding that 
is made available through--in 2019 through the budget caps 
deal. The additional resources are going to help us address, as 
the ranking member said, our outstanding infrastructure needs, 
but also, helping us in funding veterans healthcare, including 
care from the community under the new legislative proposals 
that we are working on for reforming the Choice Program.
    Our capital request of $3.4 billion is a 20 percent 
increase over 2018 to help us fix those highest priority 
infrastructure needs. By requesting all of the necessary 
resources for our community care program and our discretionary 
budget, we think we can help prevent the funding crises and 
lapses in veterans care because we funded it from the wrong 
checking account. Simplifying all of this into a single 
program, we think, is going to help us run it better and make 
it work better for veterans.
    Although we are talking about the 2019 budget today, I 
would ask for your support in securing a full appropriation for 
VA in 2018. I know, Mr. Chairman, you have talked about that.
    As you know, VA relies on a second bite to tailor our total 
requirements. The budget also seizes an opportunity to expand 
access to benefits and services, and focuses on the five 
priorities I have laid out for the Department: greater choice, 
modernizing our systems, focusing our resources on what is most 
important to veterans, improving the timeliness in our 
services, and preventing veteran suicides.
    Suicide prevention is my top priority, and this budget 
includes $8.6 billion for mental health, an increase of $468 
million or 5.8 percent increase above the 2018 estimate. It is 
going to enable us to see about 162,000 more outpatient visits 
in mental health and that directs $190 million for suicide 
prevention outreach.
    It provides emergency mental health services for those that 
were discharged with an other than honorable condition, and it, 
finally, helps support the President's executive order that he 
signed on July 9 that allows every transitioning military 
member to have mental health services during that first 
critical year after they leave service.
    Additionally, we are targeting women's health, one of our 
fastest growing populations in VA, by adding $29 million more 
in fiscal year 2019, an increase of 6 percent over 2018. The 
budget provides $1.1 billion in major construction funding, as 
well as $707 million in minor construction.
    I am proud that our 2019 request for infrastructure is the 
largest in the last 5 years, and it is going to allow us to 
address many of VA's modernization, renovation, and aging 
infrastructure concerns.
    In information technology, we have asked for an increase--
the President has asked for an increase of $129 million above 
the budget to improve the veteran experience.
    Another major project made possible by this budget is a new 
financial management system. As you know, our last--our current 
financial management system is programmed in Cobalt. We can't 
find people who even know how to program Cobalt, so we are 
transitioning this to a modern management system.
    The budget also supports implementation of an electronic 
health record that has already been mentioned so that we can 
interoperably manage records between the Department of Defense 
and the community. We have asked for $1.2 billion to advance 
the implementation of a single accurate lifetime electronic 
health record.
    The 2019 budget also makes important investments in 
benefits. We have asked to hire an additional 605 personnel for 
the appeals modernization office--that is a 40 percent 
increase--to implement the reforms that we have made in appeals 
modernization, and also hire an additional 225 fiduciary field 
examiners, which will protect our most vulnerable population.
    The budget reflects an effort to reform business practices 
intended for us to be able to continue the transformation of 
VA. But our responsibility doesn't end with just asking for 
more resources. Along with requesting more resources comes an 
obligation to promote financial fiscal responsibility.
    It is my belief that by focusing on the well-being and the 
enhanced functioning of veterans, conducting administrative 
reviews to disability payment rates and focusing on fraud, 
waste, and abuse prevention initiatives for benefits, we are 
going to make benefits more equitable for all veterans and 
wisely use taxpayer resources.
    Advances in treatment and medical technologies have 
significantly reduced the impact of certain disabilities in the 
lives of veterans. And our goal is to get veterans better, 
decrease their need for compensation, and to do that, we have 
to modernize our rating system.
    Caring for veterans is personal. The quality of the 
healthcare and services is the highest priority that I have. 
More importantly, veterans and their families deserve better 
access, choice, and control over their healthcare.
    We know that the work that we are doing to improve the 
Choice Program can help clarify and simplify eligibility 
requirements and streamline the administrative processes, build 
a high-performing network, and implement new care coordination 
for veterans.
    Simply put, improving the Choice Program will have a full 
spectrum of care for veterans that capitalizes on our 
foundational services and delivers on the promise for world 
care services.
    Finally, Mr. Chairman, as Secretary of VA, my job is to 
build a modern, adaptable, and sustainable VA for a changing 
world. My job is also to ensure the VA's care, benefits, and 
systems, and policies are stronger in the future.
    The President's budget supports our mission at VA, and in 
the coming years, these priorities will help us maintain our 
commitment to our Nation's veterans. I look forward to working 
with all of you on the committee, and for doing what is right 
for veterans, and I look forward to any questions.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Dent. Thank you, Mr. Secretary.
    I thought I would start the hearing off just by saying I 
very much enjoyed working with you when you were in the 
previous administration, and now in this administration. Your 
expertise and your experience in healthcare systems management 
is extraordinary, and I am glad you are in the job that you are 
in.
    Secretary Shulkin. Thank you.

                           INTERNAL DYNAMICS

    Mr. Dent. But I do feel I have to acknowledge the 
proverbial elephant in the room, as the public and Congress 
have been inundated recently with reports, press reports 
regarding palace intrigue at the VA and the White House. Some 
reports even mentioned that you stationed an armed guard 
outside your office.
    If these reports are true, have the issues been resolved, 
and if not, why not? And the other question, which is more 
important, is this internecine squabbling affecting your 
ability to manage the VA and jeopardize your mission to support 
veterans?
    Secretary Shulkin. Yeah. Let me just say that I have 
publicly acknowledged that the distraction that has happened, 
that you have talked about, is something that I deeply regret. 
I have come here for one reason, and that is to improve the 
lives of veterans, and that is what I am focused solely on 
doing.
    There are a lot of people that, frankly, are more 
interested in politics than I am. I am interested in getting 
this job done. In terms of--and I have made it clear to 
everybody in my Department that I have no tolerance for 
anything other than the business that we have to do for VA.
    I believe that we are getting back on track with that, and 
I am going to do everything I can to keep our focus on the work 
that we have to do, because there is a lot of work to do, as 
you have mentioned, that impacts people's lives.
    In terms of the issues about, you know, how I am running 
things and my security, I will tell you, every cabinet member 
has a security detail that is armed. I am no different. I have 
done nothing different in my security protocol. There is no 
change from what it ever has been.
    But I don't like discussing my security protocol, and I am 
not going to give these details. But there is nothing different 
than what we have been doing. My security detail assesses the 
risk and makes the decisions on how to best protect the cabinet 
member.

                       FUNDING THE CHOICE PROGRAM

    Mr. Dent. Well, I appreciate that answer, Mr. Secretary, 
because my interactions with you have always been very 
substantive and professional and on these very weighty issues, 
so I appreciate that.
    I would like to now focus on the Choice funding shortfall. 
After the original mandatory funding of $10 billion for the 
Choice Program provided by the authorizers was exhausted, the 
program's funding has lurched from one shutdown risk to the 
next, with Congress approving two doses of mandatory funding 
totaling $4 billion.
    There is still no authorizing bill to consolidate choice 
with the other non-VA care programs. And once that is enacted, 
it will take a year to do the implementing regulations. So are 
you looking at another 12 months of Choice with no additional 
mandatory funding?
    I know your budget suggestions released after the budget 
caps deal include $700 million in fiscal year 2018, and $1.9 
billion in 2019 for Choice, but I am not sure there is an 
appetite to provide discretionary money for a program that 
remains a mandatory one for another year.
    So what is your most recent estimate of when the existing 
Choice funds run dry? And are you talking with the authorizing 
committees about providing enough mandatory funding to keep the 
Choice Program going while the new consolidated non-VA care 
program is implemented?
    Secretary Shulkin. Yeah. As of March 6, we had a balance in 
our current Choice budget of $1.1 billion. When you take out 
the reserve that we have to keep, because we have to keep a 
certain amount of money for obligations that are incurred, we 
have, on our current run rate, enough money to get us probably 
through the end of May, maybe into the very first or second 
week of June, so that we will not have enough money in 2018 to 
be able to make it all the way through the end of the fiscal 
year. And we would have to start taking management decisions to 
be able to reduce our spending in the Choice Program and use 
other sources of community funds.
    So we are going to be working with the authorizers to make 
sure that they understand that we do have a 2018 shortfall, and 
that we have to be able to get through the end of the fiscal 
year.
    Mr. Dent. Thank you.

                        ELECTRONIC HEALTH RECORD

    I thought I would quickly ask, before I recognize the 
ranking member, just a quick discussion about the electronic 
health record. And during the past week, there have been press 
reports alleging that DOD's rollout of their electronic health 
record system in the Pacific Northwest was plagued with all 
sorts of problems and difficulties.
    And DOD and its IT contractors responded by noting that the 
rollout to four medical centers was designed to identify and 
fix any issues prior to full implementation. They also note 
that issues are being--are to be expected in any large-scale IT 
project, and that DOD's implementation is going more smoothly 
than the comparable commercial conversions.
    Since VA is planning to use the same system and contractor 
as DOD for electronic health record, how concerned are you 
about the glitches uncovered with DOD's rollout?
    Secretary Shulkin. Well, first of all, let me just say that 
I am confident that we made the right decision here, that 
Congress has been asking us, for now 18 years, to find a way to 
get our systems to work together with the Department of 
Defense. And so that will certainly be achieved with this.
    What I have done is I have asked for a pause until I can 
make sure that we have the interoperability with community 
providers. Since 36 percent of veterans now receive care in the 
community, I think that is essential to do.
    I do believe that working with the Department of Defense as 
closely as we are, very close working relationship, we are 
using their lessons to make sure that our contract reflects the 
issues that we have learned, but also that we are going to have 
a smoother implementation.
    Just this past week, I spent time with Admiral Bono, who 
heads the Defense Health Agency, and we talked about these 
specific concerns. And I am confident that, given what she has 
learned from this and shared with us, that we are going to have 
a much smoother implementation.
    Mr. Dent. And can I just quickly say, it sounded like many 
of the problems were related to resistance from users. And 
given the enormous ability of the VA doctors, the VistA system, 
don't you expect more serious user resistance at the VA?
    Secretary Shulkin. Well, I think--you know, I have done two 
previous electronic health record implementations, never on 
this scale, of course. Nobody has done anything on this scale. 
But if you don't have involvement from your clinicians, you 
might as well not start in the beginning. So that is the 
absolute key.
    And so having this being driven through our clinical 
leadership and our clinicians is going to be the factor that is 
going to be successful. We are doing these one VistA instance 
at a time, and involving our clinicians is going to be 
critical.
    Fortunately, we have clinicians that use electronic medical 
records, have been doing it for a long time. And being able to 
make an effective transition, I believe, is going to be 
something that not only is possible, but that our doctors and 
our nurses and clinicians will be able to be in the leadership 
position to tell us how to do that well.
    Mr. Dent. Thank you, Secretary.
    I would like to recognize the ranking member, Debbie 
Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    First, I would like to associate myself with your remarks 
about the distractions, but also with yours about the 
importance and our singular focus needing to be about making 
sure that we can care for our veterans. So let's all make sure 
that we are growing in the same direction----
    Secretary Shulkin. Yes.
    Ms. Wasserman Schultz [continuing]. And focused on who you 
exist to serve.
    We discussed in my office, I mentioned in my opening 
remarks, my concern about rolling back medical services into 
community care when the statute is in direct conflict with that 
proposal.
    You know, the Veterans Affairs Department has given 
veterans some discretion to pursue care in the community, but I 
am deeply concerned that this is a, you know, snowball rolling 
faster and faster down the hill, and appears to be moving in 
the direction of privatization.
    The first part of my question is, has this administration, 
or is anyone pushing you towards privatization of VA care?

                        PRIVATIZATION OF VA CARE

    Secretary Shulkin. I have been clear that I think this 
would be the wrong decision for our country's veterans to 
privatize VA. I have also been clear that I think that VA can't 
do this alone, that that is what we learned out of the access 
crisis in 2014.
    So we have to have a rational system that allows veterans 
to be able to understand what the choices are that they have 
and be able to get the best care that they can from the VA.
    And I completely agree with you that the men and women in 
the VA that serve are doing an extraordinary job every day. We 
have problems that I acknowledge and that we have to fix, but 
we are doing important work on behalf of veterans.
    And so the right choice here is a system that allows for a 
strong internal VA that is working properly, as well as taking 
advantage of working with the private sector when veterans can 
benefit from those services as well.

             INTEGRATE COMMUNITY CARE INTO A SINGLE ACCOUNT

    Now, I also believe that running separate systems 
administratively, keeping money in different checking accounts, 
is a very, very tough way and inefficient way to run a system. 
And I do believe appropriate oversight, asking the questions 
that you ask, making sure that this is not a back door to 
privatization, is an appropriate role of Congress. And we are 
going to try to be as transparent about our plans and our use 
of funds as possible. But I do think it is the right decision 
to integrate community care funds into a single pot.
    Ms. Wasserman Schultz. And I can understand what you are 
saying, and I hope you can appreciate that it is important that 
we are able to see----
    Secretary Shulkin. Yes.
    Ms. Wasserman Schultz [continuing]. Even if it becomes one 
account, how much is going into non-VA care. Because then, if 
we are masking that, then you are essentially hiding the move 
towards potentially privatization.

                 COMMUNITY CARE VERSUS VA-PROVIDED CARE

    And just to make a finer point on it, community care--
between fiscal year 2017 and fiscal year 2019, community care 
spending will have increased by 49 percent. That is without the 
$4.2 billion in emergency funding.
    In the same period, we have only had a 9 percent spending 
increase in VA-provided care. That is, I assume, not because 
the VA doesn't have the capacity to absorb a greater increase 
and be able to provide more services. I know in my own VA 
medical center, I have talked to them. I know what their 
resource needs are and what they are not getting.
    So can you explain the difference between this uneven 
growth?
    Secretary Shulkin. Our singular purpose, since I came to VA 
in 2015, is to make sure that veterans that have healthcare 
needs are getting access. And, frankly, rather than make 
veterans wait until we built programs inside, or hired enough 
people, we have only focused on getting them the care.
    And that has been easier to get care out in the community 
in many settings. And I think that this is where you have seen 
a rapid growth, because we are focused on meeting the needs of 
the veterans. I will not have veterans who have urgent needs 
waiting until we get enough access in the system.
    Having said that, this flexibility will allow our medical 
centers to make good decisions about what is best for veterans, 
whether they can use this money to better support programs in 
the VA, or whether it is a better decision to continue to buy 
care out in the community.
    And that is what you want an accountable management team to 
do, which is to focus on their customers, in this case, 
veterans, and figure out in their market how do you best supply 
the services?
    Ms. Wasserman Schultz. You do. But when you have 49 percent 
to 9 percent difference in increase in growth, you are clearly 
favoring their ability--which side of the ledger is their 
ability to make that choice?
    And so the more and more resources that go into private 
community care and the less of an increase that we are focused 
on in VA care, the longer it takes us--I mean, government 
wheels turn more slowly anyway--then the longer it takes us to 
ramp up to be able to make sure that people could choose the 
option of getting care at the VA rather than the private 
sector.
    And, frankly, every--almost every veteran I have ever 
spoken to--and I don't know if my colleagues have had the same 
experience--if you ask them, their preference is to go to the 
VA.
    I yield back.
    Mr. Dent. I thank the ranking member.
    At this time, I would like to recognize the gentleman from 
California for 5 minutes, Mr. Valadao.
    Mr. Valadao. Thank you, Chairman.
    Thank you, Secretary, for being here. Appreciate your time.

                    OIG REPORT ON VETERAN WAIT TIME

    Last week, the VA Office of Inspector General released an 
audit of veteran wait time data. As you are well aware, the 
audit revealed that the VA incorrectly reported wait times 
experience by veterans seeking first-time care from VA doctors.
    The report estimated that new patients waited on average 
about 18 days for an appointment. Additionally, 36 percent of 
veterans had to wait longer than a month for an appointment, 
despite the VA scheduling system saying only 10 percent had 
waited that long.
    Due to this inaccuracy, nearly 13,800 qualifying veterans 
were wrongly made ineligible for Veterans Choice Program. Have 
those responsible for misreporting wait times been properly 
dealt with, and what do you plan to do to fix this serious 
ongoing issue?
    Secretary Shulkin. Yeah. The IG report, I think, was well 
done and gave us a lot to be able to start going through. There 
have been some immediate changes that have been made.
    Many of the inaccuracies that were in that report were 
because people were inputting specific dates, our schedulers 
were. That is now automatically taken from the system so that 
there is not the ability for individual variation. It is what 
is put into the system.
    I changed the way that we record wait times to when the 
veteran first calls and requests an appointment. It used to be 
there was this judgment in there about when did the patient 
want the appointment, and that is where I think that you had 
the ability to see data problems. Now it is the day that they 
call and ask for the appointment is the way that we start 
recording things.
    We have also increased now the number of audits that are 
going on throughout the system to be able to make sure that 
these types of data are understandable and accurate.
    In terms of accountability decisions, VHA, the Health 
Administration is going through the IG report and seeing what, 
if any, appropriate actions have to be taken there. But, you 
know, I have the data on the wait times today, and, you know, 
overall, for mental health and VISN 15, it is 11.6 days. But 
for primary care, it is 18 days still, and that is something 
that we are working very hard to get lower than it is, because 
that is still too long to have to wait.
    Mr. Valadao. Well, and that is an issue I have even heard 
in my own district. My constituents who have approached me 
throughout the district have always said the same thing. We 
love the care that we get once we are in the door; the struggle 
is getting in the door. And so I appreciate the changes are 
being made.
    Secretary Shulkin. Yes.

                        BLUE WATER NAVY VETERANS

    Mr. Valadao. One more question, Mr. Secretary, as we 
discussed in previous hearings, since 2002, the VA has 
continued to deny claims from Blue Water Navy veterans, despite 
studies showing higher rates of cancer and non-Hodgkin's 
lymphoma among shipboard veterans than those who fought on the 
ground in the country.
    I brought this up in a prior meeting and hearings with you, 
and you replied that you are requesting additional 
recommendations from the VA on this issue. Additionally, I 
wrote a letter to you in August to address this issue.
    In September of 2017, you responded to my letter, and said 
that you were going to be receiving additional subject matter 
expert recommendations on the matter, and would update me and 
my fellow signers and the letter in my coming months.
    So my question is, is nearly 6 months later, have you come 
to a decision on the Blue Water Navy veterans? If not, what is 
the status update, and when exactly can we expect a response as 
to whether your Department plans to afford these brave 
Americans the benefits they have fought for and deserve?
    Secretary Shulkin. Yeah. Well, first of all, I thank you 
and others in Congress that continue to not let this issue go 
unanswered. I am aligned with you that these veterans have 
waited too long, and that this is a responsibility that this 
country has, and as our veterans get older, it is unfair.
    I do want to make clear that any veteran who has a 
disability claim, such as some of the cancers that you talked 
about, is absolutely able to file that claim, and an individual 
decision will be made about whether there is evidence to 
suggest that that disability is related to their service. And 
we are dealing with these claims every single day.
    Mr. Valadao. But----
    Secretary Shulkin. What we are talking about is a 
presumption. What we are talking about is a class of veterans 
who served that wouldn't have to go through that type of 
disability process. And so, I believe that it is imperative 
upon us to resolve this issue.
    I also believe that there will not be strong scientific 
data to help resolve this. This is going to be an obligation 
that we feel as a country that these veterans shouldn't be 
waiting any longer.
    And I am on the side of trying to find a way to resolve 
this for the Blue Water Navy veterans, and we are working hard 
to look at offsets and other ways to be able to do that, and it 
is a high priority for us.
    Mr. Valadao. And I appreciate that. But with these types of 
cancers, time is of the essence.
    Secretary Shulkin. Absolutely.
    Mr. Valadao. And so having that extra step that they have 
to take to be able to get treatment is a huge issue in their, 
hopefully, healing process.
    Secretary Shulkin. I agree.
    Mr. Valadao. So thanks again for your time.
    Secretary Shulkin. Thank you.
    Mr. Dent. At this time, I would like to recognize the 
gentleman from Georgia, Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you for appearing today and your 
continued partnership with members of this committee on 
ensuring that we support our Nation's veterans. I want to also 
thank you for your leadership of the Department, both as the 
Medical Director and as Secretary. I, along with the VSOs and 
veterans all across the country, appreciate your hard work and 
your commitment to veterans.

                         PROSTHETICS TECHNOLOGY

    I am going to ask you two questions very quickly to try to 
try to respect your time. The first has to do with prosthetics. 
Dr. Shulkin, the fiscal year 2019 budget includes $727 million 
for research, which is a plus $87 million above the 2018 
budget, coupled with an additional $1.1 billion in other 
Federal and private grants and other support total funding in 
support of veteran research is $1.9 billion.
    My understanding that the technology surrounding the 
prosthetic process for our servicemen and women has grown 
exponentially over the past few years, and that the VA's 
prosthetic program may be somewhat outdated.
    What steps is the administration taking to ensure that 
veterans have access to the latest prosthetics technology that 
is available on the market, and that the VA stays competitive 
with the private sector in this regard?

                      MODERNIZATION AND TELEHEALTH

    And my second question has to do with modernization and 
telehealth. I represent a predominantly rural district, and I 
am concerned with my veteran constituents receiving the highest 
quality of care from the VA.
    The VA is modernizing a program ``Anywhere and Everywhere'' 
VA telehealth program. What cost is associated with expanding 
this program, and is it included in your fiscal year 2019 
request? And will the VA be providing the equipment required 
for telehealth and medical appointments?
    I know 45 percent of the telehealth services are for rural 
veterans. Tell me what steps are being taken to grow that 
percentage in rural areas with their limited access to 
broadband?
    And tell me whether or not you are coordinating your 
efforts with the Department of Agriculture that has primary 
responsibility for rural communities, and in particular, 
broadband access, and whether or not you are participating in 
the Rural America Task Force that is made up of cabinet 
secretaries and is convened by Secretary Perdue over at USDA.
    Secretary Shulkin. Yeah. Okay. So thank you for both those 
questions.
    It is essential that VA maintain the most contemporary 
approach to prosthetics and orthotics. This needs to be a 
foundational service for us. And I do believe that our research 
funds, as you suggest, need to be moving us towards those 
contemporary technologies.
    I was, this past week, at the Las Vegas VA, and I went 
specifically to orthotics and prosthetics after our 
conversation to ask about this. I met with their team. They are 
using the laser fittings the way that you and I talked about, 
and that is a best practice. And we are making sure that we are 
learning about what new therapies and diagnostic approaches are 
out there.
    As I mentioned, we are working in several of our sites with 
3D printing. We have recently developed a new prosthetic arm 
with DARPA, and so, it is exactly this type of focus that we 
need to be doing. And I will make sure that we are using the 
very best technologies. But we do work with private 
prosthetists who are constantly telling us about new ways to 
learn, and we are committed to doing that. So thank you for 
that.
    On the telehealth services, as you know, in fiscal year 
2017, we had about 727,000 veterans using telehealth. In the 
rural areas, it is about 300,000. Just this past quarter, we 
had 110,000 rural veterans in one quarter using telehealth, and 
so you can see it is increasing. That will be around 450,000 on 
this type of run rate.
    It is essential, and especially with this Anywhere to 
Anywhere, now that we can provide services across State lines, 
for us to reach more rural veterans and provide that type of 
expertise.
    In terms of the budget, we are seeing an increase, 
particularly for rural health in telehealth. It is a 12 percent 
growth in our budget for rural telehealth activity in 2019.

                   RURAL AMERICA AND BROADBAND ACCESS

    Mr. Bishop. Are you working with the Task Force for Rural 
America with regard to veterans health, particularly with the 
broadband access?
    Secretary Shulkin. Yeah. Yeah. Yeah. I have attended a 
number of the meetings with the telecommunications leaders in 
the rural areas through the White House conveners. This is a 
really important problem to solve, and I think you have 
identified the reason why: Without the broadband technology, it 
is hard for us to get into veterans homes and even into some of 
our own facilities.
    But we need to do everything we can to partner with those 
companies to be able to find solutions, and so, yes, we will 
continue to work with our rural counterparts throughout the 
administration.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Dent. Thank you, Mr. Bishop.
    At this time, I would like to recognize the gentleman from 
West Virginia for 5 minutes, Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here and thank you for 
the opportunity to meet last week.

                        A NATIONAL OPIOID CRISIS

    A couple of quick things: Number one, we have an opioid 
crisis nationally. We certainly have it in my State of West 
Virginia, and tragically, many veterans are impacted by the 
disease of addiction.
    With regard to the VA, the VA was siloed in sharing 
prescription data with State PDMPs. What I am interested in is, 
have we broken down those barriers? And two things: One, do all 
prescribers, dispensers at the VA have full, unfettered access 
to the State PDMP programs; and number two, is all prescribing 
data relating to prescribing behaviors, dispensing of VA folks 
put into the State PDMPs two-way communication?
    Secretary Shulkin. Yeah. Yeah. First of all, you know that 
VA has focused on the opioid safety initiative since 2012. We 
have seen a 41 percent reduction to opioid use. What I am most 
proud of is it is a 90-percent reduction on initial starts now, 
so we are looking in finding alternatives besides having to 
reach first for opioids.
    In terms of the State prescription data monitoring program, 
it is a requirement for us across the country that all VA 
prescribers participate in the State monitoring program for the 
reasons why they exist, so that is a requirement.
    And as far as I am aware--but I am going to come back and 
confirm this, because I think your question is one that, for 
some reason, I wish I had asked and I didn't, to make sure that 
it is this bidirectional, and that is so important, because if 
we are not getting that into the State databases, then how do 
outside prescribers know? So I believe that is the case, but I 
am going to confirm that and get back to you.
    [The information follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
                        ACCOUNTABILITY WITHIN VA

    Mr. Jenkins. The second--and the gentleman, I think, from 
California raised the IG report, and I would like to talk about 
the issues. This Congress, over the last couple of years, has 
taken great strides, at the administration and the Secretary's 
request, to give broader authority to hold people within the VA 
accountable.
    Our goal is clear: We want the very best care possible for 
our veterans. And if there are people who aren't committed to 
providing that care at the level we expect the veterans 
deserve, we want to hold them accountable.
    And as I raised with you previously, and I heard your 
comments just a moment ago talking about appropriate actions 
and change, and I know you weren't referring specifically--I 
hope not--to the situation in West Virginia. But I simply want 
to say, it is not appropriate action, and it is not the change 
we are talking about where a VA employee in Oregon accused of 
gaming quality-of-care statistics to refusing to treat certain 
veterans was proposed to be transferred to my State of West 
Virginia. And simply because of probably outcry from me and 
others, the decision was not to do that transfer.

                       POOR PERFORMING EMPLOYEES

    Can you reassure us that the way in which you are dealing 
with and handling those employees of the VA that are not 
committed to the mission of the best possible care aren't being 
swept under the rug, shifted to another State? I don't want 
Oregon's hand-me-downs.
    Secretary Shulkin. Well, first of all, Congressman, we 
appreciated the feedback, and as you know, we took that into 
account, right. But this was a decision made by the Health 
Administration, and the decision was made to demote the 
individual to a lower level of responsibility so that they 
could get the appropriate supervision and mentorship 
potentially to be able to contribute back at a higher level.
    This was not just a simple lateral transfer. But because of 
the feedback, as you know, that didn't happen, and I think that 
is the way it should work. We have to come up with mutual 
decisions about what is best.
    But there was not a decision made by the Health 
Administration that this person should be terminated. The 
decision was made that they were probably operating above their 
appropriate level of responsibility, and so a demotion was 
made.
    Mr. Jenkins. Well, maybe demotion is appropriate. I don't 
know the facts.
    Secretary Shulkin. Yeah.
    Mr. Jenkins. It is the demotion and the transfer to send a 
problem from Oregon to the veterans in West Virginia.
    Secretary Shulkin. Yeah.
    Mr. Jenkins. That is unacceptable to me.
    Secretary Shulkin. I appreciate that, yeah.
    Mr. Jenkins. There needs to be transparency. And while you 
acknowledge it was a factor, it did not become a factor until 
there was awareness. And I think those in Oregon probably let 
the folks in West Virginia know, you got a problem on your way. 
We need better transparency and not kind of that----
    Secretary Shulkin. I understand.
    Mr. Jenkins [continuing]. Mode of communication.
    Finally, with regard to the infrastructure, I have visited 
all of our medical centers--I am out of time, I understand. I 
will save it for the next round.
    Secretary Shulkin. Okay. Thanks.
    Mr. Dent. At this time, I would like to recognize the 
gentleman from Virginia, Mr. Taylor, for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today. We 
appreciate it.

                             INFRASTRUCTURE

    One quick thing. As you know, my district has the fastest-
growing veteran population, OIF, OEF, women veterans, and 
obviously our care. And according to the VA, 40 percent more 
folks in the next decade will fall into the system, and 60 
percent more care will be needed.
    And on that infrastructure note, you know, our outpatient 
center on the south side in our area is one of 28 major VA 
medical facilities that were approved by Congress last year.
    Secretary Shulkin. Yes.
    Mr. Taylor. My question is, how can we expedite these needs 
to get them built? Because it is going to be, I think, another 
2 years before there is any ground break or anything like that. 
And are we using the correct contract vehicles to be able to 
make that happen?
    Secretary Shulkin. It takes way too long to get this stuff 
done. We are following the Federal contracting rules and 
regulations, and we are trying to do this as quickly as we can 
to get through the process.
    I do believe that the answer that probably you and I are 
both looking for to get this done faster is going to be new 
models to work with the private sector, and allowing public/
private partnerships to help us achieve this.
    We have asked for legislative authority to use greater 
enhanced-use leases. You have given us authority to do that 
with the homeless population. That is where we are limited to 
being able to do this.
    If we had greater authority to be able to build your 
facilities with enhanced-use leases, the private sector could 
do it and we would lease it back. And I think that is an 
approach that we should look hard at doing, because with 
Federal contracting rules, it does take years.
    Mr. Taylor. Any note on OTAs or SBIRs or the usage of those 
to expedite contracting?
    Secretary Shulkin. It is something that I just don't know 
enough about to answer. I would be glad to get back to you. I 
don't know if any of my colleagues know enough about that. So 
we will be glad to have a discussion with you about that. Any 
ideas--I mean, we need to get this done faster. The money has 
been authorized. Veterans are waiting. It drives me crazy to 
see years go by and not do this.
    [The information follows:]

    Non-Traditional Contracting (NTC) such as Other Transaction 
Authority (OTA) and Small Business Innovation Research (SBIR) 
Phase III programs are streamlined procedures that federal 
agencies use to support scientific excellence and technological 
innovation through the investment of federal research funds. 
The VA routinely evaluates and revises its leasing process to 
ensure it is grounded in private-sector real estate best 
practices for health care delivery and responsive to the 
emerging demands of the Veteran population. We work closely 
with the General Services Administration (GSA) to ensure our 
lease acquisition strategy aligns with the latest government-
wide guidance, tools, and procedures. Additionally, VA has 
developed a partnership with the General Services 
Administration (GSA) to procure seven of the recently 
authorized leases leveraging GSA's expertise in lease 
procurement. Hampton Roads is one of the seven projects GSA 
will procure. GSA will follow competitive lease procurement 
procedures in its regulations. The NTCs referenced do not apply 
to the proposed leasing action for the South Hampton Roads 
Outpatient Clinic in Hampton, Virginia.

    Mr. Taylor. Thank you, Mr. Secretary. We will get with you 
on that after that.
    Secretary Shulkin. Okay. Thank you.

                  PRIVATE CARE VERSUS VA-PROVIDED CARE

    Mr. Taylor. Another note, I think it is important for me to 
say, as a post-9/11 service-disabled veteran myself, there is a 
generational divide in terms of the desire to use the VA or 
desire to use care. And my generation tends to, in general, 
want to have private care, because it is easier access. The 
older generations tend to like the VA better. So there is 
definitely a generational divide.
    I will say, you know, we had the IG in my office who talked 
about our own facilities, and they talked about the care being 
great, but, of course, the perception still amongst veterans of 
wait times, of not being called back, is still very poor. In my 
area, it is a one star, out of your rating. And that is a big--
that is obviously a big problem.
    My question is, as the ranking member pointed out, where 9 
percent has increased in the VA care, but 36 percent in 
private, what are the numbers--because I didn't see that--but 
for the folks, the veterans who were using the private care?
    And let me also say on the record that I agree with you and 
the ranking member that it is the government's responsibility 
and our duty to take care of our veterans and to oversee that, 
to not just be privatized.
    At the same time, as one who is of that generation, I think 
it is--to get better, faster access, and not have to wait, 
which is what you said, we should be able to use those 
facilities, but--private care, excuse me.
    What are the numbers and what are the veterans saying in 
terms of wait times, in terms of being called back that are 
using private services, because I haven't seen that?
    Secretary Shulkin. Right. So, look, when you are talking 
about 9 million veterans who use the VA system, this is never 
going to be an ``everybody feels this way or everybody feels 
that way.''
    Mr. Taylor. Of course. Not a monolith.
    Secretary Shulkin. Right. Exactly. That is why we are 
working towards giving people more choice in how they want 
their care.
    Many in your generation, many in my generation increasingly 
want their care on their mobile phones and convenient access 
when you need it. That is where we really need to be moving, no 
doubt about it.
    But the difference between community care and VA care in 
terms of access is geographically variable. But in general, as 
I am going to talk about across the country--and I have a 
publication I am submitting on this--VA access, compared to the 
private sector is 11.3 days less across the country. Now, 
depending upon what region you are in, that can vary.
    The satisfaction of veterans with access to care is 
actually improving from where it was in 2014. We are getting 
better, but there are parts of the country--and I think you 
come from one--where we need the private sector in order to 
meet the needs.
    And so that is what we are doing. That is why you are 
seeing us prioritizing access, community care growing. We are 
trying to build capability, hire more people within the VA to 
address access. That will hopefully give veterans more choice 
about where they want to get their care, in the VA or outside 
the VA.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Dent. I would now like to recognize the gentlelady from 
California, Ms. Lee, for 5 minutes.
    Ms. Lee. Thank you very much.
    Thank you, Mr. Secretary, for being here.
    Secretary Shulkin. Sure.
    Ms. Lee. Once again, as the daughter of a World War II and 
Korean War veteran, I am really pleased to know that we have a 
Secretary dedicated to ensuring that veterans receive quality 
healthcare. I know the VA intimately as a result of my dad, so 
thank you very much.

                             ALAMEDA POINT

    I have a couple of things I want to mention to you. First 
of all, I have a letter that I am going to give to you 
regarding Alameda Point. We are now--this is the new outpatient 
clinic in my district. Now it appears it will be 2 years now 
off track in terms of timing.
    So I would like, and I am asking you in this letter, to 
give me monthly updates on the status of this, because I am 
quite concerned about what is taking place.
    Secretary Shulkin. Okay.
    Ms. Lee. So that is for the record, and I will give that to 
you.
    [The information follows:]

    VA will continue to work with Congresswoman Lee's office to 
provide regular updates on the Alameda Point construction.

    Secretary Shulkin. Thank you.

                           MEDICAL MARIJUANA

    Ms. Lee. And then, secondly, okay, now, coming from 
California, of course, you know we have a variety of 
dispensaries which make marijuana available to patients and 
veterans who use it for PTSD or chronic pain and it works.
    Okay. Now, you have said that the VA can't recommend 
medical cannabis in accordance with State laws until the 
Federal law changes. But marijuana schedule 1 status does block 
formal prescriptions. It does not block the ability of doctors 
to fill out questionnaire forms in those States.
    So what is the problem? What is the Federal statute that 
blocks the VA from doing this and not letting physicians simply 
recommend cannabis to veterans who need it and has proven that 
it works?
    Secretary Shulkin. Congresswoman, so would filling out a 
questionnaire, isn't that the step towards prescribing? 
Somebody has to write the prescription.
    Ms. Lee. It is not a formal prescription, no. It is just a 
recommendation form. That is all the State requires, not a 
prescription.
    Secretary Shulkin. So who writes the prescription for the 
medical marijuana?
    Ms. Lee. The physician would write--would just recommend 
cannabis.
    Secretary Shulkin. My understanding is, VA Federal law 
would not allow the physician to write the prescription, but--
so I have to understand what the questionnaire would be in 
order to make a recommendation, but not write a prescription.
    Ms. Lee. Okay. Well, could we show you that questionnaire, 
Mr. Secretary?
    Secretary Shulkin. Absolutely.
    Ms. Lee. Because veterans need this, it works, and it is a 
shame and disgrace that the VA is preventing this type of 
treatment that works. So--and we know the Federal statutes and 
what all, but this is a merely questionnaire. So I would like 
for you to review that.
    Secretary Shulkin. I would be glad to review that, yes.

                         THE PATHWAY HOME MODEL

    Ms. Lee. Okay. Yountville, California, the tragedy that 
occurred in Yountville, it just shows one, of course, the 
access to guns; but secondly, veterans who need more mental 
healthcare.
    And the pathway model, where it leverages benefits from the 
private sector as well as the public sector and the VA, is 
really a nationwide model. And so, I hope you look at what took 
place there, and look at how we can expand the model, first of 
all, but also how we can prevent these tragedies from 
happening.
    Secretary Shulkin. Yeah.
    Ms. Lee. I don't know. Are you conducting an investigation 
now?
    Secretary Shulkin. We are. As you know, this is a State 
home, so that we weren't providing the security. That is up to 
the State to be able to do that, but we are looking at every 
aspect of this.
    Before you came in, I mentioned that three heroic women 
lost their lives, as I know you know, but one of them was a VA 
employee. We are absolutely torn up that this happens to people 
serving veterans. We are looking at every aspect of this to see 
what we can do.
    We don't want our employees ever to have to go through 
this, but also the fear that when they are serving veterans 
that they have to worry about this. So we are working very hard 
to look at what we can do in order to protect our staff and to 
protect our veterans, quite frankly.
    The Pathway Home model is a remarkable model. They were 
dealing with the toughest of the tough, you know, in terms of 
people who failed other treatments. We are not going to give up 
on this. That would be a failure of our acceptance of this 
mission, so we are going to continue to do that.
    And we are working closely with our California 
counterparts. We--you know, I spoke to Governor Brown, and we 
have worked with the State Department head of Veterans Affairs 
there, and we will continue to work to make sure that we are 
going to see this model continue.
    Ms. Lee. Thank you very much.

                            MILITARY PARADE

    Mr. Secretary, let me ask you one more question about this 
military parade that the President is proposing. Now, will any 
part of the VA budget be directed toward this parade? Mr. 
Mulvaney said $10 million to $30 million. Right now, 1.5 
million veterans live in households that receive SNAP benefits. 
We have an increase in homelessness among veterans. Are you all 
going to pay for part of this parade, rather than put the money 
into veterans healthcare and mental health and housing and 
where it should go?
    Secretary Shulkin. As you know, Veterans Day is a very 
important day to us. We put our resources and our efforts into 
the recognition at Arlington National Cemetery that day. We 
have no plans to change that. We have not had any discussions 
with the White House about participating in the parade.
    Ms. Lee. Thank you very much.
    Mr. Dent. At this time, I would like to recognize the 
retiring gentleman from Florida, our good friend, Mr. Rooney, 
for 10 minutes.
    Mr. Rooney. I forgot. Thank you to the retiring chairman.
    Dr. Shulkin, welcome. Thank you.
    I don't know if you are aware or not, but over the last 
several years, Congressman Tim Ryan and myself have both served 
as cochairs of the Military Mental Health Caucus. It has had a 
few variations of different names.
    But essentially, you know, we have tried to hold hearings 
and have meetings to discuss things that would help returning 
warfighters and veterans deal with any mental health issues or 
stigmas that have arrived since, quite frankly, the last war on 
terror, and to try to do something to address the suicide issue 
that has obviously been a big problem.
    I wanted to say that we appreciate everything that you have 
tried to do and your willingness to send someone to participate 
in a lot of those briefings that we have had for our members 
and for our staff. And I recently read a report about the VA 
that raised some concerns about our ability to meet the mental 
health needs of those post-9/11 veterans.
    Of the post-9/11 veterans who haven't gone to the VA for 
help, many reported that they don't know how to apply for 
benefits. They don't know if they are eligible, or they are not 
aware that the VA offers mental healthcare benefits altogether.

                     TRANSITION ASSISTANCE PROGRAMS

    How are you working with the Department of Defense to 
improve transition assistance programs and reduce this lack of 
knowledge amongst veterans? How are you working to target 
veterans who have left the military before these type of 
transition programs were actually in place?
    And then, I am going to ask this other question--I will 
just ask all my questions and then let you answer, if you don't 
mind.
    The report also suggests that transportation issues pose 
challenges for many of these post-9/11 veterans, and I know 
this is especially true in rural districts like mine. But I 
also think that it might be true in anybody's district. You 
know, if you just don't want to go talk to somebody face to 
face, maybe that is part of an issue.
    Maybe it would just be easier to be able to discuss these 
things over a telephone or something like that. But when asked, 
45 percent of veterans answered that they would be in favor of 
using the internet or telephone to receive mental healthcare.

                           TELEHEALTH PROGRAM

    You recently announced the launch of a new pilot telehealth 
program for rural veterans with PTSD that will provide veterans 
with remote access to psychotherapy and related services. Can 
you provide an overall--an overview of how this program works 
and any plans you have to expand that program to include other 
areas?
    Secretary Shulkin. Yeah. Yeah. Well, first of all, thank 
you for your leadership in this area. As you know, this is 
critical to us and our top priority to reduce veterans' 
suicide. And you are correct that of the 20 veterans a day who 
take their life through suicide, 14 are not getting care in the 
VA. They are out in the community.
    And so we have focused extensive efforts on working with 
community organizations, churches, synagogues, mosques, as well 
as not-for-profit organizations, and veteran service 
organizations to get the message out that people need to get 
resources, whether in the VA or outside the VA.
    Our veterans crisis line, we have expanded to now a third 
center, and we are responding to well over 1,000 calls a day. 
But you can also text into that as well, so we are using 
alternative means to be able to do that.
    Telemental health is a huge area, an opportunity--we use it 
extensively, close to 400,000 episodes of care delivered 
through telemental health. And we think it is important to 
expand that. We now have 11 telemental health hubs where we can 
hire professionals in usually metropolitan areas that can now 
serve in more rural areas where the shortages are more 
significant.
    Mr. Rooney. With regard to my first question--and I 
appreciate that. I don't think it just has to be rural. I was 
just driving around Washington, D.C., and it is maddening just 
to try to get anywhere here, too. So like a lot of, I think, I 
am sure it is just sort of the feeling of easy access, 
especially at critical times when people might need it right 
now--access to somebody that can talk to them--rather than 
trying to figure out how they are going to navigate, you know, 
whether it is a rural district or a city.
    With regard to my first question, when I PCSed in 2004, 
there was no transitional advice or whatever for myself and, I 
assume, for the other people that were PCSing that day or 
around that time. And since I have been out--and some might say 
I probably could use some help as well--but I have gotten 
nothing from the VA or anything to show, ``Hey, by the way, if 
you PCS from the Army or the Navy or any of the branches before 
we started doing some kind of an awareness separation briefing 
and you feel like you might need some of this kind of help, 
this is some of the things that you should do.'' I have never 
gotten that kind of phone call or letter or anything like that.
    So what do you do for people that may have PCSed before 
those types of efforts were put in place?
    Secretary Shulkin. Well, first of all, we have worked hard 
on our TAP program, our Transition Assistance Program, to make 
sure that, before everybody gets out, that they undergo a 
seminar on understanding how to use their benefits. But, too 
often, and I think this is what you were referring to, when I 
talk to veterans that find themselves transitioned out of the 
military, they now find themselves somewhat either depressed or 
in an emotional issue, the last thing that they want to do is 
start figuring out how you start applying for benefits.
    So the President's executive order that he signed on 
January 9 of this year asks for essentially what I call auto 
enrollment. Now, my staff doesn't like when I say that because 
it is complex. But I believe before everybody leaves, that 
paperwork should be done and they should be automatically 
eligible to have access to mental health services.
    And that is what we have presented now to the President on 
March 9, a report that suggests how we are doing that with the 
Department of Defense. We are implementing that as we speak so 
that that is essentially automatic that every servicemember 
will have that mental health benefit when they transition out.
    Mr. Rooney. Thank you, Dr. Shulkin.
    I yield back.
    Mr. Dent. The gentleman from Ohio, Mr. Ryan, is recognized 
for 5 minutes.
    Mr. Ryan. Thank you, Mr. Chairman.
    Just to continue along the line of Mr. Rooney, so I think 
that is a great way to approach the Transitional Assistance 
Program, is to get people in. To me, it doesn't sound complex 
at all; it sounds very straightforward. And I think that is the 
way we need to go. We appreciate your leadership on this.
    In my estimation, we have a couple major issues, some of 
which have been brought up here, on the issues of opiates and 
on the issues of post-traumatic stress. We still have 20, 21, 
22 suicides a day. We have, clearly, some budget issues that we 
need to deal with in the long term, and we have to figure out 
how we can provide care to these veterans who are coming back 
or have been back for 30 or 40 years. We talked about this a 
little bit at our breakfast last week.

                           COMPLEMENTARY CARE

    I have seen, personally, over the last 15 years of my 
career here, complementary programs that are having 
unbelievable effects and improving the health and well-being of 
veterans who have been suffering for a long, long time. I have 
sat at the Washington, D.C., VA in a mindfulness-based stress 
reduction session for 30 minutes of mindfulness-based 
meditation techniques. And then, afterwards, had conversations 
with Vietnam veterans who were in tears talking about how they 
wish they would have found this 40 years ago because they have 
been on so many medications, they have been divorced two or 
three times, they have lost touch with their kids, just 
emotionally disconnected because of what they did.
    And it is the David Lynch Foundation, what they are doing 
with transcendental meditation. It is acupuncture. It is yoga. 
We have had sessions here on Capitol Hill with the veteran yoga 
teacher, double amputee, who is now going out and helping to 
heal these vets. I was just in a session last week with a group 
called Project Welcome Home Troops. They had a Vietnam vet who 
was on 20 prescription drugs--20--which is not common, but it 
is not unusual, either, for people to be on 10, 12, 13 drugs. 
After one session, 5 days of this complementary approach, this 
guy is off all his meds. And I am just saying: We have got to 
wake up. There are things out there, that we don't need to come 
up with any grand new solutions.
    And so I just want to plant the seed with you to say, as 
you are doing the TAP program, that I think it would be in the 
interest of the taxpayer, the veteran, and all of their family 
members to start figuring out how to have these as options. So 
get the people through the TAP program aware of what is going 
on. Let's start studying these.
    I don't know why this stuff works. I have no clue. It has 
something to do with your nervous system and your biochemistry 
and the mind-body connection that we are learning more and more 
about. But when we have vets that are going from 20 
prescription drugs and we do the math on that for the next 30 
years--we do, on the Appropriations Committee and the Budget 
Committee--and then we do the math of that person maybe getting 
a treatment for 500 bucks for 5 or 6 days and it transforms 
their lives, that is something that we need to look into. And I 
don't care what it is. I don't care how it works.
    But what I would just recommend is that--and I know Tracy 
Gaudet is doing an amazing job with the patient-centered care--
is that when these young men and women come back, that they are 
at least made aware of these programs and where they may be in 
their community and that if we can begin to set up some pilot 
programs where, whether through the Choice Program or something 
else, we give them 500 bucks. Because I would much rather--and 
the people I represent and the veterans and everyone else--
let's give them the 500 bucks to go try this thing out and see 
if it works, instead of immediately start doling out 
prescriptions.
    I would love to work with you on that. I think it is 
critically important. Time is of the essence. There is a real 
sense of urgency here.
    Secretary Shulkin. Congressman Ryan, I am all in. I think 
you are absolutely correct. It is why we have had a 90-percent 
reduction on new starts in opioids because we are using a 
different approach.
    Ninety-three percent of our VA medical centers offer 
complimentary care. The Choice Program does pay for 
complimentary care. We had 47,000 authorizations this past year 
for acupuncture and 70,000 authorizations for chiropractic 
care. We need to be doing more of this in alternatives. We have 
also talked about pet therapy as another strategy that we have 
seen having an almost similar effect. So we have to continue to 
reach forward on this. Tracy Gaudet, with the Whole Health 
Program, is rolling this out across the country.
    Mr. Ryan. And there is science behind a lot of this now. 
The literature on this stuff has grown exponentially in the 
last 10 or 15 years. I appreciate that.
    I yield back.
    Mr. Dent. At this time, I would like to recognize the vice 
chairman of the subcommittee, Mr. Fortenberry from Nebraska.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Secretary, it is nice to see you. Thanks so much for 
joining us today. We appreciate it.
    Look, we have had some great news in Nebraska and some 
harder news. I think you are well aware of it, but I think it 
would be important to discuss publicly.

                      PUBLIC-PRIVATE PARTNERSHIPS

    The slogan ``private, public, public-private partnerships'' 
has been used exhaustively, and, yet, at the same time, 
actually making this a reality can sometimes be harder, but we 
are doing it back home.
    In Omaha, we are getting ready to break ground, based upon 
the new piece of legislation that was passed just fairly 
recently on a new ambulatory care center. Taking the money, 
which was set aside for years and years and years, struggling 
to become big enough to actually rehabilitate or rebuild a new 
hospital just was never going to happen, given all of the 
difficulties here. So the community has stepped forward and, in 
partnership with those public dollars and your leadership, are 
now putting up $30 million to build out this care center. It is 
a huge first step, I think, in terms of a new way of thinking 
for the VA.
    Secretary Shulkin. Absolutely.
    Mr. Fortenberry. And we are very proud of that.
    Back to modeling and using this as a scalable template for 
the rest of the country, I would like to hear your perspective 
on that.
    But, secondly, the harder news is the Lincoln VA clinic, 
where we have a historic structure, beautifully, wonderfully 
integrated into a campus that is in the center of our city. A 
redevelopment agreement reached with the city, all things ready 
to go, and then the process collapses.
    Now, you have been very generous in trying to shepherd and 
watch this. But I think it would be helpful, as well, if you 
could give commentary on the new timeline by which we are going 
to receive realbids for the buildout of the new clinic there, 
particularly given that it was just some type of internal 
technical bureaucratic snafu that has delayed us.
    And then the opportunity cost of delays are huge, another 
year or two gone by, in which we are not providing the best 
type of progressive leading-edge care.
    Secretary Shulkin. Well, first of all, I guess it is better 
to focus on the good news.
    The private-public partnership in Omaha, we hope to have a 
groundbreaking ceremony in May. And, frankly, thank you for 
your leadership in this, because I know that you were 
instrumental in helping us with this.
    That model, which Congress has authorized us to do five 
times across the country--Omaha will be the first called the 
CHIP IN Act--is a model that we hope to replicate. And we are 
out actively now in communities looking for the other four 
partners. This is a major priority for us to replicate what you 
are doing in Omaha.
    Mr. Fortenberry. Is this a vision that you anticipate 
catching on throughout the country?
    Secretary Shulkin. We have interests from at least 18 
communities. The great thing about the American public is that 
we ask for their help when it comes to helping veterans and 
they step up.
    Mr. Fortenberry. Exactly.
    Secretary Shulkin. So thanks, again, to Omaha for leading 
this, but we believe that we are going to have all five soon, 
and then we are going to look at this as a model to come back 
to you with.
    In terms of Lincoln, this is a contractor that was awarded 
that, unfortunately, was not able to be able to complete the 
work. That starts us back in the process. I think, as 
Congressman Taylor said, we know this stuff takes too long. 
This was a re-award in 2019, with construction starting in 
2020, and it is not the fault of the veterans that this 
contractor and the contracting process didn't work for them.
    So I have asked our team to go back. I have told them that 
that is unacceptable. They are looking at being able to carve 
about 8 months off that process. But we are still probably 18 
months away from being able to do the work that needs to be 
done.
    That is why I think these public-private partnerships are a 
better way to go than VA being directly involved in this 
contract in the construction process.
    Mr. Fortenberry. Well, we are where we are in Lincoln, but 
anything that--and I know you are doing this, and you have 
communicated that to me--you can do to expedite this is really 
necessary. Meanwhile, people at home, putting plans on hold, 
veterans eager for this new unfolding dynamic, have to be told 
that there were some internal mistakes. So anything that you 
can do to expedite this would be helpful. Again, not having 
this in place is a huge opportunity cost, a loss for us. But I 
know you are on it. I just thought it was important to have the 
conversation publicly.
    Secretary Shulkin. Thank you.
    Mr. Fortenberry. I yield back, Mr. Chairman.
    Mr. Dent. Before we go on to the second round of 
questioning, I would like to recognize the distinguished 
ranking member of the full committee, Mrs. Lowey, for 5 
minutes.
    Mrs. Lowey. Thank you, Mr. Chairman. It has been a busy 
morning, but I am delighted to be here, and I know you are 
proceeding.
    A pleasure to see you, Mr. Secretary.
    Secretary Shulkin. Nice to see you.
    Mrs. Lowey. And I do want to apologize to you, as well. We 
have multiple hearings this morning, and I didn't bring my 
roller skates, so I am moving along.
    I know that important questions on investments and 
oversight on veterans health and benefits have been discussed. 
I would like to raise a few specific items.

             INPATIENT SUBSTANCE ABUSE TREATMENT WAIT TIMES

    Number one, the waiting time for substance abuse treatment, 
I don't think that has been discussed as yet.
    Last year, I heard from a local veterans healthcare 
provider that veterans facing substance abuse who have the 
courage to seek treatment can face an average wait time of 10 
days before a spot in treatment becomes available. Nationally, 
the average wait time is even worse at 21 days. Delays, as you 
know, can prevent a veteran who may be ready to confront 
addiction from actually seeking treatment, and that doesn't 
honor our end of the bargain to provide care for our veterans.
    This is really shocking to me. What is the cause for these 
delays? Is it the availability of funding, staffing, or other 
structural issues? And, more importantly, what is the VA doing 
to make inpatient treatment for substance abuse available as 
soon as possible?
    Secretary Shulkin. This is critical to the debate that is 
going on right now about opioids and suicide and the 
homelessness problem. I mean, these all intersect.
    Too often--and even our veterans justice issue, that our 
jails are still places where we are putting people with 
substance abuse disorders. The VA has a responsibility to 
increase its capacity for substance abuse, particularly as we 
are learning more about medication-assisted treatments and 
other effective treatments.
    As you know, the substance abuse programs are filled with 
people who have recycled with recidivism. So the more that we 
can find more evidence-based treatments that help people 
essentially get back on track, find jobs, and get back to their 
life the way that they should be living, it is important.
    So we do recognize our responsibility to increase capacity. 
We are looking to hire additional mental health and substance 
abuse experts. There are shortages of them.
    As you recognized--and I appreciate you doing it--the 
private sector is struggling with this as well. And while there 
are longer waits, my concern in the private sector is: If you 
don't have the right type of insurance or enough cash, you 
don't have access to programs at all. So the VA has much easier 
equity and access to these programs, but we need to expand them 
faster.
    Mrs. Lowey. Thank you. And I hope we can work together so 
that you get the resources you need to do just that.
    Secretary Shulkin. Thank you.

                        NATIONAL CENTER FOR PTSD

    Mrs. Lowey. The National Center for Post-Traumatic Stress 
Disorder conducts important research to access and treat PTSD. 
With approximately 11 to 20 of every 100 veterans returning 
from Operation Iraqi Freedom and Enduring Freedom with PTSD, 
the Center's work is not only critical, but, as you know, it 
increases the likelihood of discovering effective treatments 
and even potential cures.
    If you can, share with us the research informing the VA 
about the assessment and treatments of PTSD, and how will the 
VA continue to support the Center in its essential work?
    Secretary Shulkin. When I looked into this, the law that 
requested that VA do a study on the evidence-based treatments 
coming out of the National Center was actually never enacted. 
So that is something that we would like to make sure--because 
we have been asked about when is this study going to be done, 
and I don't believe that law has yet been enacted. But our 
National Center is moving ahead and doing the study anyway. But 
I don't have a specific date when that is going to be done. You 
know, these studies often take a while to do well, so I will 
get back to you when that study will be done. But I think there 
was an expectation that we had already begun that. That is 
going to begin this spring. And then we need to get the 
timeline for you.
    But this is a critical area for our National Center to be 
looking at, and that is why we are moving ahead with this now.
    Mrs. Lowey. Thank you.

                    HEALTH NEEDS OF FEMALE VETERANS

    And, lastly, concerning female veterans' care, I am very 
concerned that the VA is not adequately addressing the health 
needs of female veterans, including obstetrics, gynecological 
care, treatment for gender-specific conditions and diseases.
    According to VA's recent report, suicide rates among female 
veterans increased more than 60 percent from 2001 to 2014 
compared to 29 percent among their male counterparts. The VA 
also found the risk of suicide among female veterans was 250 
percent higher in comparison to U.S. civilian adult women.
    Frankly, these statistics were shocking to me. If you have 
any explanation about the disproportionate rate of suicides 
impacting veterans, I would appreciate it.
    And, secondly, how will the VA ensure that female veterans' 
physical and mental health needs are met?
    Secretary Shulkin. In the President's budget, we have 
requested a 6-percent increase in women veterans dollars 
available to be able to support this.
    Mrs. Lowey. Is that sufficient?
    Secretary Shulkin. I think on top of what we have been 
adding each year, this is what our field has asked for. We have 
just trained an additional 332 women health providers in our 
certification course, so we are very aggressively expanding our 
women's clinics, our women's services, and the dollars I think 
are appropriate to flow with that.
    The issue of women's suicide, these are really disturbing 
statistics, as you have said. There is no doubt that the 
overall incidence among women veterans is higher than the 
general population.
    But what we do know is this, is that, in the last 15 years, 
we have been studying this comprehensive database of suicides. 
If you were a women veteran who got care in the VA over the 
last 15 years, your rate of suicide actually decreased by 2.6 
percent, a decrease. If you were a woman veteran not seeking 
care in the VA during those 15 years, it went up 81.6 percent.
    So I always say to people: If you had a drug where one 
worked by decreasing and the other didn't, everybody would be 
using the drug that worked and not the other one.
    So we have to connect women. And this is why your question 
is so important. We have to have access to services. We have to 
have women feel comfortable in the environment that they seek 
care in a sensitive way. And our culture has not always been 
that in the VA, so we have to continue to change that. But we 
can absolutely save lives by getting women connected with care.
    The reasons why women's suicide among veterans is high is 
something that we don't totally understand. I think that we 
need to do more research into that. But, right now, we are 
focused on getting women the help that they need.
    Mrs. Lowey. Thank you, Mr. Chairman. I appreciate you 
giving me the time.
    I do hope we can follow up on this because, as we know--you 
call it the President's budget, and I call it Mr. Mulvaney's 
budget. This is a really important committee and members that 
do work in a bipartisan way. I was just shocked by these 
statistics, and I hope we can address it as best as we can with 
your recommendations.
    Thank you, Mr. Chairman.
    Mr. Dent. Thank you, Mrs. Lowey, for that line of 
questioning.
    At this time, we are going to move into a second round of 
questions for those who are here. So, with that, I will 
recognize myself for 5 minutes.
    On the same day last week as the release of the unfavorable 
IG report about the D.C. VA hospital, you announced sweeping 
plans to reorganize VHA from top to bottom with a plan for 
Central Office reorganization due by May 1st and a nationwide 
reorganization plan for your regional hospitals due by July 
1st.

                  DC VA HOSPITAL AND RESTRUCTURING VHA

    Could you quickly just touch on the situation up at the 
D.C. VA hospital and then, just as importantly, what led you to 
set in motion such significant changes, and have your market 
assessments of different healthcare markets revealed systemic 
problems, and are you considering delayering the VHA and 
getting rid of the VISN level?
    Secretary Shulkin. First of all, very briefly, just to 
update you on the Washington, D.C., situation, back in April of 
2017, the inspector general called me in an unusual step and 
said: I want to tell you about what we are finding during this 
review.
    The results were so concerning to me, that day, I removed 
the medical center director. We ended up having to remove him 
twice because the court made us bring him back. But we have new 
leadership in place, Mr. Larry Connell.
    Since April of 2017, I think this is a very much better 
environment for our veterans. We have had an increase in 
veteran satisfaction to recommend that hospital by 26 percent 
just since April of 2017, which is a big, big number move.
    In terms of consults, we had 11,000 consults for 
prosthetics greater than 30 days. Today, that number would be 
zero. So we are seeing dramatic improvements in the care there.
    But what we learned from it was, it was a failure at every 
level of our organization. It should have never gotten to that 
point.
    And so when things are failing at the facility level, the 
VISN should know about it. When things are not getting 
addressed at the VISN, the Central Office needs to know about 
it.
    I will tell you that I was not aware of those types of 
problems. So what I did in this restructuring move was, we took 
three VISNs that I think that there was consistent evidence 
that there was not the proper flow of information, we no longer 
have VISN directors there, and we are trying a model where 
there is direct accountability to the VACO Office. That is 
delayering.
    And what I want is a plan submitted to me by July 1st for 
the entire country about how we look at what the role of the 
VISN should be, if there should be a VISN, and how do we get 
more direct accountability over performance.
    I have asked for a quicker plan for the Central Office by 
May 1st--I met with the team this morning to go over what that 
plan needs to look like--where we would delayer at the Central 
Office as well, because too much information is being passed up 
one level. And nothing is being done about it. We need to be 
fixing these problems, and the Washington, D.C., should be a 
wake-up call that these problems, like a 59-percent vacancy 
rate in supply chain people in a hospital, just should never 
exist. You can't run a hospital with a 59-percent vacancy rate.
    So I believe that we are now taking the appropriate actions 
in place to restructure this across the country.
    Mr. Dent. Thank you, Mr. Secretary.

                        ELECTRONIC HEALTH RECORD

    I want to get to the health record interoperability.
    VA's electronic health record is not only intended to be 
interoperable with DOD but also with the private sector. We 
understand that a big challenge to interoperability with the 
private sector is private health networks tend to hoard data 
for a competitive advantage and that incentives would be 
required to change their behavior.
    What incentives can you bring to the table to modify 
private health network behavior in this regard?
    Secretary Shulkin. Well, first of all, we have said to the 
Cerner Corporation that we are not going to sign a contract 
that is going to allow proprietary protection and information 
blocking to continue. We will not allow that for veterans.
    The Cerner Corporation has been extraordinary in working 
with us to respond to that. So I believe we will soon be in a 
contract that will be groundbreaking for new rules in 
interoperability.
    This is going to mean that Cerner Corporation is not going 
to hold intellectual proprietary rights to open APIs. Open APIs 
are the key to having free flow of information, as well as 
adhering to industry standards--these are called FHIR 
standards--that, again, we are going to build into this 
contract. When you have open APIs without intellectual property 
protection, you allow people to be able to develop them on 
behalf of veterans, and you use industry standards. You are now 
breaking open interoperability in a way that has not been done 
before, and we are going to do that.
    We have gotten 11 major hospital systems to sign on to a 
pledge that they will adhere to open APIs and industry 
standards. And more and more health systems who want to work 
with veterans--and I know all across the country there is a 
commitment to this--are going to be working with us on this 
pledge. We are going to change care not only for veterans, but 
across the country for all Americans by working with industry, 
by working with leading health systems to get this done. And we 
are working with CMS, of course, and the Office of the National 
Coordinator and the Federal Government to get this done.
    Mr. Dent. Thank you, Mr. Secretary.
    At this time, I would like to recognize the ranking member 
of the subcommittee, Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Just piggybacking on the chairman's question on the EHR 
process, what is a little troubling to me--I mean, I know you 
find it exciting that they are going to release their 
proprietary hold on their product--but the risk there is that 
you would have it lead to increased customization. And so, I 
mean, it is an internecine very vast network. You have already 
had some trouble with getting buy-in, and you have physicians 
and hospitals who like your own proprietary system that you 
invented--there is a great deal of pride there--but it is a 
DOS-based system, and it is the 21st century.
    So what oversight mechanisms are you putting in place to 
ensure that the VA has sufficient understanding of existing 
business processes so that you avoid--while you are going do 
have a bunch of open APIs--that you avoid costly customization 
that means that, essentially, you don't have an interoperable 
system that is seamless with DOD or across your whole system?
    Secretary Shulkin. I think what you are bringing up, 
appropriately, is this is a very, very risky, complex 
implementation. And you are absolutely correct that a lot of 
things could go wrong. But this is not so much about the 
technology as about how we manage change and management across 
the system. We are going to go from 130 instances to a single 
virtual instance in the VA. That is going to require the type 
of standardization that you are talking about, and that is 
really very complex.
    In order to do that, we are standing up a project 
management office. The project management office's job will be 
the oversight of that exact process of the change management 
process. And that needs to be clinician led and driven in the 
way that you are exactly right about where this could go wrong 
if we don't include our clinicians in this process.
    The open API process, I believe, in conjunction with these 
FHIR standards, will eliminate some of the risk of everybody 
doing their own thing. If you do it with open standards--and we 
are going to publish our model instance so that the whole world 
can see what we are developing and what the data points are--
that is going to allow us, I think, to avoid some of this 
proprietary customization that is going on in the market right 
now.
    Ms. Wasserman Schultz. I know we had spoken--I am not sure 
during which meeting or conversation we spoke about this--but 
that there has been an ongoing concern over whether 
interoperability would extend to the private sector. And 
MITRE's review, I know at least took a look at that, have those 
concerns about interoperability with the private sector, and 
will the private sector be able to share with the VA. Have 
those been alleviated with that part of their review? And 
overall, with your pause, are you following the recommendations 
of MITRE? I am not sure I am pronouncing the acronym right.
    Secretary Shulkin. No, you are.
    That was the total purpose of the pause in the review that 
we brought in MITRE for, who brought in experts around the 
country.
    They generated 51 recommendations. We are now building in 
all 51 recommendations.
    And, in addition to that, we have sought additional 
expertise, even beyond MITRE, because we know we have one shot 
at this. And, as you said, this is an expensive investment, and 
it is a long investment. And if we don't get it right in the 
beginning, I don't think that we are going to have a chance to 
go back and do it over.
    So we are taking extraordinary lengths to get the expertise 
around the country to give us their input. But we absolutely 
did build in the MITRE recommendations, and we are still 
looking to do a few more reviews before we say that we are 
ready to move forward. And, hopefully, that will be soon.

                             INFRASTRUTURE

    Ms. Wasserman Schultz. Okay. Just like one and a half more 
questions, Mr. Chairman, and then I am done.
    I mentioned in my opening remarks and to you, in our closed 
door meetings, about the concern and the difference between 
what our budget agreement was, which was to spend the increase 
in the budget for the VA on infrastructure investment. And as 
our ranking member said, the Mulvaney budget has abandoned that 
principle and put it into VA Choice and community care. That is 
on top of the $4.2 billion in the emergency supplemental.
    Can you explain why the additional funds were not used for 
infrastructure, and are we on the same page now that that is 
where the funds should go?
    Secretary Shulkin. I can't explain where the disconnect 
was. I think the chairman said it well, which is that there 
maybe was some informal communications that your intent may not 
have been understood the way that they are. We understand that 
this is your decision.
    We will be looking in 2018 for a $2 billion investment in 
our recurring maintenance, which I think is desperately needed 
and we greatly appreciate that.
    In 2019, the money was suggested to be moved into our 
Choice and community care funding, which is also needed, on top 
of the President's budget that requested an unprecedented 
increase in infrastructure and major or minor construction.
    So we think that the budget balance is appropriate, at this 
point, to make sure that we are addressing veterans' needs, as 
well as the investment in the infrastructure.
    And, Jon, I don't know if there is anything that you want 
to add to that.
    Mr. Rychalski. I would just say that, when we looked at the 
requirement, as Dr. Shulkin expressed, we suggested maybe $2 
billion in 2018. We also have in the omnibus, I think, the 
potential--depending on how that turns out--of $2.1 billion 
between nonrecurring maintenance and minor construction. And 
then our request in 2019 is pretty substantial.
    So we felt that, between those three, that would probably 
adequately address us now for infrastructure needs. And, 
frankly, we do have a need in Choice. So it just seemed like a 
balanced approach where we would have enough for infrastructure 
and still meet the needs for care.

                        PRIVATIZATION OF VA CARE

    Ms. Wasserman Schultz. Okay. And my leftover half a 
question here is, piggybacking on our ranking member's and your 
response on the lopsided difference between the increase in the 
size of the female suicide rate in private care versus VA care. 
I mean, I think that underscores the point about not going 
pell-mell in the direction of privatization and investing more 
than a 9-percent increase in your needs on that side in the VA 
side of the House, but what you didn't really answer in the 
last round for me was: Has this administration, or anyone, 
pushed you to move the VA in the direction of privatization?
    Secretary Shulkin. First of all, I think your observations 
are absolutely correct. It is the reason why I am not in favor 
of privatization, because you can't take 9.1 million veterans 
getting care in the VA system, 60 percent that carry a mental 
health diagnosis----
    Ms. Wasserman Schultz. Who wait longer now than they do at 
the VA.
    Secretary Shulkin. Right, exactly.
    And just release them into the general public and think 
that we are going to honor our commitment to our veterans. It 
just simply couldn't work by turning on a switch and 
privatizing it.
    The President is very, very committed to improving services 
for veterans. There is no pressure to privatize. There is 
pressure to fix the system.
    And the way and that we are going to fix the system is by 
investing in VA where it needs to be improved, the way that you 
are pushing us to, as well as by working with the private 
sector, where they can do it better or they have better access 
than we have.
    And so that is really the only pressure to get this system 
working better and not to have the continued problems that we 
have been seeing for decades in the VA.
    Ms. Wasserman Schultz. Okay. Well, I look forward to 
continuing to work with you toward those goals. Thank you so 
much. Thank you for your service.
    Mr. Dent. At this time, I would like to recognize the 
gentleman from Virginia, Mr. Taylor, for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman.

                  VACANT AND UNDER-UTILIZED BUILDINGS

    One quick thing before I get to suicide. On the request for 
$2 billion in fiscal year 2019 and then a substantial request 
in 2019 for infrastructure, understanding that there are 
infrastructure needs--just real quick--I know, earlier on in 
the year, we had a hearing and we talked about the not utilized 
or underutilized office space--700 or something buildings. 
Where are we at in terms of progress for that, because that 
sounds like it could be a significant savings?
    Secretary Shulkin. We have, to date, disposed of--when I 
say ``to date,'' since February of 2017--disposed of 131 of 
those facilities. Eighty-three percent of the remaining 
facilities have historic preservation status, which just makes 
it a longer process. But we maintain the commitment to get out 
of all 435 of the vacant buildings; the rest that are 
underutilized, another 700 or so, we are working to make sure 
that we adhere to not investing resources in places where 
veterans aren't getting advantage of it. And so we are 
continuing to work on that list. We knew this would be 
challenging, but we are making progress.
    Mr. Taylor. Thank you. Following up on something that 
Congressman Rooney talked about, and then also Congressman 
Ryan. I believe some veterans have been overprescribed drugs or 
just money thrown at the problem. And, quite frankly, even on 
the veteran side, there have been folks that have taken 
advantage and claim PTSD or TBI or something like that to get 
benefits and then not seek treatment. So I think, veterans, we 
have to look ourselves in the mirror, too, and be responsible, 
because if someone does that, you are just taking away from 
someone else.

                       COMMUNITY OUTREACH PROGRAM

    On that note, the $190 million spent on outreach with VSOs 
and telehealth and hotlines and such, the Congressman brought 
up a great point in terms of veterans who are out there, and we 
know from suicides, a lot of them are over the age of 50. How 
or are we also sending out letters to the folks that are in the 
database that are known veterans to say, ``Hey, listen''--not 
just looking for them with the VSOs or faith-based 
organizations, but directly to the veterans, ``Hey, if you are 
having these problems, come see us''.
    Are we doing that, and if not, are we going to?
    Secretary Shulkin. We are trying a number of things. That 
is why this is our top priority. And we are going to continue 
to try new approaches here.
    We do have a community outreach program, a public service 
message. Tom Hanks is our national spokesperson, #BeThere or 
www.BeThereforVeterans.com. And we will continue to try to get 
the message out there.
    But, in addition, we are using big data analytics, 
predictive analytics.

                          PREDICTIVE ANALYTICS

    Mr. Taylor. If I may, I am sorry. I love Tom Hanks, but 
directly to the veterans. To his point, he hasn't gotten 
anything, and I haven't gotten anything saying that. But is 
there something that is going directly to veterans, not just 
looking for them?
    Secretary Shulkin. What we are using in predictive 
analytics is identifying those that are at the highest risk. 
And we are doing direct outreach calls to them, asking them to 
come in. Every medical center is involved in this now. Those 
that we know can use the benefit the most and proactively 
reaching out. We are adding suicide prevention coordinators at 
each of our medical centers. These are people whose job it is 
to outreach specifically the veterans.
    If you have additional ways that you think we should be 
reaching out, we are open to new ideas.
    Mr. Taylor. Okay. I appreciate that.
    And another thing you mentioned is prevention, which I 
think is extremely important, too. There is a verifiable gap. 
And you have heard me say this before, certainly especially in 
Special Forces, where they do a great job in Active Duty, and 
these are the populations that are going back and forth in 
combat over and over again; they do a great job on Active 
Duties to prevent suicides. But then they get out, and we are 
certainly part of that group, that 14 that will never seek care 
from the VA or a hotline or anything like that. But there is 
definitely a gap there.

               DOD AND VA SUICIDE PREVENTION COORDINATION

    Has the VA coordinated with DOD in terms of prevention, 
like pilot programs, you know, speaking about the best 
practices in these units that know they have issues and they 
have problems and do a good job of preventing suicides on 
Active Duty, has the VA coordinated with them to figure out 
what the best practices are--perhaps baselines with units that 
are more susceptible to TBI and blast and CTE and stuff like 
that--to figure out, ``Okay, you have a baseline, this is where 
you are,'' which is something that we are implementing in Naval 
Special Warfare, but it sounds like something that could be a 
partnership with the VA and DOD to prevent it, therefore, 
saving lives, saving families, and then costs as well?
    Secretary Shulkin. I think you are right. And, first of 
all, I should say Secretary Mattis has been extraordinary to 
work with. Many of the barriers that existed in the past 
between DOD and VA have just gone away, and we are working much 
closer together.
    I did what I thought the very best thing to do, to get that 
closer working relationship, is that we took the head of 
suicide prevention from the DOD and moved her over to VA on 
detail. So we have now singular leadership who understands 
exactly what you are saying about DOD and VA who are directing 
our efforts. And she is Dr. Franklin. She is bringing us really 
much closer together on these efforts. I have met with Admiral 
Lane. I have met with the heads of the Services to talk about 
what we know that we can work better together on, and this is a 
priority.
    Mr. Taylor. Is there anything we can do as Members of 
Congress to help that effort?
    Secretary Shulkin. I have to tell you, I don't see anything 
standing in the way right now. We are all focused on this 
issue. It seems like we are making more progress now than we 
have in years.
    Mr. Taylor. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Dent. I recognize the gentleman from Georgia for 5 
minutes, Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    I would like to return for a moment to the issue of 
construction. I think it was touched upon earlier.
    One of the priorities that you have laid out is to focus 
resources more effectively, and you allocate nearly $2 billion 
for major and minor construction.
    Can you discuss with me what the VA is doing to ensure that 
construction is done in the most efficient and cost-effective 
manner?

                              CONSTRUCTION

    And I ask this because I have long awaited for construction 
on the Columbus, Georgia, community-based health clinic to 
begin. And I am also awaiting word from the VA on the recipient 
of the award for the contract.
    And, moreover, there have been issues that have been 
brought to my attention that have arisen with VA's construction 
process.
    One specific project is the emergency room expansion at the 
VA North Health Care center in Dallas, Texas. I am told that 
this particular project experienced numerous concerns, such as 
extraordinarily slow implementation of contracts, which 
resulted in extension of an 18-month project by 16 months; 
improper direction from the contracting officer, suggesting 
that the contractor should submit the application for payment, 
although the VA hadn't obtained funding for a change order on 
the work; and various other contractor problems.
    What is the VA doing to really manage this construction 
process and to make sure that the contractors are performing, 
or are allowed to perform, and that the contracting officers 
really are adequately and efficiently managing the contracts?
    Secretary Shulkin. I think the facts of the past and the 
history suggest that we should have a lot of reason to be 
concerned about our ability to construct on time and on budget, 
so this is clearly a work in progress. As you know, we have 
been asked to bring in the Army Corps of Engineers on our major 
construction projects for greater oversight.
    In terms of the way that we operate internally, we are now 
in the process of a reorganization of our construction and 
facilities program. That is going to be reporting directly up 
to our Deputy Secretary to provide greater Department oversight 
and visibility into these processes.
    We do know that there is significant risk in dollars in not 
doing this right.
    The specifics on the Dallas facility, I am going to have to 
get back to you with further information on that. But we know 
there are enough examples like that that suggest that we have 
to be organized differently in order to be better stewards of 
taxpayer resources, quite frankly. This is something that the 
Deputy Secretary is taking on directly.
    [The information follows:]

    Construction on the Dallas VAMC emergency room expansion 
project was completed on July 6, 2018. Ribbon cutting occurred 
on August 9th.

    Mr. Bishop. I appreciate that. And let me go to the 
question of medical research.
    As one of four statutory missions, the Department is 
required to conduct education and training programs for 
students in health professions to enhance the quality of care 
that is provided to veteran patients within the VHA healthcare 
system. As you know, one of my major concerns over the years 
has been the VA's relationship with Historically Black Colleges 
and University Medical Schools.

            VA PARTNERSHIPS WITH HISTORICALLY BLACK COLLEGES

    Can you elaborate on VA's partnerships with Historically 
Black Colleges and Universities and what the VA can do to 
increase targeted training and education programs at the 
Historically Black Colleges and Universities, and other 
minority-serving institutions, and what plans the Department 
has to expand relationships with these institutions?
    Secretary Shulkin. We have reached out to these leading 
organizations around the country, and we want to do more. We 
think that VA offers tremendous training opportunities, and, 
frankly, it is in our interest to train these students so that 
they will look at VA as a potential future career.
    Just this week, I received a letter from the dean of 
Meharry Medical College and Morehouse Medical College 
reinstating their commitment to work with us on this and asking 
that my office be directly involved in making sure that we 
continue the progress.
    Our previous chief of staff had the lead in this, and since 
she has left the organization, we want to make sure that there 
is not a gap or a drop in that commitment, which we are 
extremely committed to, and they are committed to. So we are 
going to continue to work very closely with them to get more 
educational opportunities for their students into our 
organizations.
    Mr. Bishop. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary.
    Mr. Dent. Thank you, Mr. Secretary.
    Ranking Member, do you have any additional questions at 
this time?
    Then, Mr. Secretary, I would like to thank you for your 
presentation. It is great to be with you again. Thank you for 
all the great work you are doing at the VA. It is a pleasure 
working with you.
    The next hearing is going to be on April 10.
    With that, this meeting is adjourned.
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   

                                          Thursday, April 12, 2018.

FISCAL YEAR 2019 BUDGET OVERSIGHT HEARING ON ENERGY, INSTALLATIONS, AND 
                              ENVIRONMENT

                               WITNESSES

HON. LUCIAN NIEMEYER, ASSISTANT SECRETARY OF DEFENSE OF ENERGY, 
    INSTALLATIONS, AND ENVIRONMENT, DEPARTMENT OF DEFENSE
LIEUTENANT GENERAL GWEN BINGHAM, ASSISTANT CHIEF OF STAFF FOR 
    INSTALLATION MANAGEMENT, U.S. ARMY
VICE ADMIRAL DIXON R. SMITH, DEPUTY CHIEF OF NAVAL OPERATIONS, FLEET 
    READINESS AND LOGISTICS, U.S. NAVY
MAJOR GENERAL VINCENT A. COGLIANESE, COMMANDER, MARINE CORPS 
    INSTALLATIONS COMMAND AND ASSISTANT DEPUTY COMMANDANT, INSTALLATION 
    AND LOGISTICS, U.S. MARINE CORPS
MAJOR GENERAL TIMOTHY S. GREEN, AIR FORCE DIRECTOR OF CIVIL ENGINEERS, 
    DEPUTY CHIEF OF STAFF FOR LOGISTICS, ENGINEERING AND FORCE 
    PROTECTION, U.S. AIR FORCE

                   Opening Statement of Chairman Dent

    Mr. Dent. Good morning. Good morning, everybody, and I 
would like to welcome everybody to this morning's hearing, and 
oversight Hearing on Energy, Installations and the Environment 
for Fiscal Year 2019.
    It is great to see that the fiscal year 2019 budget request 
of $11.3 billion for military construction and family housing, 
including Overseas Contingency Operations (OCO), is an increase 
of $1 billion, or 9.6 percent above fiscal year 2018 budget 
requests and about $412 million above the fiscal year 2018 
enacted level.
    So hopefully this increase will address some of the most 
urgent construction needs within the services. The bipartisan 
budget agreement modified discretionary spending caps imposed 
by the BCA for fiscal years 2018 and 2019, which I am sure was 
a great relief to all in this room.
    The committee is still concerned how force structure 
changes will affect the military construction budget in fiscal 
year 2019 and beyond.
    Another high-profile issue is the European Deterrence 
Reassurance Initiative, which our allies are very interested in 
and for which the fiscal year 2019 budget request includes 
$921.4 million for 11 countries.
    Last, we have all a keen interest in managing our 
facilities better in terms requirements versus capacity, both 
overseas and in the United States. The panel before us today 
has a lot of answers to these questions, I am sure.
    But before I introduce our witnesses, I would like to turn 
to the ranking member, my friend and colleague from Florida, 
Ms. Debbie Wasserman Schultz, for any opening remarks that she 
might like to make at this time.

         Opening Statement of Ranking Member Wasserman Schultz

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. I am 
pleased that we are going to be able to talk about the 
President's 2019 military construction budget request today. 
And while we normally have the civilian leadership here, we are 
really thrilled to have the distinguished servicemembers who 
are able to join us, so you can help explain military 
construction priorities and services.
    As you all know, we are once again functioning under 
another 2-year budget compromise passed by Congress earlier 
this year. The budget compromise raised the fiscal year 2018 
defense spending level from $549 billion dollars to $629 
billion, which is an $80 billion increase. For the second year 
of the deal, it provides an $85 billion increase.
    It was my hope these additional funds, however, would be 
better distributed among the Defense Department's needs, 
notably to ease the crowding barracks and address the mold and 
rust and other challenging conditions that we sometimes see. 
However, it appears that the focus remains on weapons systems 
and readiness.
    I am concerned about the Department's investment priorities 
for infrastructure. From 1990 to 2017, the percentage of MILCON 
family housing and the Department's obligational authority only 
increased from 1.2 percent to 4.5 percent. I am troubled that 
the Department is neglecting this need.
    If you remove specific initiatives like Overseas 
Contingency Operations (OCO) construction, base realignment, 
closure rounds and grow the force initiatives, the MILCON 
percentage of total Defense Department funding is likely much 
lower.
    While I believe that each of you has done a great job 
prioritizing your service's needs with the resources you have 
and doing what is best for the warfighter with the funds you 
request, this lack of investment compounds over time, as I have 
said to some of you when we met in my office. And it has real, 
often negative consequences for those who serve.
    For example, at Alaska's Joint Base Elmendorf-Richardson, 
the Air Force was concerned that they would have to park their 
$100 million F-35 outside because the hangar was simply not 
sufficient. I have been to other bases where outside parking of 
very expensive aerial equipment is a problem, so it is not just 
Alaska that is the problem.
    In Hawaii, at Joint Base Pearl Harbor-Hickam, the National 
Guard parks the F-22, a fifth-generation fighter that costs 
$339 million per airframe, inside a clamshell hangar made of 
semi-permanent tensile fabric and aluminum. Given that I live 
in hurricane alley, I can assure you this is simply not 
optimal.
    In addition to the lack of investment in our facilities 
that we need to house our weapons systems, I believe we are 
failing to invest in our most important asset; the soldier, the 
Marine, or the airman or sailor who protects our nation.
    Servicemembers and their family are regularly voicing 
frustrations over poor barracks conditions. I have had those 
frustrations expressed to me directly, the very places that we 
often ask our warfighters to return home to after tours. These 
brave men and women deserve decent shelter, and I fear that we 
are not always providing that.
    I am especially concerned that quality of life projects 
continue to be set aside as you all are forced to focus on 
other needs of the department. The Department of Defense 
leadership needs to do a better job of investing in critical 
infrastructures, and request a realistic number for military 
construction to ensure we have 21st century facilities to go 
with our 21st century weapons systems.
    What happens is that MILCON gets the leftovers. I mean, 
that is basically what happens. All the other budget priorities 
are taken care of and then whatever is left over is parked in 
MILCON. I would bet if we had more extensive conversations 
privately, each of you would agree.
    Mr. Chairman, in addition to making sure that we have 
modern infrastructure, we need to make sure that the Department 
is able to get rid of the infrastructure that it no longer 
needs.
    The recent National Defense Strategy stated that the 
department, quote, ``Will also work to reduce excess property 
and infrastructure, providing Congress with options for a base 
realignment and closure.'' I was surprised to see that after 6 
straight years of requesting a BRAC ground coupled with a 
National Defense Strategy, the Administration chose not to do 
so for fiscal year 2019.
    While I understand that a BRAC would be difficult for 
members, we cannot keep maintaining infrastructure that we no 
longer need. I am curious as to why we are taking a tool for 
saving money off the table.
    In addition to excess infrastructure, I have questions on 
why the Department plans to build another prison at Guantanamo 
Bay, a facility we should be closing. A $69 million facility--a 
$69 million facility--is a complete waste of valuable 
resources.
    And building a brand new facility for less than 50 people 
is a serious misallocation of resources, especially when you 
factor in that we will have to pay the sustainment costs for 
the next 5 years while the prison is being built.
    There are far higher MILCON priorities for which we could 
use that funding, some which I just described. As you can see, 
Mr. Chairman, we have some difficult issues to cover today, and 
I thank you for the opportunity to share my concerns.
    And if I could, Mr. Chairman, though, before we begin, I 
want to take a brief moment to acknowledge someone very special 
to me, who has been a part of my team on and off for a very 
long while.
    My Deputy Chief of Staff, Rosalyn Kumar will serve her last 
week with the United States House of Representatives next week, 
and this is her last hearing with us. I just wanted to thank 
her for her service, and not only to our country, but to me and 
the constituents of Florida's 23rd Congressional District. 
[Applause.]
    Ms. Wasserman Schultz. With that indulgence, I yield back 
the balance of my time.
    Mr. Dent. Thank you for those comments, Representative 
Wasserman Schultz. And Rosalyn, thank you for your service. It 
is much appreciated and we wish you all the best in your next 
chapter in life, whatever that may be.
    And but thank you for your dedicated service to the 
Congress when you entered this institution. It is deeply 
appreciated. We can't say thank you enough to a lot of the 
staff around here who really do a lot to help make us look very 
good on a regular basis.
    So with that, I would like to now introduce our very 
distinguished panel of guests, starting first with Mr. Lucian 
Niemeyer, Chadds Ford, Pennsylvania's finest.
    Mr. Niemeyer. Amen.
    Mr. Dent. Amen, yes, okay. Assistant Secretary of Defense 
for Energy Installations and Environment, Office of the 
Secretary of Defense.
    He is accompanied by Lieutenant General Gwen Bingham, 
Assistant Chief of Staff for Installations Management, U.S. 
Army. Thank you for being here.
    Vice Admiral Dixon Smith, Deputy Chief of Naval Operations, 
Fleet Readiness and Logistics, Navy.
    Major General Vincent Coglianese, almost Lansdale, 
Pennsylvania's finest, by the way, Commander, Marine Corps 
Installations Command and Assistant Deputy Commandant for 
Installations and Logistics FACILITIES.
    And Major-General Timothy Green, Director of Civil 
Engineers and Deputy Chief of Staff for Logistics, Engineering, 
Force Protection, Air Force. I am glad that civil engineers get 
a shout out in your title.
    And thank you for taking time to be here and for sharing 
your perspectives and expertise. And without objection, all 
written statements will be entered in the official record. Due 
to the number of witnesses, Mr. Niemeyer, please summarize your 
statement in about 5 minutes, if you would, so that we can 
maximize a time for dialogue between the panel and the 
subcommittee members.
    With that, you are recognized, Mr. Niemeyer.

                       Statement of Mr. Niemeyer

    Mr. Niemeyer. Chairman Dent, Ranking Member Wasserman 
Schultz, I really appreciate the opportunity here to discuss 
with you the President's fiscal year 2019 installations and 
environment programs.
    We look forward to working with this committee to support 
the priorities of the department and the quality of life for 
the military members and the family members who are called to 
sacrifice so much on behalf of our country.
    I have submitted my written statement for the record, and I 
am honored to speak on behalf of my colleagues representing the 
services here this morning.
    I wish we had prizes for how long our titles are. It seems 
that we get the longest in the Department of Defense, but I am 
definitely honored to speak on their behalf, and I am sure you 
will be able to talk to them more during the question period.
    Chairman Dent, I also realize this may be my one and only 
time testifying before you. I want to personally thank you on 
behalf of the women and men in the military for your service to 
our country and Congress. And I really appreciate the 
opportunity.
    We are grateful to Congress and the American people for the 
recently enacted Bipartisan Budget Act of 2018, which provided 
the resources to begin the recovery from the impacts of 
sequestration.
    We have a responsibility now to honor that trust of the 
American people, by spending each defense dollar wisely to 
address the most urgent priorities, to build a more lethal, 
resilient and rapidly innovating joint force.
    Earlier this year the President released a national 
security strategy, which guided the development of a national 
defense strategy to clearly articulate the threats and the 
challenges our nation faces around the world.
    Our mission is clear. We must be prepared to defend the 
homeland, remain the preeminent military power in the world, 
and advance international order that promotes security and 
prosperity.
    The strategy confronts the stark reality that the homeland 
is no longer a sanctuary. America is a target, whether from 
terrorists seeking to hurt our citizens, malicious cyber 
activity against personal, commercial or government 
infrastructure, or political and information subversion.
    Attacks against our critical defense, government and 
economic infrastructure must be anticipated, and more 
importantly, must be deterred. The strategy laid out by the 
Secretary of Defense also requires each of us in the department 
to help drive budget discipline and affordability in order to 
direct resources to the highest warfighter requirements.
    In our responsibilities for those who are at the table, we 
strive for the effective use of installations and ranges. Our 
2019 budget priorities enable the department to establish a 
foundation for rebuilding the U.S. military into a more 
capable, lethal and ready joint force. Each military services 
has distinct readiness recovery plans, and the increases are 
targeted to advance these plans.
    I know I speak for my colleagues to emphasis that 
readiness, modernization and reform are our top three 
priorities for each service. The Department of Defense supports 
these efforts.
    Continued congressional support for installations ensures 
that we sustain a total force that is lethal, efficient and 
trained to counter all threats across 21st century multi-domain 
battle space.
    In supporting these priorities, DOD representatives before 
you today provide warfighter capabilities through over 585,000 
installations facilities and over more than 500 bases.
    With replacement costs exceeding $1 trillion, and that 
doesn't include the 27 million acres that we train on, we also 
construct facilities to provide our combatant commanders 
overseas, in partnership with our allies, the base capability 
and adaptability needed for worldwide flexibility.
    The continued support of Congress, and in particularly the 
hard work of this subcommittee, enables us to enhance agility, 
resiliency and the readiness and lethality of our forces around 
the world.
    With a clear understanding of the roles of this team at 
this table supporting that strategy, we have set forth the 
following objectives to confront the challenges posed by years 
of underfunded facility accounts and as well as infrastructure 
accounts.
    Number one, we are using every program and funding source 
available to us to eliminate waste in Department of Defense 
(DOD) installations in infrastructure.
    Number two, we continue to advocate for adequate funding 
for the installation and infrastructure accounts to meet 
mission requirements and to address risks to safety and 
readiness.
    Number three, we are working to protect installations and 
ranges from incompatible development and to enhance the combat 
credibility of our nation's test and training ranges. And that 
is an important point. How do we actually start simulating more 
of what we may face around the world, and the abilities to 
resource that to be able to provide our warfighters an adequate 
training and test environment?
    We are implementing programs to enhance the inner security 
of our forces and assets. This is one of our highest priorities 
here, and we ask for the support of the committee. What more 
can we do to make ourselves more resilient, more secure from 
those who want to attack our electrical grid, or attack or 
exploit our facility related control systems where we really 
need this continuous support of this committee in those 
particular priorities.
    We are exploring new opportunities, number five, for third-
party partnerships engaging with industries to determine the 
best practices for our current challenges.
    Number six, we are working with the military engineering 
contracting community to develop smarter contracts and to 
execute our contracts more smartly.
    We continue to provide for the safety and welfare of our 
people and our resources through unparalleled environmental 
stewardship and occupational safety programs.
    And last, but definitely not least, we are enhancing our 
collaboration with the hundreds of defense communities that you 
represent and we represent around the nation, supporting our 
bases and providing for the quality of life for our troops and 
their families.
    These guiding principles will allow us to apply the 
resources requested in fiscal year 2019 budget to achieve real 
results. We have requested $10.5 billion for military 
construction and family housing appropriations, an increase of 
about $700 million from the fiscal year 2018 base budget.
    While this request before you makes significant progress in 
recapitalizing facilities in poor and failing condition, this 
year's funding will not fully restore the damage caused by 
years of sequestration.
    Many of our facilities have degraded significantly from 
reduced investments in all accounts. As the ranking member 
pointed out, the department currently has an unfunded backlog 
exceeding $116 billion. A lot of our facilities are in either 
failed or poor condition.
    This will ultimately result in DOD facing larger bills in 
the future to go ahead and restore or replace facilities that 
deteriorate prematurely. The stark reality is that it may be 
too costly to buy or sell us out of this backlog.
    The Department must ensure that its infrastructure is 
ideally sized to increase the lethality of U.S. forces while 
minimizing the costs of maintaining unneeded capacity, which 
otherwise diverts resources from critical readiness and 
modernization requirements.
    As noted in the National Defense Strategy, we continue to 
work to reduce excess capacity in infrastructure. And we will 
work with Congress on options for base realignments and 
closures.
    We realize that we have asked for 6 years, and for 6 years, 
Congress has said no. We can't keep doing that. We have to work 
with you on a common way forward that will allow us to make 
prudent reductions in our infrastructure.
    We must ensure that our basic infrastructure is ideally 
sized to increase the lethality of our forces while minimizing 
the costs of maintaining unneeded capacity.
    These efforts will be enhanced by a careful evaluation we 
are currently conducting of how and where we base new forces, 
new technologies, new capabilities in support of the national 
defense strategy. Where and how we base new hypersonic systems, 
autonomous vehicles, cyber forces that will have an impact on 
their lethality.
    We need to assess the ideal methods for the training and 
deployment of the directed energy programs, electronic warfare, 
and artificial intelligence programs. All of these concepts, 
which are called for and this country desperately needs, needs 
to have a basic infrastructure that will allow us to be able to 
train them effectively.
    In lieu of another BRAC request in 2019 to authorize 
initial BRAC round, we are reviewing our facilities to include 
facility usage optimization. Are we actually ideally sized and 
are we putting the right number of people in our buildings to 
ensure we have a better accounting of excess infrastructure.
    Our efforts will allow us to work with Congress further on 
fair, objective and transparent options for future base 
realignments and closures.
    Absent a new request and a new BRAC round, DOD has also 
largely been focused on routine demolition and renovation of 
buildings is part of our MILCON program. The Department is 
dedicated additional resources in fiscal year 2019 to demolish 
more unneeded facilities, including $442 million specifically 
for demolition and another $65 million as part of our MILCON 
program. This is one step we can take now to go ahead and meet 
that goal.
    In order to deliver maximum results for our MILCON program, 
we are targeting funding into key areas and I will go through 
that. As actually I have submitted those for the record, and I 
will go ahead and point those out, but they are stated for the 
record.
    One program that is absolutely essential to us, Mr. 
Chairman, is the ERCIP program. That is the Energy Resiliency 
Conservation Improvement Program (ERCIP). We are using that 
$150 million, and we hope at some point we will be able to 
raise that, to allow us to address those critical resiliency 
projects that are absolutely important for us for energy 
security.
    For many years we have been doing energy projects that 
don't necessarily feed those critical missions. We are trying 
to get that changed right now, put investments so all those 
projects we worked on the last few years, we can now power our 
critical facilities.
    The Department is also committed to protecting the quality 
of life for military personnel and their families by ensuring 
access to suitable, affordable housing and unaccompanied 
barracks. The environment and quality of life which our forces 
and families experience, has an impact on their ability to do 
their job and the ability of our departments to recruit and 
retain.
    We do have a significant unaccompanied barracks 
recapitalization program, well over $1 billion. And we look 
forward to help us renovate or upgrade over almost 2,000 new 
beds. And we are very proud of the fact that we continue to 
invest in those types of quality of life projects.
    We do have challenges we are facing. We have an unstable 
bid climate, particularly as a result of the storms that have 
affected the southern part of the United States and Puerto 
Rico.
    That is driving uncertainty in our military construction 
programs, for which we are asking for to have the flexibility 
to be able to continue to apply bid savings for those projects 
that we desperately need that are high priorities that we need 
to continue, even though we might have a higher bid than usual 
due to what is happening with our labor markets. But ask for 
your support in helping us maintain those unobligated balances.
    We also have challenges with project delivery. This 
committee and the Appropriations Committees last year had some 
serious discussions and we have taken on some serious efforts 
with the Army Corps of Engineers and Naval Facilities Command 
on trying to get better project delivery.
    Too many of our projects are coming in behind schedule or 
over budget. We are working very diligently with our 
construction manager partners to try to rein that in.
    Restoring the military readiness requires us that we 
maintain access to training lands and for the protection of the 
health of our force.
    The Department's environmental budget accomplishes these 
objectives through activities ranging from managing critical 
habitats to avoiding training restrictions to addressing 
drinking water health advisories are making the best use of 
limited clean-up dollars.
    Our warfighters also need unencumbered access to land, 
water and air space to----
    Mr. Dent. Mr. Secretary? Mr. Secretary, may I ask that you 
wrap up your remarks quickly because I would like to let the 
other panelists make some brief remarks. I want to keep as many 
members as I can here for questioning.
    Mr. Niemeyer. Sure thing. I will go ahead and just point 
out the fact that we are also working on land management 
issues. And I will go ahead and just finalize comments to the 
extent of saying thank you, Mr. Chairman. Thank you, ranking 
member and thank you for the members of the panel for your 
support for our priorities and continued support for the men 
and women of the military. Thank you.
    [The information follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Mr. Dent. Thank you. And I would like to see if any of the 
other panelists would like to make any opening remarks for the 
record?

                   DOD JURISDICTION FOR A BORDER WALL

    If not, then I will go right to the questions. We will 
start right in. And first, Mr. Niemeyer, I would like to talk 
about the so-called border wall. Ultimately, the border wall 
would be a function of the Department of Homeland Security. It 
would be under their bill if it were to ever be funded.
    What part of the wall would be at the cost to DOD and 
specifically for military construction? And what authorities 
currently exist to enable MILCON dollars to be used to pay for 
the so-called wall? Are there any new authorities that would be 
required?
    Mr. Niemeyer. So we are in the preliminary stages of 
responding to the President's desire to want to do more on the 
border. As you know, we have already deployed forces there, 
consistent with what has been done in the past.
    And as far as additional investments for the wall itself, 
we are exploring options about what potentially could be done. 
We are very much in the preliminary stages of that. There are 
authorities that do exist in law, but we understand that 
Congress provided those authorities for very specific 
instances.
    And we are looking to see to what extent that they could be 
used, to what extent they are appropriated more importantly. 
Our continued desire to want to work with the committees to 
making sure that we are working with you on the use of those 
authorities.

                  COST OF DOD PORTION OF A BORDER WALL

    Mr. Dent. And what do you think the cost to DOD would be in 
terms of MILCON? You haven't been able to determine that?
    Mr. Niemeyer. First of all, we have determined that we 
would be looking at a relatively small portion of the overall 
1,900-mile construction. So we are really looking at the 
portion that runs adjacent or along the Barry Goldwater 
Military Range. So we are talking total of about 37 miles.
    We don't have a firm estimate because there is a range of 
options about what we would be asked to do there. So we are 
still exploring that, to what degree we can do that and what 
ultimately it would cost. I don't have any firm estimates for 
you at this time.
    Mr. Dent. Okay. Is it correct too that DOD can only build 
on DOD property?
    Mr. Niemeyer. That is the current understanding, sir.
    Mr. Dent. Okay. And you said the approximate number of 
miles is about 37 on the Goldwater Range? That is about the 
extent of it then?
    Mr. Niemeyer. That is what we are looking at right now and 
part of that already has a barrier, so----
    Mr. Dent. So the whole 2,000-mile border under MILCON, 
maximum you would estimate would be 37 miles?
    Mr. Niemeyer. We have not been asked to take a look at the 
entire portion for use of DOD dollars.
    Mr. Dent. Okay, and all right. Thanks for that answer. I 
appreciate that.

                  RHINE ORDNANCE BARRACKS ENERGY STUDY

    I would like to also now move to another issue for you, Mr. 
Niemeyer. In fiscal year 2018 a House report for the committee 
we directed the Defense Health Agency to report to Congress on 
specific changes in Germany Energy Law that delayed the Rhine 
Ordnance Barracks Medical Center's replacement lifecycle cost 
analysis. That is a mouthful, and what effect the changes have 
on current facilities and construction in the region.
    Could you provide us an update on the energy study and what 
effects, if any, the changes would have the replacement 
project?
    Mr. Niemeyer. So I can give you some overall response to 
that legislation. I think the Army can give you some specifics 
about what we are looking at for that particular area. We 
definitely understand the intent of Congress.
    There is a concern that using sources that would be 
dependent on Russia is probably not in our best interests right 
now because it is subject to potentially as being disrupted. So 
we are looking at a dedicated preferred domestic source of fuel 
that will allow us to have the flexibility and the freedom 
without necessarily relying on foreign energy sources.
    And, you know, I am not sure--General Bingham if you have 
anything to add to that?
    General Bingham. Good morning, Mr. Chairman. I really can't 
talk to the specifics of the source for that particular 
hospital, but I can tell you that decision-making process is in 
progress. And we will look at the reliability of those energy 
sources.
    What I can tell you as it relates to in the broader scheme 
of energy security and resilience, last year our Acting 
Secretary signed out a directive whereby all our installations 
would get after being able to provide for energy and water 
security for a period of 14 days. We are taking our threats 
very seriously to that end and going about it that way.
    Mr. Dent. Thank you for that answer.

          BIPARTISAN BUDGET AGREEMENT INCREASE FUNDING FOR DOD

    And now my final question before I yield to the ranking 
member. As a result of the budget deal for fiscal years 2018 
and 2019, there is an increase in Department of Defense 
funding, as you all know. I supported that budget agreement and 
want the department to spend the money wisely.
    I do not support any intention or idea to alter this 
agreement at this time. Could you provide some insight to the 
committee on how the department plans on spending the increase 
in military construction dollars?
    Mr. Niemeyer. For?
    Mr. Dent. For 2019.
    Mr. Niemeyer. For 2019?
    Mr. Dent. Yes.
    Mr. Niemeyer. Mainly looking at our National Defense 
Strategy and seeing where we have additional requirements that 
could be funded. It runs the gamut from operational facilities. 
We are looking at some additional projects overseas for 2019 
that we added to our budget. But as far as significant cuts it 
is about a $700 million total that we were able to add to our 
overall requests.
    Mr. Dent. Thank you.
    And at this time I recognize the ranking member for her 
questions.

                 HIGH VALUE DETENTION FACILITY AT GTMO

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Secretary, I mentioned in my opening remarks my concern 
about the Administration's proposed fiscal year 2019 $69 
million expenditure for a high value detention facility at 
GTMO. That facility would be built for 41 people at best. Due 
to potential transfers that have been reported in the press, 
that number could drop.
    But even with the 41 detainees, it would cost $1.7 million 
per detainee for this facility. It is a facility that wouldn't 
even be finished until 2022.
    Given that in my opening remarks and in our conversation in 
my office, we have both acknowledged that there are very high 
priorities, many of which the chairman and I have seen; whether 
it is in Puerto Rico, in Florida, across the country, across 
the world in MILCON, that I would say are a much higher 
priority in terms of their deterioration than the plight of 
providing a better facility for a maximum of 41 detainees in 
GTMO, a facility that should be closed.
    Can you explain why we need a facility for 41 people to 
spend $1.7 million----
    Mr. Niemeyer. Yes, ma'am.
    Ms. Wasserman Schultz [continuing]. Per detainee rather 
than making sure that we can take care of our service personnel 
who certainly could benefit much more from those funds?
    Mr. Niemeyer. Yes, ma'am. I mean, this is a tough 
situation. Our policy in Guantanamo Bay has been contentious 
for many years. I know there are still bad guys out there that 
want to kill people that have been determined by this 
administration we need to go ahead and detain, continue to 
detain at Guantanamo Bay.
    That particular facility is a replacement facility and so 
we have realized we have some pretty poor and continuing to 
deteriorate existing facilities.
    And for years while we were looking at the policy to close 
GTMO we didn't really reinvest that facility so it is in pretty 
bad shape right now. And we do have a responsibility if we are 
going to maintain a function down there that we do need to 
offer adequate facilities for the care of the detainees we do 
have. The cost is very expensive.
    Ms. Wasserman Schultz. Secretary, forgive me, but why would 
it be a higher priority to provide more comfortable facilities 
for these 41 people and not build more barracks so that we have 
more comfortable facilities for our soldiers, airmen, seamen 
and Marines?
    Mr. Niemeyer. Yes. I am not sure we are actually creating a 
better quality of life for them. I think there is a 
realization----
    Ms. Wasserman Schultz. If you are building them a brand new 
facility, that is a better quality of life than a deteriorating 
facility.
    Mr. Niemeyer. We have had 8 years where we have had no 
investments in there because we felt that we had a policy that 
we were trying to close our detention operations there.
    Ms. Wasserman Schultz. Right.
    Mr. Niemeyer. So there has been no investment. So what we 
are really trying to is, okay, now we have made the decision, 
okay. Guess what----
    Ms. Wasserman Schultz. What I am asking you is why is it a 
higher priority to build a facility that would provide, you 
know, better conditions for 41 so-called bad dudes, as the 
president refers to them, than for the good dudes that are 
serving our country and trying to keep us safe?
    Mr. Niemeyer. I think we have a responsibility to anybody 
that is under our care whether it be bad or good----
    Ms. Wasserman Schultz. Why do we have a higher 
responsibility to the bad dudes at GTMO than we do to our 
military service members who are protecting our country?
    Mr. Niemeyer. We balance the full range of our missions in 
the Department of Defense to include maintaining detention 
operations. And so we have priorities for our women and men in 
the military, but we also have a responsibility that if we are 
going to maintain our operation there that at least we address 
the life, safety, health concerns that might be getting worse 
for that particular facility.
    Ms. Wasserman Schultz. The President made a campaign pledge 
that is not really an answer. And if your answer is that we 
should put the needs and well-being of 41 detainees at GTMO 
higher than the people who serve our country, than that is 
really demonstrative of this Administration's backwards 
priorities.
    But the President has also made a campaign pledge to load 
up GTMO with some bad dudes. Are there plans to ramp up 
operations at GTMO?
    Mr. Niemeyer. That I don't know. I mean it is really 
difficult to anticipate who you might be catching in the 
future, and it is beyond my understanding. I just know that we 
were given a military construction requirement to replace the 
deteriorating----
    Ms. Wasserman Schultz. It is not difficult. I mean, while 
we are searching--are we planning on, as we search and hunt 
down bad dudes, are we planning to use GTMO and ramp up 
operations there to add to the detainees that are there now?
    Mr. Niemeyer. I am not at a point right now where I can 
answer that. I just know we have a military construction 
request----
    Ms. Wasserman Schultz. Why?
    Mr. Niemeyer. Because it is tough to anticipate what we 
think we may need in the future.
    Ms. Wasserman Schultz. Well, you are building a brand new 
facility for 41 people at best. To me, that signals--which 
won't even be ready until 2022--that you are ramping up 
operations there. Unless, you are just being colossally 
fiscally irresponsible and think it is okay to spend $1.7 
million per detainee.
    Mr. Niemeyer. From our perspective it signals that we 
realize that we are going to have a long-term operation there 
and that we need to then make sure----
    Ms. Wasserman Schultz. So your answer is yes.
    Mr. Niemeyer [continuing]. That they are adequately 
housing--I am sorry?
    Ms. Wasserman Schultz. Your answer is yes then?
    Mr. Niemeyer. About what?
    Ms. Wasserman Schultz. About ramping up operations.
    Mr. Niemeyer. I just--no, I don't know if we are going to 
ramp up operations. I don't know who we might end up having in 
the future?
    Ms. Wasserman Schultz. What does long-term mean?
    Mr. Niemeyer. Long-term is as long as those folks we can 
either adjudicate their process or in some case now they have 
been convicted and for the long term it is a----
    Ms. Wasserman Schultz. Some of them haven't even been----
    Mr. Niemeyer [continuing]. Detention facility. That is 
correct. We are in the process of working that.
    Ms. Wasserman Schultz. How will this facility be used after 
the Joint Task Force (JTF) mission ends?
    Mr. Niemeyer. I don't know what the follow-on mission would 
be. It is tough for me to make that call right now. We do know 
that we have taken a prudent step. I mean, with the area cost 
factor in GTMO being so high, it is an expensive facility.
    The reason why it is going to take until 2022 is if we want 
to accelerate it it would cost us more. So we have made some 
prudent decisions on trying to minimize the cost to the 
taxpayer while addressing the life, safety, health concerns.

                 SUSTAINMENT COSTS OF CURRENT FACILITY

    Ms. Wasserman Schultz. Lastly, since you touched on that, 
before I yield back, Mr. Chairman, thank you for your 
indulgence. Obviously, you are going to have to use operation 
and maintenance money to sustain the facility. What are the 
current sustainment costs and how much has been invested in the 
facility since it started to fail?
    Mr. Niemeyer. The existing facilities? I would have to get 
that for the record. I don't have that with me.
    Ms. Wasserman Schultz. Okay. If you could do that?
    Thank you, Mr. Chairman. I yield back.
    Mr. Niemeyer. Yes, ma'am.
    Mr. Dent. I would like to recognize the gentleman from West 
Virginia for 5 minutes. Mr. Jenkins.

                     NATIONAL GUARD TRAINING LANDS

    Mr. Jenkins. Thank you, Mr. Chairman.
    Welcome. It is an honor to have you all here and thank you 
for all you do for our men and women in uniform. Thank you for 
your service. I am from, as the chairman said, West Virginia 
and candidly, we have been ravaged over the last 8 years, the 
war on coal. We have got a lot of hardworking coalminers put 
out of work.
    These are people who have gone into the bowels of the 
earth, done tough jobs, worked with their hands, are problem 
solvers. But we have also got a lot of land in West Virginia. 
In fact, there is a piece of property originally called Hobet 
Mine--it is Rock Creek now--12,000 acres, less than a drive's 
day from over one half of the nation's population.
    And I was struck by your use of the word simulating and in 
your also written comments about readiness and prepare for the 
battles that we fight around the world. We have got steep 
hills. We have got flat land. We have got almost, like, desert 
terrain.
    So my question is our National Guard in West Virginia, 
which we are so proud of, is already using--they are saving 
money on transportation, on other training cost factors.
    Where is this 12,000 acres on your-all's radar screen as a 
possibility for investment in DOD to simulate, to train, to 
repair equipment? It is geographically pretty darn good, and it 
is a pretty special area that could be put to good use.
    Mr. Niemeyer. So Congressman, the military services take 
the lead and they are in the process right now of looking at 
what they need for additional training lands in a whole 
different variation of topographies around the country. The 
Navy is working on a significant land expansion for Naval Air 
Station (NAS) Fallon to what degree we could use the terrain 
that is unique.
    I have actually been out that area. It is something that I 
would wanna work with the National Guard on, work with the 
Department of the Army and see, okay, how does that fit into an 
overall training regimen, particularly when General Milley is 
looking for variations, new ways to train his forces. So that 
is something we will take a look at.
    I don't have specifics on it right now. I am not sure if 
the Army does, but go ahead.
    General Bingham. Thank you, Congressman Jenkins. I 
appreciate your question because I often find myself, as a 
former senior commander, saying that there is absolutely 
nothing we do inside our gates without the full support and 
partnership of our community leader and state leaders outside 
our gates.
    And so what we could do is link your team up with our Army 
G-3 to assess what you are proposing and get back to you on 
that.
    Mr. Jenkins. Well, we would welcome that. And you have got 
a very ready and willing partner inside the gate and outside 
the gate. As an outside-the-gate guy, who is proud father of a 
son who is inside the gate, you really would have incredible 
support from community, from state and local government and 
certainly the federal representatives.
    And my sense is you might find outside the gate in some 
states not as welcoming as you would be. We are a proud 
military state, probably from a per capita standpoint, one of 
the highest military service member state in the country.

                           READINESS CENTERS

    The other area of quick attention--and thank you for your 
commitment to work with our office and others to see if we 
can't put this land to good use--and that is our readiness 
centers in West Virginia. We have 31 readiness centers.
    I certainly, obviously, don't expect to hear at this point 
the commitment or the deep familiarity with those particular 
facilities, but we really would like to work with you about our 
readiness centers in West Virginia.
    We have got 5,000 National Guardsmen and women and 31 
readiness centers, so there is a real facility needs in our 
state. And we look forward to looking with you and your budget 
line items. Any comments about readiness centers and the 
investment to making sure that those are up to the standards 
that we would expect?
    General Bingham. Thank you again, Congressman. Actually, 
the National Guard has a transformation plan that really is the 
blueprint, if you will, for what we look at as we look to 
investment. And so our investments in those readiness centers 
is informed by that plan. We know that the guard has well over 
1,000 readiness centers.
    And when we look at sustainment dollars, restoration 
modernization dollars and MILCON dollars, we certainly wanna 
get after those that bring about readiness for your guardsmen. 
Currently, our guard requests in fiscal year 2019, there are 
five projects that total $106 million
    Mr. Jenkins. Thank you.
    General Bingham. Thank you for your question.
    Mr. Jenkins. Thank you so much. Look forward to working 
with you about Rock Creek, Hobet, our readiness centers, and 
thank you again for your service.
    I yield back.
    Mr. Dent. Thank you, Mr. Jenkins.
    At this time, I would like to recognize the gentle lady 
from California, Ms. Lee, for 5 minutes.

               ENVIRONMENTAL REMEDIATION AT CONVEYED LAND

    Ms. Lee. Thank you very much.
    Welcome. Thank you for your service. And just if you don't 
know, I am the daughter of a veteran, 25 years a military brat, 
stationed at Fort Bliss, Texas, born in El Paso.
    And so quality of life issues for our troops and our 
veterans are extremely important to me. I know personally the 
sacrifices that are made by our servicemen and woman, and want 
to make sure everything that we do ensures their safety, but 
also that they are able to live healthy lives and continue 
forward with their service.
    Wanted to ask you a couple of questions with regard to 
specifically my district in the East Bay, including Alameda 
Point. I think, Vice Admiral Smith, maybe you could answer this 
question for me. The City of Alameda took title to about 1,400 
acres of land from the Navy in I believe it was 2013 and the 
V.A. took about 624 acres.
    It has cost about $560 million now as it relates to 
environmental cleanup. Still not completed, but I think the 
repurposing of Alameda Point with this V.A. clinic, it is a 
good example of what can be done. The environmental remediation 
efforts are still continuing.
    And I wondered when you think that may be completed and 
what the next steps would be in terms of long-term 
environmental sustainability and the overall stewardship 
efforts of that?
    Admiral Smith. Yes, ma'am. Thank you for the question. And 
you articulated with the numbers, we have transferred the 
majority of it. We are down to about 19--new environmental 
issue we have got.
    And as a result of that, we are now working with V.A. 
regulatory folks to figure out what is the right way ahead on 
that. Based upon that, now we are looking at finishing 
transferring probably around 2022, ma'am, right now.
    Ms. Lee. 2022?
    Admiral Smith. Yes, ma'am.
    Ms. Lee. Why is it taking so long?
    Admiral Smith. Well, because, you know, we want to make 
sure that we are turning over land that has been properly 
decontaminated and we don't run into the problem that we did 
with the land we have already transferred there that we now 
have that problem with.
    Ms. Lee. Yes.
    Admiral Smith. And so we have gotta do it right. We are not 
sure how to remediate it yet, so we have gotta work through 
with the regulatory agencies to make sure we do it the right 
way. And as you know, with PFOS-PFOA, we as a country have not 
figured out the right way to deal with that yet, so we are 
working through it.
    [The information follows:]

    The remaining environmental remediation and discovery of 
radium at NAS Alameda is not anticipated to impact or delay the 
housing projects or VA's outpatient clinic.

    Ms. Lee. Okay. And let me just ask you--I want to clarify 
for myself. This is not going to impact the construction and 
the work with regard to the V.A. clinic in terms of your 
timeframe of the environmental cleanup.
    Admiral Smith. I am going to have to take that for the 
record. I don't have that specific detail.
    Ms. Lee. I don't know if it is that same area or not. I 
will double-check.
    Admiral Smith. Yes, yes. So I owe that to you.

                     OAKLAND ARMY BASE REMEDIATION

    Ms. Lee. Okay. With regard to the Oakland Army Base, I 
guess--Lieutenant General Bingham, good to see you.
    General Bingham. Good to see you, too----
    Ms. Lee. Yes.
    General Bingham [continuing]. Congresswoman.
    Ms. Lee. Lieutenant General.
    General Bingham. Thank you.
    Ms. Lee. That is awesome. [Laughter.]
    General Bingham. Very humbling.
    Ms. Lee. That is awesome.
    General Bingham. Very humbling.
    Mr. Niemeyer. Hopefully general someday, huh? [Laughter.]
    Ms. Lee. Wow. The Oakland Army Base remediation, what are 
any of the current issues that you see? I know there have been 
some difficulties in terms of this remediation effort. Not sure 
exactly what they are, but we are trying to get this done as 
quickly as possible.
    And again, we have got a lot of work to do on that Army 
base and I wanna see if there are any outstanding issues that I 
need to know about that or that our people in the city need to 
know about.
    General Bingham. Thank you, Congresswoman Lee. We are 
working through two remediation projects there in Oakland Army 
Base at this time. We are pretty much going through the 
schedule, I should say, as it relates to the cleanup effort. I 
don't see any problems at this time, certainly none to involve 
you. And I think those efforts are ongoing.
    But if there should be a problem with that, we will come 
back to your office and let you know. But at this time, we 
don't foresee any problems. Although, we have those two 
remediation efforts ongoing.
    Ms. Lee. Do you have any idea of when they will be 
complete?
    General Bingham. I don't know. I can come back to your 
staff with an estimate----
    Ms. Lee. I would like to get a sense of completion date.
    General Bingham. I will be happy to come back to you with 
that.
    [The information follows:]

    The Army is currently working on two remediation projects 
at Oakland Army Base. They are designated as Parcel 1 and 
Operable Unit 2.
    Army is negotiating with the California Department of Toxic 
Substances Control on final terms for the Parcel 1 site revised 
Record of Decision (ROD), which will include the schedule for 
clean-up and property transfer. The revised schedule will be 
provided to your office and stakeholders upon resolution of 
outstanding issues and signature of the ROD. Fieldwork will be 
complete approximately 4 months after ROD signature.
    Regarding Operable Unit 2, the Army is preparing a draft 
Wetland Focused Feasibility Study that will inform the 
appropriate cleanup remedy for the site. Required fieldwork to 
complete the study is delayed, pending physical access to the 
wetland area through railroad property owned by the Port of 
Oakland.
    Actions at Operable Unit 2 do not affect the Parcel 1 
property transfer.
    The Army will continue to provide periodic updates on 
remediation progress at Oakland Army Base to you.

    Ms. Lee. Okay. Thank you.
    General Bingham. Thank you.

                FORT BLISS HOSPITAL CONSTRUCTION DELAYS

    Ms. Lee. And then Assistant Secretary Niemeyer?
    Mr. Niemeyer. Yes, ma'am.
    Ms. Lee. Yes. Good to meet you. Fort Bliss, Texas--and I am 
working with Congressman O'Rourke who represents El Paso and 
Fort Bliss on these issues. And again, as I said, I was born in 
El Paso, and I have a very keen interest in what is taking 
place at Fort Bliss.
    And Congressman O'Rourke and myself, we are aware of the 
significant delays as it relates to the contractor who is 
building--the construction delays for the new Beaumont 
Hospital. And I am wondering just in general, seeing what has 
taken place in terms of the history of this construction of 
Beaumont, how are you looking at cost overruns now and how do 
we manage this moving forward?
    Because it is severely over budget, this one project, I 
know, 'cause I have looked at it with Congressman O'Rourke. And 
how do we correct for that in the future?
    Mr. Niemeyer. Ma'am, that is an outstanding question and we 
have been spending a lot of time on that in the last 8 months 
as I took this position. I have been meeting with General 
Semonite personally on that.
    This is a project that not only is behind schedule, it is 
significantly over cost. It really is a posterchild for us on 
what we need to do better in the future.
    There were some management changes on the part of the both 
the Corps of Engineers and the contractor. So really what we 
had was some bad relationships going. There is no way a 
personal relationship should interfere a project like that, so 
we have made some changes. More importantly, looking forward, 
we are using that as an example where we can get better across 
the board across the Department of Defense.
    And at the same time, we are also trying to work very, you 
know, diligently, meeting once every 2 weeks right now at the 
senior leadership levels to make sure that project gets back on 
track, we deliver that critical capability to women and men at 
Fort Bliss. It has been a tragic series of errors that has led 
to that almost a year and a half delay.
    Ms. Lee. Mr. Chairman, let me just ask you, though, are 
there ever any penalties associated with these huge cost 
overruns with contractors that mess up big time like they have 
at Fort Bliss? Or do we just say moving forward now, that was 
then and this is now, and we are gonna make sure it is done 
correctly in the future''?
    Mr. Niemeyer. So Congress asked us to actually get the 
Inspector General involved, so we have a DOD I.G. investigation 
going on on that particular project to determine if there is 
any culpability or any concerns that we need to take a look at. 
There are damages that are applied when the contract is running 
late, normally they are called liquidated damages onto the 
contractor.
    It may not be enough to change behavior right now, and I am 
not sure the construction contractor is solely the problem. I 
think we had a problem with the design and some other issues, 
too, with the program management.
    Ms. Lee. Yes. Okay.
    Mr. Niemeyer. So the goal for us, ma'am, is to get to the 
bottom of this, to making sure we understand clearly what went 
wrong, when. If we need to hold people accountable, we will. 
But more importantly is to use this as--first of all, get this 
project back on track, but not to make these mistakes again in 
the future.
    Ms. Lee. Okay, thank you very much. Could you just keep 
Congressman O'Rourke and myself----
    Mr. Niemeyer. Absolutely, ma'am.
    Ms. Lee [continuing]. Informed of this?
    Mr. Niemeyer. Yes, ma'am.
    Ms. Lee. Thank you, Mr. Chairman.
    Mr. Dent. Let us move to Mr. Taylor from Virginia.

                         CONTRACTING MECHANISM

    Mr. Taylor. Thank you, Mr. Chairman.
    And appreciate you guys being here, appreciate your 
service, and please give our best to the men and women who 
serve under you as well and we appreciate them.
    A couple things--let us see--bids. You know, you talked 
about bid costs and, obviously, there is a plus-up and we have 
a timing issue, of course. Are you guys using things like Other 
Transaction Authorities (OTAs) and Small Business Innovation 
Research (SBIR) for contract vehicles to make sure that we are 
being able to spend the money and do it efficiently and 
effectively?
    Mr. Niemeyer. So we have been given a lot of money in a 
short amount of time, particularly in the O&M accounts. And I 
think that is something that all the Services and the Execution 
Agencies have taken seriously. We have about 5 months to 
address some of the readiness needs in our country.
    We are pursuing any possible opportunity to include 
expedited contracting while still being able to provide a good 
product that addresses our warfighter needs. It is going to be 
a challenge, but the services are dedicated to coming up with 
the best projects and the best way to spend the money between 
now and October 31st, particularly in O&M.
    Mr. Taylor. Are they using those----
    Mr. Niemeyer. Or October 1st.
    Mr. Taylor [continuing]. Those contract vehicles, like OTAs 
and SPIRs?
    Mr. Niemeyer. That and others. I mean, we have a whole 
range of abilities to be able to put money towards good 
projects.

                      BASE CLOSURE AND REALIGNMENT

    Mr. Taylor. Appreciate it. You spoke about 6 years asking 
for a BRAC and Congress saying no. I agree. I just want to be 
on the record that I agree with that statement. I think that we 
need to make some courageous decisions up here, otherwise, we 
are contributing to the problem, if you will.

                     RESILIENCY AND SEA LEVEL RISE

    Virginia Beach and the State of Virginia have been very 
good about spending monies, if you will, dealing with 
encroachment on things like Oceana and trying to work with 
resiliency.
    And on the subject of resiliency, of course, we have sea 
level rise in Virginia that does affect our bases. Have there 
been studies, actions, requests for money to ensure resiliency 
around those bases?
    Mr. Niemeyer. Yes, that is the key step here is right now 
is we are taking a look at what needs to be done, what has been 
done. We have always responded to flood conditions as part of 
what we have done as military engineers, why we look at 
preserving our military capabilities across the country. And we 
will continue to do that.
    In the Hampton Roads area in Virginia Beach, wherever we 
can make good decisions about how high we raise a dry dock or 
how high we raise a dam, those are all engineering decisions 
that we make every day. And we will continue to make those as 
we see, you know, conditions change around the country.
    Mr. Taylor. If I may, and specifically in the Hampton Roads 
area with sea level rise, not being reactionary, but are we 
also looking at potentially investing in the future and 
understanding where we are gonna be years out?
    Mr. Niemeyer. Right, so we are looking at adjustments to 
what our engineering forecasts are and to what degree we can 
start planning now, and just making prudent engineering 
decisions across the board and be able to make our facilities 
resilient to whatever may happen. You know, could be a lot of 
things that ultimately could affect environmental conditions 
and affect our facilities. The goal is resiliency across the 
board.
    Do you want to add?
    General Green. Yes, sir. I would like to add, for Langley 
Air Force Base, which is in that same region, we have already 
raised the elevations of our new construction. We have already 
moved mechanical rooms and things like that from basements up 
to higher elevations.
    So part of it is just, as you said, prudent planning, and I 
think that is being done both on the Navy side but certainly on 
the Air Force side. We are already altering how we do the 
engineering work to protect our facilities and our missions.

               EXCESS CAPACITY AT MILITARY INSTALLATIONS

    Mr. Taylor. Appreciate that. You know, we were talking 
about realignment and talking about getting monies for demo, 
and General, we spoke about it as well. And I have had meetings 
with senior military leaders, installation commanders, talking 
about excess infrastructure and the cost. And like I just said, 
I am on the record about that Congress has to also make some 
tough decisions on that note.
    But can I just get a quick briefing from each of the 
services. We talked to the services in OSD and requested, you 
know, where they are. Can you just speak your current posture 
as it pertains to excess infrastructure and any plans for 
targeted demolition going forward?
    General Bingham. Thank you, Congressman, I appreciate the 
question. Actually, we have looked at our excess 
infrastructure. We know we have about 170 million square feet 
of excess capacity. It is not all contiguous space.
    So what we did in the Army, we took on an initiative we 
call the reduce the footprint, which we were able to 
consolidate our soldiers into our best facilities first, use 
conversion authority and then demo those facilities that were 
in poor and failing condition that we know we wouldn't use 
again.
    We have really taken on our demolition budget since 2016. 
We have increased it significantly. And I can tell you in 2018, 
we have about $100 million that is going toward demolition. In 
fiscal year 2019, we more than doubled that, well over $200 
million. So we are taking it seriously and we are trying to rid 
ourselves of that excess because we know it is costing dollars.
    Mr. Taylor. Thank you.
    Admiral Smith. Now, Congressman, so for the Navy we 
estimate we have between 7 percent and 9 percent excess 
infrastructure right now. This year, with the increased budget 
proposal, for the first time in several years, we are putting a 
significant amount of money to demolition in the order of $122 
million.
    We have currently got an integrated priority list of about 
$311 million, so about a little of a third we are going after 
in 2019. That compares to zero dollars to demolition last year, 
$8 million the year before. So much like the Army and I am sure 
all the services, we are going after it this year as proposed 
budgets gives us that opportunity to do it.
    Mr. Taylor. Thank you.
    General Coglianese. Congressman, thanks for the question. 
We talked a little bit about this yesterday. In the 
infrastructure reset program that was signed by the commandant, 
it is really a Comprehensive program and demolition is a big 
part of it.
    We are looking to reduce footprint over the FYDP by 11 
million square feet. We are investing in PB 2019 is 1.8 million 
square feet, about $77 million.
    And what does that give us? In the strategy itself, we want 
to reduce and optimize the infrastructure footprint, make 
facilities investments at the lowest lifecycle cost and 
leverage the best practices and process and align the 
installation management enterprise we govern. So we signed--
recently the Assistant Commandant of the Marine Corps signed a 
governance.
    And the 1.8 million square feet, what does that equate to? 
It is really a great return on investment because it is about 
$19.4 million of cost avoidance or ability to invest in another 
program, you know? And so I said $77 million for PB 2019 pretty 
much with a goal across the FYDP to reduce 11 million square 
feet just for this FYDP.
    So we are going after it. The low-hanging fruit is easy 
right now. I mean, the demolition to go after it and as we get 
rid of that excess and we kind of consolidate our forces and 
better use of space management of our facilities it will be 
harder to get after that next round, but thank you for the 
question. I think it is a really important part of our 
strategy.
    General Green. Thank you, sir. So like the others we are 
working on space management and how we utilize that. We don't 
have so many units that have stood down and so we don't have 
vacant buildings per se so it is about how we use the space 
within that.
    And then as you hear the Air Force talk about excess 
capacity much of that is also associated with ramp space, where 
we have the ability to park aircraft. And so as long as we have 
got missions there it is about how we need to better leverage 
our facility space and consolidations, and you have given us 
some new authorities from Congress to do that better in the 
future.
    And then we spend roughly--we have budgeted roughly about 
$25 million a year, give or take, but we are usually over-
executing that amount to do consolidation and demolition.
    Mr. Taylor. Thank you, General. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dent. Mr. Valadao.

            NAVAL AIR STATION LEMOORE MILITARY CONSTRUCTION

    Mr. Valadao. Thank you, Mr. Chairman.
    Thank you, guests, for your time today and for your service 
to our nation. My questions are mostly aimed at Vice Admiral 
Smith, but if the Assistant Secretary wants to touch in, please 
do.
    The Navy's installation master plan for 2030 for Naval Air 
Station Lemoore highlights that a large portion of then--
Lemoore facilities and infrastructure are original to the base, 
which was commissioned in 1961.
    The master plan lists a series of prioritized military 
construction projects needed to support the Navy's vision for 
NAS Lemoore as the premier strike fighter master jet base. 
However, the master plan separates master plan priority 
projects and those needed to support the arrival of the F-35C.
    Given the high importance of both new mission military 
construction and the maintenance of existing facilities, how 
does the Navy plan to prioritize investments, support current 
missions and plan growth in personnel and families? And I would 
like something touched upon especially with the hospital, 
clinic and how our sailors have access to and their families 
health care there on the base?
    Admiral Smith. Yes, sir, Congressman, thank you. And thank 
you for that. So as you are aware, between fiscal year 2015 to 
2023 we are putting in over half a billion dollars into 
Lemoore. The preponderance of that is for F-35. With respect to 
other parts, especially on the other side of the base on the 
quality of life side, we have put a lot into the quality of 
life part of that. And whether it be renovating the gym, 
putting in treks, the things that you have seen.
    So it is a balanced approach. Yes, the preponderance is to 
support F-35 and the requirements that that aircraft has.
    With respect to the clinic, the branch medical clinic 
there, so after our discussion yesterday I went and pulled some 
more data on that. So OB deliveries are done at a local clinic 
by Navy physicians. Based upon some of the concerns that were 
raised that you articulated yesterday, the acute care clinic 
hours have expanded so they now run from 7:00 in the morning 
until 11:00 at night.
    For inpatient they are using Hanford Hospital. So I spoke 
to the surgeon general's office yesterday to relay the concerns 
that you are hearing from our sailors that are out there to 
make sure he understands that. And we are aware of that to 
continue to work for and address those concerns as best we can, 
sir.

             HOSPITALS INSTEAD OF CLINICS ON INSTALLATIONS

    Mr. Valadao. Okay. Well, and the clinic used to be a 
hospital there on the base----
    Admiral Smith. Yes.
    Mr. Valadao [continuing]. Was something that I have heard 
from a lot of sailors. Every time I go out anywhere around the 
world and visit with our sailors or even there on the base that 
is the first thing they mention is they always appreciated 
having that hospital knowing that their family had somewhere 
close to home in case of an emergency for their loved ones.

                           DROUGHT CONDITIONS

    The other question has a little bit to do with the drought. 
California has been experiencing historic drought conditions. I 
mean, it got a little bit better last year, but this past year 
we are kind of on path again.
    And as you know, such conditions change the operating 
environment at Naval Air Station Lemoore. During dry periods, 
dust, ground debris and increased bird strikes exacerbate 
operational safety challenges for flight operations.
    Additionally, drought conditions increase public health 
concerns for military personnel and dependents, specifically at 
NAS Lemoore where valley fever poses a threat. What is the 
current status of drought preparedness and resilience at NAS 
Lemoore? And are there any additional actions that can be taken 
to improve operations out there?
    Admiral Smith. Yes, sir. So as you know, there are 12,000 
acres out there that is ag land and to be able to farm that 
land water is essential. And so Lemoore is working closely with 
the water district out there, as you are well-aware.
    This also kind of ties into what we are doing to the 
question we discussed yesterday with respect to the solar PV 
that is going out there. So that is solar PV. We are providing 
930 acres for that. That will not provide any power to Lemoore. 
That will go into the local grid.
    Mr. Valadao. Yes.
    Admiral Smith. The delay right now is because they are 
trying to find a utility provider who will actually connect to 
the grid. So the in-kind we will get back from that is a 4.5 
megawatt generator to power the critical facilities in case of 
a loss.
    So it is a win-win for us because it does give us 
additional redundancy and capability from an energy needs 
perspective, but it also takes of that 12,000 acres it is 
taking almost 1,000 out of the agricultural requirement with 
the drainage settlement agreement and then the company that 
runs the PV farm is responsible for maintaining BASH 
requirements there.
    Mr. Valadao. All right. Well, thank you.
    And Mr. Chairman, I yield back.
    Mr. Dent. Mr. Fortenberry:

                           ENERGY RESILIENCE

    Mr. Fortenberry. Thank you, Mr. Chairman.
    Thank you all for appearing before us today. I want to ask 
you about three areas of policy concern, two of which, or all 
three actually, were in the initial statement: The conservation 
initiatives, the issue of energy resilience, as well as what 
you all keep referring to as BRAC. And so we are going to have 
a little challenging conversation on that.
    First, regarding conservation, I was pleasantly surprised 
to see a lengthy section in your written testimony about the 
DOD's initiatives in this regard. I have recently introduced a 
bill. It is called Recovering America's Wildlife Act.
    And interesting you point out that there is a surge of 
potential endangered species being listed coming. And that the 
DOD is orienting itself to participate in preventative measures 
in that regard.
    This is exactly what the Recovering America's Wildlife Act 
does. Bipartisan initiative taking some monies that come from 
our mineral revenues, off of federal lands and plowing it back 
into state wildlife management plans, which is a federal 
mandate. In Nebraska we work voluntarily giving landowners 
choice in this regard.
    But the DOD as a part of your policy planning culture 
should really take a look at this because it could help us 
create the continuity of habitat with existing public lands, as 
you are already doing, that addressed environmental species 
problems. Because once that starts you are in the midst of 
litigation, the regulation moves to litigation it is a horrible 
mess.
    So not many people win, not many communities win. Species 
don't necessarily win because it takes so long.
    So this is an innovative approach to, again, trying to 
provide the continuity of habitat by funding existing state 
initiatives with federal mineral resource revenues, and so it 
is actually being a good steward of the revenues that we have 
or the resources that we have, revenue extraction back into 
resource recovery.
    So Recovering America's Wildlife Act I would like you, 
again, to be aware of this and to potentially incorporate it 
into your policy planning culture, because it could greatly, I 
think, assist you in the larger goal. Our problem is we address 
this in small verticals rather than in a continuity.
    And given the large footprint of the DOD particularly with 
land holdings, this could be extremely helpful.
    So I am very pleased that you raised this in the testimony. 
So can I have some mild commitment that you will integrate this 
into your policy planning?
    Mr. Niemeyer. Congressman, we will definitely take a look 
at it. And as I said in my written statement, we are working 
really diligently with Department of Interior (DOI) across the 
board to----
    Mr. Fortenberry. I saw that, yes.
    Mr. Niemeyer [continuing]. To see what we can do to get in 
front and proactively manage. We are not in any way trying to 
dismiss the Endangered Species Act. We think it is absolutely 
critical----
    Mr. Fortenberry. Well, this is an attempt to move from, 
again, regulation and litigation----
    Mr. Niemeyer. Right, right.
    Mr. Fortenberry [continuing]. To collaboration----
    Mr. Niemeyer. Yes, that is----
    Mr. Fortenberry [continuing]. Which ends up saving all of 
us a huge amount of money in the long run and actually achieves 
the mission of the Endangered Species Act. So it is a novel 
approach.
    Mr. Niemeyer. Well, we are working very consistently with 
what you are proposing there.
    Mr. Fortenberry. Well, we are also working with the 
Department of Interior in this regard, so we may be back in 
touch. OK?
    Mr. Niemeyer. Yes.
    Mr. Fortenberry. Energy resilience you have a 25 percent 
goal of use of renewable resources by 2025. How are we coming?
    Mr. Niemeyer. Coming along.
    Mr. Fortenberry. What is the best case story out there, the 
best return on investment? Do you have some case studies that 
are showing that could be scalable templates that could be 
implemented?
    Mr. Niemeyer. We are continuing to look at all sources of 
energy. Renewable is one source, but we are looking across the 
board. We definitely have a desire to want to take our goals 
with----
    Mr. Fortenberry. Yes, but that is your mandate, 25 percent 
renewable by 2025.
    Mr. Niemeyer. Right. We are working towards that goal, but 
honestly we are as concerned with providing security, energy 
security to our most critical facilities. To what degree that 
goal is compatible with our overwhelming compelling urgency to 
making sure our critical facilities can be powered----
    Mr. Fortenberry. Okay, do you have case studies or actually 
implemented processes that could be scalable across the system 
that meet your goal for security and energy resilience but 
actually is consistent with the broader mandate here?
    Mr. Niemeyer. We are working across a whole range of 
efforts.
    Mr. Fortenberry. But specifics? I need examples.
    Mr. Niemeyer. Certainly, if I can ask the services----
    Mr. Fortenberry. Examples?
    Mr. Niemeyer [continuing]. To provide specifics?
    Mr. Fortenberry. Okay.
    General Coglianese. Yes, sir, thanks for the question again 
and the support. So each installation is different because of 
the environments, and I will give you a good example of energy 
security. And we are----
    Mr. Fortenberry. I have two military installations, 
Strategic Command and Offutt Air Force Base, do I get it.
    General Coglianese. Yes, sir.
    Mr. Fortenberry. I mean, so but just back to specifics----
    General Coglianese. Sure.
    Mr. Fortenberry [continuing]. That are might possibly 
scalable. I am sorry. I am just running out of time. I need to 
hurry along.
    General Coglianese. Yes, sir. So an example is Miramar 
where we are taking methane off a----
    Mr. Fortenberry. Right.
    General Coglianese [continuing]. A wasteland----
    Mr. Fortenberry. Good.
    General Coglianese. It is how we are getting methane. We 
will be putting a microgrid in there and we will be able to--
our goal is to operate off the grid.
    Mr. Fortenberry. Okay, let me ask you this. That is great. 
That is very helpful. What is the process internally by which 
you are sharing best practices? Is there some continuity of 
initiatives going on or is it up to each base to sort of crate 
its own culture in this regard?
    Mr. Niemeyer. At the Office of Secretary of Defense (OSD) 
level we are working very closely with the services. It is 
every project that comes in we are taking a look at where can 
we use that? Those lessons are in another----
    Mr. Fortenberry. Okay, I may come back to this in the next 
round because I am running out of time, but thank you. Thank 
you. So we--hold the thought so let us unpack it a little bit 
further.
    General Coglianese. Yes, sir.

                              BRAC NAMING

    Mr. Fortenberry. One more comment, Mr. Chairman, if you 
will indulge me? Look, we keep doing this--we keep using the--
it is now a word, BRAC. Does anybody remember what it means?
    Yes, but it has become its own word like Xerox means copy. 
So we need to move past this, okay? That was somebody else's 
idea 25 years ago. Not the intention necessarily, but the way 
in which we speak about this because we are not implementing it 
in this way.
    So I am proposing this to you all as I have proposed before 
previous panels for years that we move away from the term 
because the term causes such indigestion. Okay? This is a new 
term: MISC. It stands for miscellaneous military installation 
savings commission. It is a much less threatening kind of 
prospect and it is consistent with what you all are already 
doing.
    And if I could, maybe in the next round, and perhaps you 
said this earlier, I apologize because I wasn't here, but I 
would like to know the excess inventory across all branches. So 
if we could just have that in the forefront of our mind again.
    But when you start saying this closes, this closes, which 
is, frankly, not real in the environment we are up here, rather 
than well, look, we have got this outbuilding here that could 
be sold to Lincoln Parks and Recreation and then carved out. 
That is a higher and better use for the community.
    That is consistent with this and it is a lot less 
frightening and it is more politically viable than the large-
scale base realignment closure commission, which again, that is 
just not reality.
    Thank you, Mr. Chairman.
    Mr. Dent. Thank you, Mr. Fortenberry.
    I have an acronym I am gonna share with you a little later. 
[Laughter.]
    Thank you.
    Mr. Fortenberry. Stop. [Laughter.]
    Mr. Dent. I would like to recognize the ranking member, Ms. 
Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you----
    Mr. Dent. We are starting the second round of questioning.

                               DETAINEES

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Just to put a bow on the end of my last series of 
questions, I had a chance to look up what the average cost 
according to the Federal Register is of incarcerating federal 
inmates. Fiscal year 2015 is the most recent year we have 
numbers for. $31,977.65 as opposed to a $1.7 million cost per 
detainee at GTMO--a colossal waste of money and an example of 
backward priorities.

                              BORDER WALL

    Mr. Secretary, I have questions for you about the border 
wall. How would moving money from other priority projects, 
which we have already appropriated for in the omnibus bill, 
using existing DOD authorities to build part of the border 
wall, not circumvent Congress' appropriations authority, which 
was decided in the omnibus appropriations bill?
    Mr. Niemeyer. We don't have a lot of ability to do that. We 
can use bid savings, for instance, collectively. All the 
projects we executed we have excess money we could then, you 
know, identify that as a source.
    We do have a very limited ability with consultation with 
Congress. It would require us to come over and talk to you. And 
if we feel we have a compelling need that we can find lower 
priority projects and to further execution--cancel them to 
further execution take those dollars and apply it to what we 
would have to convince you is a more compelling requirement and 
then have the ability to backfill those projects in the future.
    Ms. Wasserman Schultz. What type of projects would the 
Department not be able to execute if you choose to use that 
authority to execute a border wall?
    Mr. Niemeyer. Oh, I can't say we would not execute it. It 
would maybe be defer. It would be project that we feel we don't 
have a compelling need to carry out in that year.
    Ms. Wasserman Schultz. What type? What type?
    Mr. Niemeyer. Oh, gosh, I am----
    Ms. Wasserman Schultz. We need more specifics.
    Mr. Niemeyer. Oh, I couldn't tell you right now what 
specific project or what types of projects.
    Ms. Wasserman Schultz. Respectfully, if you already have 
been asked, as I know you have been, to draft potential options 
for how to move money to build whatever portion of the border 
wall you can, you do have an idea specifically of what kind of 
projects would not be able to be executed, would be delayed----
    Mr. Niemeyer. Yes, ma'am.
    Ms. Wasserman Schultz [continuing]. In order to--yes.
    Mr. Niemeyer. We have not been asked to get into that level 
of detail. All we are looking at is exploring what is even the 
range of congressional law or congressional authorizations, 
what is that range? And we haven't gotten to----
    Ms. Wasserman Schultz. Again, respectfully----
    Mr. Niemeyer [continuing]. Build the list.
    Ms. Wasserman Schultz [continuing]. If you know that 37 
miles of the wall in Arizona would be built then you know what 
projects you would be moving the money from to be able to build 
that 37 miles of wall. If you know where you would be able to 
build it, then you know from where you would take it to build 
it.
    Mr. Niemeyer. We have not built a list of projects from 
prior years that we would defer, not cancel, and then more 
importantly the first thing I would want to do is look at prior 
year unobligated balances and apply that first. We don't have 
to change any priority. We don't have to effect any other 
MILCON project.
    Ms. Wasserman Schultz. So what plans are you drafting then?
    Mr. Niemeyer. It is more just exploring options. It is 
really is looking at the range of what authorities exist.
    Ms. Wasserman Schultz. So, you are exploring options 
without any detail at all?
    Mr. Niemeyer. At this point we have not been asked for more 
detail.
    Ms. Wasserman Schultz. Okay, you understand that that 
doesn't make any sense, right? You have to know where you are 
taking the money from in order to know how much you are going 
to have, in order to build what it is you are planning.
    Mr. Niemeyer. So we laid out for the president a range of 
options of which he has chosen to deploy forces to the border 
consistent with previous administrations.
    The other options really haven't gone beyond just hey, they 
are out there. We have not actually been asked to take any 
action doing the planning.
    Ms. Wasserman Schultz. Okay. The chairman and I just had an 
opportunity to go down to Puerto Rico to look at the impact 
that Hurricane Maria and Irma have had on the military 
facilities there. They are in pretty bad shape.
    Mr. Niemeyer. Yes, ma'am.
    Ms. Wasserman Schultz. It is really not good. One of the 
biggest issues that you have is energy resilience. They were 
without power for days.
    Mr. Niemeyer. Yes, ma'am.
    Ms. Wasserman Schultz. You really haven't mentioned Puerto 
Rico at all. What is it that you are doing to make sure that 
this key component of our defense infrastructure, which is 
energy resiliency is a high priority?
    Mr. Niemeyer. And as you know, PREPA, I mean there was a 
lot of concerns about the entire island and they are in the 
process right now of reassessing the entire utility 
infrastructure. And the Corps of Engineers has got a big part 
of that long-term planning and ultimately having crucial 
resiliency for the entire island.
    Fort Buchanan had some redundant power sources. Those did 
survive, but it is still long term it may not be the answer. So 
that is part of what we are looking across the board. Where can 
we enhance our energy security and resilience, as opposed to 
other priorities?
    Ms. Wasserman Schultz. There were numerous stories that we 
have heard about how services are still using World War II era 
facilities. We saw some of those facilities. They were in bad 
shape to begin with and we gave them the authority in a 
supplemental to build beyond just the existing standard.
    How many World War II era facilities are there across the 
entire DOD enterprise?
    Mr. Niemeyer. Yes, I don't know that off the top of my head 
how many older facilities we had. You know a lot them are 
historical so they are still being well-used.
    And so I would have to go back and pull, you know, exactly 
the data pre-World War II, which I assume we would know that 
are obsolete or no longer needed is what you are looking for, 
right? I can take that for the record.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. I yield 
back.
    Mr. Dent. Thank you.
    Mr. Niemeyer, I was going to ask quickly about--it is a 
mouthful--addressing PFOS and PFOA. I won't read the acronym. 
And by the way, on the acronym came up with one, didn't I?
    Mr. Fortenberry. It is quite good actually.
    Mr. Dent. FORT, funding our readiness together okay----
    [Laughter.]
    As opposed to this. Mr.----[Laughter.]
    Fortenberry, so okay, but----
    Mr. Fortenberry. It is brilliant, Mr. Chair. [Laughter.]
    Ms. Wasserman Schultz. You guys have another side option if 
you quit your day job.
    Mr. Dent. That took me 15 seconds----
    Ms. Wasserman Schultz. Coming up with acronyms. [Laughter.]
    Mr. Dent. But addressing the PFOS and PFOA, DOD has tested 
all 524 DOD-owned drinking systems worldwide. Can you provide a 
list of the affected installations broken out by BRAC active 
and reserve component and what appropriations account was 
responsible for funding that cleanup?
    Mr. Niemeyer. Yes, ma'am. Yes, sir, I can do that.
    Mr. Dent. That would be great. And then----
    Mr. Niemeyer. I can't do it right now.
    Mr. Dent. Yes, I understand. [Laughter.]
    So at a later date, I understand. I didn't expect you to 
have that at your fingertips, but that is a very important 
issue to some of us and some of our communities where we have 
had these----
    Mr. Niemeyer. It is an issue which we are spending so much 
time in the department on that, Mr. Chairman, with the services 
coming up with the right way to respond. We would love to 
continue to work with EPA. I think some of that requires a 
federal response how we are going to address that issue.
    Mr. Dent. Okay. I would like to now move--this is kind of 
more or less to all the witnesses before us today. The fiscal 
year 2019 budget request proposes a decrease of funding in 
every reserve and guard component construction account. The 
guard and reserves have pressing needs for access control 
points and ranges, in some locations aircraft hangars.
    For example, the Air Force Reserve has two hangars and one 
main gate on the Air Force unfunded priority lists and Air 
Force Reserve has one hangar and two small arms ranges also on 
the unfunded priority list. Of note the Army and active reserve 
components have not submitted any unfunded priority lists at 
this moment.
    How can it be expected the guard and reserve to be properly 
trained if you are providing them inadequate resources for 
their facility? Maybe I would start with the Air Force and we 
will go back to the Army. We will do it that way.
    General Green. So thank you, Mr. Chairman. Thank you, Mr. 
Chairman. the resources provided for the guard and reserve 
mirror those provided to the active component. And so in this 
case when we talk about a reduction in funds this year it 
mirrors the reduction in funds that the active Air Force has.
    So it has really been about prioritizing amongst all of our 
ranges of missions in accordance with the national defense 
strategy. So as we focused on readiness and lethality and 
modernization this year, we made choices that resulted in 
reduced accounts across the active guard and reserve components 
for facilities and infrastructure.
    Mr. Dent. Could you also answer this, too? Are of the 
projects on the unfunded priority list for the Air Guard and 
Reserve requested in the future defense program or are they 
truly unfunded requirements?
    General Green. Typically we have brought forward items that 
were already in the future years' defense program, and I would 
have to go back and look at each individual project, but that 
is how we have done that on both the active guard and reserve 
in the past is if we can accelerate a program or a project as 
appropriate that is what we choose to ask for your support in 
doing.
    Mr. Dent. And I would like--General Bingham, would you like 
to add anything? Thank you.
    General Bingham. Thank you, Chairman Dent. As you 
mentioned, we did not submit MILCON on the CSA's UFR list was 
not on it. I will tell you though that as a total Army the 
projects that we have in fiscal year 2019 are well-represented 
across both the guard, reserves as well as the active 
component.
    And so what we do we prioritize those facilities as it 
relates to operational requirements, whether they be motor 
pools, airfields, railheads or the readiness centers in the 
case of the guard and reserves to make sure that we across the 
force have what we need.
    Mr. Dent. Anybody else, either the admiral or general? 
Either of you want to add anything on this issue?
    Admiral Smith. So I don't have any--I mean, we are working 
on our Navy Operational Support Center (NOSCs) and we have got 
consolidation projects we are trying to bring in the fence 
line. There are no specific MILCONs this year for the NOSCs.
    Mr. Dent. Okay.
    General.
    General Coglianese. Chairman, I know just on sustainment we 
have increased from 2018 to 2019 on FSRM for MARFORRES and also 
construction. So it is pretty stead for us and no decrease as 
far as I have in front of me. I can get back to you the exact 
numbers though, sir.
    Mr. Dent. Okay. Thank you, General.
    At this time I would like to recognize the gentlelady from 
California, Miss Lee.
    Ms. Lee. Thanks very much. Let me ask Secretary Niemeyer 
about the issue as it relates to waste, fraud and abuse in 
general. Now, for years I have been working with Congressman 
Burgess and other Republicans. We have been doing this in a 
bipartisan way to try to get an audit of the Pentagon.
    Three years delayed now, who knows when it is gonna be 
complete. Several years ago it was reported in the Washington 
Post that maybe $125 billion in waste, fraud and abuse. That 
report was somehow squashed.
    Listening today to the comments with regard to the border 
wall, the possible $69 million for maybe 41 or less inmates at 
Guantanamo, and this upcoming military parade. I mean, this is 
one of the reasons--I don't vote for the defense budget. I vote 
for our budget generally here because this is more about our 
troops and quality of life.
    But how do you see this whole issue of waste, fraud and 
abuse within your jurisdiction and what can we do to make sure 
that we move the Pentagon along if that is something that you 
can do? Because this is getting to be outrageous because it is 
taking away from quality of life priorities for our troops.
    Mr. Niemeyer. So each of the services and and the military 
departments--I mean, military departments and defense agencies 
are dedicated and working on it right now. We have a process 
where we are doing internal audits. It is called FIRE is the 
acronym.
    We are spending a lot of time and resources on trying to 
get to an auditable financial statement for each of the 
servicers that we can present to Congress. It is an effort 
which has been delayed. It has been going on for a while.
    Our goal here is to be as transparent, as accountable for 
every dollar we spend. I know that is our priority right now. 
Secretary Mattis has made it very clear to us.
    So we are committed to trying to get to auditable financial 
statements for each defense agency. You saw DLA have theirs 
released a few months ago. Other agencies will follow. Services 
aren't that far behind. Actually Marine Corps is doing some 
good work.
    And so I think we are getting there. It is definitely 
taking longer than the American people deserve or expect. But 
we are making some good progress, particularly in the last 2 
years on trying to get to those financial statements.
    Ms. Lee. Do you have any role in this upcoming, quote, 
military parade that this president is presenting to the public 
for whatever reasons he is doing this?
    Mr. Niemeyer. No, ma'am, I do not.
    Ms. Lee. You don't have any--you don't have any fiscal 
responsibility----
    Mr. Niemeyer. No, ma'am.
    Ms. Lee [continuing]. For this parade?
    Mr. Niemeyer. No.
    Ms. Lee. Okay. Let me ask you with regard to your 
contracting as it relates to minority, women-owned, veteran-
owned businesses. I am a former small business owner, 11 years 
8-A (it's a specific class) contractor. And it was really hard 
to break into DOD. I wanted to find out right now how your 
agency is doing as it relates to contracting and subcontracting 
with minority and women-owned and veteran-owned businesses?
    Mr. Niemeyer. So my office works within the secretary of 
acquisition sustainment and that is a top priority of Ms. Lord 
is to take a look at what can we do to break down the barriers 
to have innovative young businesses, small businesses come up 
with an adaptive acquisition framework where we can open the 
doors to some of these smaller businesses with their innovative 
ideas and come in and do business with the department of 
Defense?
    It is difficult not just for small businesses but for all 
businesses to have to enter into the bureaucracy of the federal 
acquisition regulations and other forms and all kinds of things 
we impose upon our contractors.
    We are diligently working not just for the bigs and the 
mids, but also those small businesses to what degree we can 
incentivize them to want to continue to do business with the 
department.
    Ms. Lee. Okay. Not just small businesses, mind you.
    Mr. Niemeyer. No. Yes.
    Ms. Lee. Do you know the distinction?
    Mr. Niemeyer. Oh, yes, ma'am, I do.
    Ms. Lee [continuing]. Between minority-owned business----
    Mr. Niemeyer. Yes, ma'am.
    Ms. Lee [continuing]. Women-owned businesses, veteran-owned 
businesses and small businesses because if you have the 
reporting data--if you have the data it will show, as many 
agencies show that the small businesses contracting and 
subcontracting may be a bit better than the contracting with 
minority-owned businesses, specifically African American-owned 
businesses and women-owned businesses and veteran-owned 
businesses.
    Mr. Niemeyer. So we track by categories making sure we meet 
our quotas across the board for the full range acquisition 
programs within DOD.
    Ms. Lee. Could you submit to us the report?
    Mr. Niemeyer. Yes, ma'am.
    Ms. Lee. And I would like to see, if you can, disaggregate 
the data based on gender and ethnicity.
    Mr. Niemeyer. Yes, ma'am.
    Ms. Lee. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dent. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    General, I interrupted you, so if you would like to 
continue your train of thought about best practices in terms of 
implementation of stable energy projects?
    And then if someone would comment further as to how this is 
discussed internally in terms of sharing templates or ideas, 
just tell me the process. That would be helpful.
    General Coglianese. So with the goal, and we have always 
had the goal. I mean, our installations are combat power, to 
project combat power in time of peace and support a national 
defense period. And that is what we are out there for.
    So over the years we have done some, I think, some really 
good projects to force the ability to operate off the grid, 
whether it is pulling methane off the San Diego, whether it is 
co-generation plants at twentynine Palms, which we would be 
able to operate off the grid, whether it is Albany, Georgia, a 
depot, which we are basically net zero down there.
    But it is about operating combat power and each 
installation depending, as you know, sir, whether you are in a 
warm hemisphere area or a desert or a mountainous area, what 
renewables, what type of energy resiliency, it applies more 
geographically than it.
    We share that within the Department of Navy and then with 
OSD. So I think the information is out there. Now we just have 
to make the right investments, I think, to ensure not just the 
renewable energy but that microgrid ability or wheel energy 
around that base in order to generate combat power.
    Mr. Fortenberry. Look, your comments are fair, that your 
mission is to keep us safe and you have to do that through the 
means that are available to you. However, because again, the 
footprint is so large and the investment is so big, sometimes 
what by thinking constructively and creatively you actually 
can, for the long term, enhance the ability to deliver a 
mission under adverse circumstances while also furthering a 
larger societal goal.
    And you have talked about it here in terms of environmental 
protection, but also in terms of establishing the next phases 
and generations of what we need to move to anyway in terms of 
bridging to a more sustainable future.
    So it is not putting that fundamental mission on the DOD 
but to the degree you can partner with it and leverage it for 
your own sake, but also furthering this broad societal public 
good is necessary. That is why I am trying to understand best 
practices that are out there and then the internal dynamics in 
which those are shared.
    From my perspective, looking from the outside in, dealing 
primarily with, not in this capacity but in who I represent 
back home, we have just kicked off the initiative to try to 
create a working group around deeper exploration of how is 
geothermal possible, is wind where we are possible.
    Solar has potential, but there are some complexities where 
I live. So can anyone address this? Yes, General?
    General Bingham. Thank you, Vice Chairman Fortenberry, and 
I would like to comment on when I talked about partnerships and 
working outside the gates, if you will. When you talk about it, 
think about energy security and resilience in the state of 
Hawaii right now, the Army has taken on a partnership with 
Hawaii Electric Company for a 50-megawatt biofuel plant.
    And the intent of that is in the case of a natural disaster 
or power interruption we are able to sustain the whole of 
Schofield Barracks, Wheeler Airfield, Kunia Field and one of 
the local hospitals for a period of 30 days. It is above the 
tsunami zone and we think that is a model, a partnership----
    Mr. Fortenberry. Okay, all right, well, you now live in a 
state where there is public power, so sometimes it is a little 
easier for us to actually urge a municipal entity to partner 
constructively with another municipal entity and that is what 
we are trying to do.
    But there are all types of distributed generation options 
that are out there, and again, they might be able to 
incorporate depending on circumstances, sustainable energy 
models.
    Mr. Niemeyer. I will also say that the Army and the Air 
Force actually collaborated their efforts. They took their 
energy offices and combined them into one. So they are taking 
the lessons learned every day and they are applying them.
    And now we are looking at, okay, now let us bundle them at 
more than one installation. Let us look at our range of 
missions as to what we can do working with a local utility 
company on addressing the utility needs without just having to 
be in these stovepipes.
    So there is a lot of that collaboration going on right now 
within DOD.
    Mr. Fortenberry. Okay, good.
    Yes, sir?
    Admiral Smith. Sir, I was really going to echo the same 
thing. So the Navy has got an office that focuses on this. They 
also work collaboratively and share the----
    Mr. Fortenberry. Called the Energy Office?
    Admiral Smith. Yes sir. REPO, Renewable Energy Office that 
is now actually Resiliency Office, that resides in Naval 
Facilities Command and we have done a lot of work over the past 
couple years putting in projects. We have got a lot of projects 
going right now. And I can easily get you a list of what has 
been done and what is happening with specifics.
    Mr. Fortenberry. Well, that is okay. That is just more work 
for you guys, because I would just ask you to keep doing this 
because it is important for this broader reasons that we just 
discussed here.
    But again, I don't know if it is a mandate or a strong 
suggestion, somewhere embedded in law, but by 2025, 25 percent 
now. I hear what you are saying about geographic diversity and 
it has got to be consistent with the fundamental mission. I get 
that, but I think it can be.
    So we are pushing on this back home as well just to let you 
all know, so I may have officials at the installations that I 
work directly would come directly. Would that be all right, Mr. 
Secretary?
    Mr. Niemeyer. Absolutely.
    Mr. Fortenberry. Secondly, back to the Military 
Installation Savings Commission, what is just a quick summary 
of your excess inventory across the branches?
    General Green. So we will go from my end. The last reported 
savings that we had was roughly 30 percent or excess. The 
majority of that, as I alluded to earlier, is really built upon 
ramps. And so we are right now working toward getting our arms 
better around facilities. So people normally associate 
facilities and excess facilities, and I don't have a good 
figure to give you.
    Mr. Fortenberry. What do you mean on ramps? Runway?
    General Green. So bases, so when we talk about ramps is 
where we park out aircraft and so if you have reduced the 
number of aircraft in a wing over time or reduced the number of 
squadrons, then we have excess parking spaces.
    Mr. Fortenberry. So that is a little bit harder to deal 
with. I think the types of things that we are talking about 
what we spun off or sold----
    General Green. Yes sir.
    Mr. Fortenberry [continuing]. Or integrated in the 
community in a constructive manner so you are not disrupting 
community lives.
    General Green. Yes sir, so what you are looking for I don't 
have at hand right now to tell you. We will come back and get 
you the best answer we can.
    Mr. Fortenberry. So that 30 percent figure includes these--
--
    General Green [continuing]. Excess ramps, yes sir.
    Mr. Fortenberry. Well, these large infrastructure that in 
all likelihood doesn't have a repurposed use for some type of 
community need.
    General Green. Yes, sir, that is correct.
    General Coglianese. Sir so, we know right now what we have 
is--just in Q3 and Q4, 17 percent or is in the facility or Q3 
to Q4 conditions. The Q4 we would say we need to demo now.
    So there are about 733 buildings that we know we can get 
rid of now. But part of the infrastructure reset is 
recapitalization is as important or more important sometimes 
than MILCON, taking that money from the MILCON, as opposed to 
new platform from the MILCON.
    So as we are doing our basic facility requirements, so what 
is the infantry battalion rate space-wise? And that is where we 
are coming up. This is where you rate and this is what you 
should have.
    And if you are a typical Marine and if you get a facility 
you will expand that facility. You will use it for martial 
arts. You will use it for storage of equipment and things like 
that. So we are coming up with standards.
    We actually have them now, and we are consolidating 
Marines, moving Marines from barracks into, you know, 
consolidating. Maybe they were spread out in two barracks and 
put them in one to get the occupancy rate.
    And as we do then then we can recapitalize that building 
for another purpose or if it is not in good condition to demo 
it. So right now we know low-hanging fruit, there are, like, 
733 Q4 buildings.
    Mr. Fortenberry. So I think this question of excess 
inventory perhaps is too broad. There are a lot of subsets of 
this. As you are talking about that kind of infrastructure 
really transitioning into something else, minimal likelihood, 
so it has lessening and lessening value.
    You are talking about a consolidation of assets that you 
already have versus in my mind I am thinking of, again, going 
back to BRAC where you are actually spinning off or closing 
certain things.
    But rather than looking at it through that lens, how do you 
actually integrate those into some other community use. So I 
think that we need some subsets of what excess inventory means. 
I think that is----
    Mr. Niemeyer. And Congressman, also it is not just the 
savings. It is military value. The biggest part of the BRAC 
process----
    Mr. Fortenberry. Well, that is savings----
    Mr. Niemeyer. But what I am getting at is----
    Mr. Fortenberry [continuing]. In that sense.
    Mr. Niemeyer [continuing]. We have to assess what future 
value would those facilities be to future missions? So we are 
having to do that level of complexity, too.
    Mr. Fortenberry. Okay, but one more moment, Mr. Chairman, 
if you would? But the general suggests, I guess we have heard 
for many years, particularly from the Air Force, is you have 
got 30 percent excess inventory.
    Well, what that implies is that you have got wasted space 
sitting out there. We are just paying electrical utility bills 
or it is not meeting its highest and best use in terms of 
community repurposing.
    But it is not exactly right. That is what I am trying to 
get to. What is the percent of assets that could be sold off, 
reintegrated into or repurposed into another community use or 
repurposed as you are suggesting into a higher value for the 
military itself.
    Mr. Niemeyer. So we have been working on that. Congress has 
given us authorities over 15 years to take an unutilized or 
sub-optimized piece of property or a building and go ahead and 
spin it off. Go ahead and lease it, give to somebody else, get 
it off our inventory.
    We have been working at that. We have been working at 
demolition. So we have been exploring those other ways to 
reduce that number of excess facilities. We are getting to the 
point where all the low-hanging fruit is done. Now, we have got 
to get to a bigger process here that allows us to think like 
holistically at the enterprise.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Dent. Sounds like you are advocating for a BRAC in 
this--or a FORT, a MISC? Okay, so with that----
    Mr. Fortenberry. A MISC.
    Mr. Dent. So I would like to, at this time, recognize the 
ranking member for any closing comments she might have.
    Ms. Wasserman Schultz. No closing comments, just a motion 
to include this graph, which indicates MILCONs as a percent of 
total DOD appropriation for the record.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dent. Without objection. I have other questions that I 
will ask, but not today. I will submit them to you and then you 
can then send them back to us with responses on the official 
record.
    So with that, thank you all for being here and this 
committee meeting is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, April 17, 2018.

                              MEMBERS' DAY

                              ----------                         


                                WITNESS

HON. TIM WALZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MINNESOTA

                   Opening Statement of Chairman Dent

    Mr. Dent. Good afternoon and I want to welcome everyone to 
today's Member Day hearing for MilCon, VA and Related Agencies. 
Chairman Frelinghuysen asked all subcommittees to hold these 
hearings to ensure that all members have an opportunity to 
provide input in the appropriations for fiscal year 2019. We 
are pleased that we have six members here to discuss a variety 
of military construction and veterans programs.
    I would like to recognize my friend and Ranking Member Ms. 
Wasserman Schultz for any remarks she would like to make before 
we get into the hearing testimony.

         Opening Statement of Ranking Member Wasserman Schultz

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Looking 
forward to hearing from our colleagues today, each of whom I am 
sure will provide us an important perspective, that is why 
being a representative body like the House of Representatives 
gives us a chance to really on a Member Day like this to look 
through their lens.
    But most importantly, I think it is especially appropriate 
to acknowledge your announcement, your service today. You 
announced that you will be resigning from the House of 
Representatives in several weeks, and being a classmate of 
yours, having been elected together in the class of 2004, 
serving together side by side on this committee, having an 
opportunity to be your ranking member and to work with you, you 
have always been not only incredibly fair but have provided a 
perspective that was sorely missed and too infrequent, 
promoting bipartisanship, being rational, reasonable and 
straightforward and having the kind of integrity that your 
constituents deserve and that Americans deserve.
    And most importantly, it has been incredible to get to know 
you and to call you a friend and I look forward to your last 
few weeks. But we know you will be gone, but never forgotten 
and will continue to serve this country in other ways.
    Mr. Dent. Well, thank you, Congresswoman Wasserman Schultz, 
for those very kind words. It has been a pleasure serving with 
you and I remember we came into Congress together in 2004, 
elected in 2004, we were there with our young families and they 
are a little less young now and so are we but it has just been 
a pleasure serving with you and, frankly, everybody on this 
subcommittee and the full House.
    I've got to tell you, everybody is a friend here and I just 
want to thank you for the kind and generous words. And I know 
that all of you will carry on the great traditions of this 
institution and this subcommittee which has had a great 
tradition of bipartisan cooperation. So, it is with mixed 
emotions that I am leaving. But nonetheless I thought it was 
just the right time and I will have more to say about it in the 
not too distant future, but thank you again and I appreciate 
it.
    And so, without objection, I would just like to mention 
that your written statements will be entered into the record 
and please feel free to summarize your remarks for five minutes 
and I will go through the announced order.
    We will first recognize our good friend from Minnesota Tim 
Walz with whom I went on one of my first CODELs to Iraq and 
Afghanistan many years ago.

                     Statement of Congressman Walz

    Mr. Walz. Well, thank you, Mr. Chairman. And I know you are 
not dead so it is not a eulogy, but I would be remiss if I 
didn't say it because it is well-earned. Your reputation as a 
man of his word, integrity, a legislator of thoughtfulness and 
I think a friend to so many of us and I would be remiss if it 
is a little selfish, we hate to see you go.
    This place needs you. It needs the type of person that you 
are and I think many of us feel that way. And I think it shows 
that the people up here with the ranking member, Ms. Wasserman 
Schultz, also a dear friend, appreciate what you have done and 
of course, the vice chairman, Mr. Fortenberry.
    As a subcommittee and what you have done on here, you have 
served veterans well. You have always been there in a 
bipartisan way as champions to make sure we got this right. And 
over the years that you served as chairman, Mr. Dent, the 
appropriations have continued to increase for our warriors at a 
time of war and that has not gone unnoticed.
    So, I for one am grateful for your work. This institution 
will miss you. I think the American people oftentimes, they 
have good right to be a little bit cynical; they should know 
that happens here and especially with people like you in this 
committee is really why we came. So, thank you. Thanks for the 
opportunity to be here today.
    Mr. Dent. Thank you. I should mention, too, that Jeff 
Fortenberry is also our classmate. We all came in together.
    Mr. Walz. Yes.
    Mr. Fortenberry. With small kids.
    Mr. Dent. With small kids except he had five, and all 
girls.
    Mr. Walz. Well, thank you, all, for having us here today. 
Before I get started, I would just like to ask if I could have 
a couple of things entered into the record. One is a letter 
from Representatives Brownley and Larson.
    They request VA in vitro funding and adoption assistance be 
made a permanent program or extended at least through 2020. I 
support making this program permanent so our disabled warriors 
have the opportunity to have families also. And then I request 
that a table of selected VHA accounts be entered into the 
record as part of my testimony.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Thank you. And, again, I want to thank this committee and 
thank the Congress for the appropriations that we have 
received. This is our sacred responsibility to care for our 
warriors. We also have a sacred responsibility to look after 
taxpayer dollars. How that money is spent is critically 
important, because if it is not targeted at the care of our 
veterans, it is money wasted and opportunity wasted.
    And time and again we hear the concerns over privatization 
of the VA. This budget lends credibility to those concerns and 
I want to just lay out a few reasons why I think we all need to 
be concerned.
    Between fiscal year 2017 and the appropriate levels for 
2018, community care will have increased 49 percent. That is 
not taking into consideration the $4.2 billion in additional 
emergency spending that we are continuously asked every few 
months to inject into the system. That is a nine percent 
increase in care in hospitals and in the clinics.
    In February when we passed the Bipartisan Budget Act, we 
included another $4 billion over time for building and 
improving VA hospitals. That was done with the VSOs, the 
American Legion, the Disabled American Veterans, everyone, 
understanding that that money was going to be put into catching 
up on the backlog of work we need to do on our VA hospitals.
    But instead of prioritizing that, the budget proposed 
spending half that money on care in the community. That is 
after we authorized the $4.2 billion. A huge increase in 
community care is not enough. This year's budget requests 
mergers of the medical community care accounts that were 
congressionally mandated to be kept separate with the medical 
services account.
    Let me just make clear what is happening here. We made sure 
that VA kept this community care money separate when we did the 
bill in 2015 so that we would know what we are spending. There 
is no way right now to track what we are getting for our money 
in care in the community.
    And to be very clear, I am a veteran myself, I believe it 
makes sense if somebody needs a blood test in Sleepy Eye 
Minnesota, don't drive 200 miles to Minneapolis VA to get it; 
we can do it locally. Those things have always happened in the 
VA.
    But what has happened now is a massive shift to the outside 
with no accountability of it and no spending on the internal 
capacity. So, we end up in a death spiral. Well, yes, there are 
less physicians at the VA hospitals so we force more people to 
the outside.
    And so, we said let us at least have transparency in our 
system to make sure these accounts are kept separate. They are 
now asking us to bleed them together. As an oversight body, we 
should all be very concerned with this, and making no mistake 
about it, you will not be able to track where money is spent. 
You will not be able to know what is happening in the outside.
    So, instead of addressing the infrastructure, the money 
will be spent purchasing community care. To put it into 
perspective, we have spent $38.5 billion since the Phoenix VA 
crisis. During that time, we had 31,000 vacancies of providers 
that have not been filled, 4,000 to support physicians in the 
VA.
    That $38.5 billion would have paid for everything to fill 
every single one of those. I am not saying that is what we 
could have done. I am making the case that this has always been 
a balance. And when it comes to the veterans service 
organizations, 90 percent of VFW members who were polled said 
they wanted their care in the VA. They want that to be the main 
care.
    So, what I would like to say and we see this and so we 
know, we are getting information and the GAO will put out a 
report soon anecdotally that we are hearing, you go to care in 
the community, you are put outside the VA, the average wait 
time in some places is now longer than it would have been if 
the individual just stayed in VA, it is up to 90 days in some 
cases.
    So, what I am asking all of you is this philosophical 
debate about privatization while valid, does get to the heart 
of this. Our job is to provide quality care that was promised 
and must be delivered to our veterans. We have a VA system that 
in many cases does that well. In other cases, there are gaps in 
the system and we use community-based purchasing power to do 
that.
    All we are asking for is to make sure in this budget that 
it stays transparent and separate and that we have 
accountability in this budget about what are we getting on the 
outside for that. So, I would ask us to keep close eye over 
that, make sure that this budget has the capacity to analyze 
what we are getting for it, make sure we are taking into 
account that every time we transfer money out of capacity into 
care, we are forcing more veterans outside the system with no 
coordinated care and no measures of success against what the 
veterans want.
    I understand the challenge for elected members of this 
body. If you ask the general public what we should do, they 
think they are helping by saying give them a card and let them 
go wherever they want to. Nobody in the veterans community is 
saying that. Nobody wants it. There is no evidence to prove it 
works. In fact, the evidence proves it works worse than that.
    And I think, again, coming back to you, we are not asking 
you for more money. We are asking you to make sure that money 
is targeted, that it is specific and there is data to support 
where it is going and that we keep this budget separate for 
community care from the care that is happening inside the VA, 
because I think when you look at this right now, it is pretty 
hard to argue.
    And I would say this, that unsolicited, several weeks ago, 
the VA put out a memorandum to everyone and said why 
privatization isn't happening. That is the equivalent of asking 
all of you not to think about a draft. Of course, you are 
thinking of the draft, so why did they bring it up? No one 
asked them about it. They spontaneously said it because it was 
on the verge or the eve of this budget coming out.
    So, I want to be very clear that thanks to you and to this 
committee, fair and appropriate appropriations that let us try 
and tackle the things that we are obligated to do have been 
unprecedented, and for that I am grateful, that care at the VA 
continues to, I believe, improve, but it is a zero sum 
proposition, every time it falls short, we need to be there.
    And there is a role as there always has been for care in 
the community, but allowing this budget to be all put together 
with no accountability I think would be a dereliction of our 
first, responsibility to veterans and secondly, to the 
taxpayers. I don't think you will get your money's worth.
    So, thank you for the time.
    [The information follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                         CARE IN THE COMMUNITY

    Mr. Dent. Thank you, Representative Walz. I want to thank 
you, too, for your leadership on the authorizing committee. You 
are the ranking member and you are obviously a servicemember 
yourself and very committed.
    I just want to make this one quick comment. Sooner or 
later, there will be some authorization, I am told, 
consolidating the various Choice and care in the community 
programs. Currently, we are funding Choice through mandatory 
dollars and, of course, that could all change once the 
authorization bill is enacted, if it is enacted.
    And I just wanted to point out one issue, too. Where I 
live, I will tell you that many of the veterans want to be 
served in the community where they live. Our closest hospital 
is 60 miles away in a town called Wilkes-Barre.
    And that is the number one complaint I hear from my local 
veterans. They want scheduled procedures to be able to be done 
closer to home out of convenience for them and their family 
members. And in many cases they feel they will be going to 
superior medical institutions and hospitals if given that 
opportunity. So, I just want to put this on the record.
    I don't have any questions but thank you for your advocacy 
and all that you have done for veterans all these years.
    Ranking member.
    Ms. Wasserman Schultz. Thank you. Thank you, Mr. Chairman.
    Congressman Walz, thank you for your service to our country 
and for your friendship. We have been friends for many years 
and as you are departing as well, it has really been a pleasure 
to get to know you. And I certainly hope you are successful in 
your endeavors.
    My question for you is do you share--well, let me preface 
my question because, Mr. Chairman, we have not seriously 
debated this but we definitely have a slightly different point 
of view when it comes to the direction that we are going in 
potentially combining these accounts and veterans seeking 
service in the community.
    There is no question that everyone, veteran or not, prefers 
to get the health care that they need closer to home. Our VA 
hospital is probably 35 to 40 miles from, say, 35 miles from 
most constituents in my district. It is also in the middle of a 
very dense urban area and hard to get to, hard to find parking. 
But we have solved a lot of that problem through clinics, as 
has the VA throughout this country.
    And so, we have a fairly large clinic that was built in 
Sunrise, in my district, the Bill Kling clinic. Much of the 
care that is provided at the main hospital is able to be 
provided there because there is a shuttle that can take 
veterans from that clinic down to our hospital and 
overwhelmingly the care that veterans say they seek, they 
prefer if they can to access it at the VA and believe that that 
is the care they have the most confidence in.
    So, with that preface, are you concerned, Representative 
Walz, about the combining of those accounts really being the 
first step, intentionally being the first step towards 
privatization of healthcare services at the VA?
    Mr. Walz. I am. And I don't deny and I think there is 
validity in this because the issue is it is not the false 
choice of privatization versus VA itself; it is a hybrid model 
of this.
    Ms. Wasserman Schultz. Yes.
    Mr. Walz. But the understanding is if this money is cycled 
away, it drains off and will kill the VA as that institution. I 
want to be very clear about that. That means all of the 
research, all the specialty care and those veterans who want to 
get care close to home, my guess is if they are members of 
Paralyzed Veterans of America, the disabled veterans, depending 
on where their injuries are, it changes where they are at on 
that.
    If you are a veteran that is getting a blood test in the 
city of Sleepy Eye, they should be able to do that. So, my 
concern is that if we are taking those sets of resources and 
transferring them somewhere else and there is, there is 
assumption on this and we have research to support this, if you 
are going to die in a hospital, you are going to die from a 
hospital-acquired infection.
    The place where you are least likely to have that happen is 
not even at the Mayo Clinic; it is at the Minneapolis VA. That 
is where the best care in terms of that is. So, this idea that 
it is cheaper, it is quicker and it is better in the private 
sector, there is no data to support that.
    But it doesn't change the chairman's point on this is if 
you are closer to home. So, we have always delivered up to 25 
percent of our care in the private sector anyway. We have 
expanded the CBOCs as the gentlelady said but I think we need 
to get out of this trap.
    There is an ideological belief and it is my belief right 
now that is dominating, certainly coming out of the White House 
that the idea is that we can go totally to the private sector 
care, no need for the VA. That is where the danger lies.
    I think for all of us, it is striking the proper balance. 
And what I am asking for is in this budget is for us to at 
least have the transparency to know where it is going. If that 
money is going into the private sector, if we are getting more 
bang for the buck and veterans are being seen quicker and they 
are getting there, I am open to the possibility that would be 
there.
    But don't forget, inside VA is all of that research, all 
that delivered care, all of that managed care on multiple 
modalities that these people are going through. If you go in to 
see your physician, when you go in to see a VA doctor, yes, you 
will see them longer and I know people complain about this 
where you spend too much time with the person.
    My veterans say, yes, when I am in there I mentioned to 
them, yes, what about this thing on my hand and they found out 
that it was skin cancer. Had I been to another doctor, I would 
have had another appointment.
    So, it is my belief that this is not the best way to manage 
the care. It is not my belief that there is not quality care to 
be delivered in the community. I represent the Mayo Clinic; 
they do a wonderful job. There is a place for that.
    But at the expense of and to be very honest, why blend them 
together if it is not just to continue to move money out of 
there. Why not keep them separate so we can see it? You are 
appropriators, you are budget people, let us see where that 
money is going.
    Mr. Fortenberry. I think it was appropriate to mention as 
Congresswoman Debbie Wasserman Schultz did that you are also 
ending your service as well.
    Mr. Walz. Well, thank you.
    Mr. Fortenberry. So, I don't want to divert from the issue 
at hand because clearly you are passionate about caring for 
veterans and have a very detailed grasp as to what ought not be 
a conflict that is I think what you are communicating.
    But either on a case by case or geography or level of 
medical infrastructure that is already in a place or not, we 
have to find the right balance between the movement toward a 
singular goal which is care for our veterans, not a debate over 
whether this is going to be public or this is going to be 
private. I think it is a fair set of comments. Thank you.
    But I primarily, I want to thank you as well for your 
friendship and your service. I don't think Mr. Dent intended 
this to be a meeting in which we are all saying goodbye but, 
nonetheless, it is kind of going that direction. But I am 
really grateful for your friendship and wish you all the best 
in your possible future leadership roles as well.
    Mr. Walz. Well, no, thank you. It does mean a lot. I think 
it is an interesting intersection of folks here who I have come 
to admire and call friends. We have worked together on some 
very diverse issues, and I think maybe this all comes together 
on what is possible, and Mr. Fortenberry was at the heart and 
the nexus of a very new way of delivering veterans care in the 
Omaha, Lincoln area of Nebraska where we used public-private 
partnerships to build a facility that wouldn't have gotten done 
by the private sector alone, wouldn't have gotten done by the 
VA alone, but it is getting done now because of that 
leadership.
    And I think if you can help us and that is all I am asking 
for on this, I think what will muddy the water is those two 
accounts coming together, not the ideological argument. And 
thank you for the kind words. Thank you.
    Mr. Dent. Thank you, again, Congressman Walz, for your 
service. And, yes, you are leaving at the end of the Congress, 
too, and good luck to you in your race. And, again, just to 
say, I don't like to use the term privatization. I would like 
to talk about the integration, a better integration I should 
say of the civilian and the veterans health systems that we 
have.
    And I often found that my local VA medical directors are 
quite skilled and I would like to see them take on a role not 
just as a provider of care but maybe a little bit more of a 
manager and a coordinator of care. They do understand the 
healthcare resources in their regions and, frankly, I don't 
think they are empowered enough to make some decisions.
    When Secretary Shulkin served here as Secretary and 
Undersecretary under the Obama administration, we had the 
debate about should the VA deliver babies. And they came, I 
think, to the right conclusion that the VA probably would not 
be able to do a very good job of it because they wouldn't 
deliver enough to be very good at it and basically that is done 
in the community as it should be.
    And so, I think we have to have a thoughtful discussion 
about where the VA can best meet the needs of the veterans in 
that system and where maybe a community option would be better 
to serve the veterans.
    So, thank you. We appreciate hearing from you and great to 
see you and see you around. Thanks.
    Let us go to Congresswoman Claudia Tenney of New York, 
recognized for five minutes.
                              ----------                    

                                           Tuesday, April 17, 2018.

                                WITNESS

HON. CLAUDIA TENNEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK

                   STATEMENT OF CONGRESSWOMAN TENNEY

    Ms. Tenney. Yes. Thank you, Mr. Chairman. I am sorry to 
hear the news; I just got to know you and now you are leaving.
    So, anyway, I just want to say thank you to Chairman Dent, 
Ranking Member Wasserman Schultz and the members of the 
Appropriations Committee for providing me the opportunity to 
testify today in support of the request submitted to Congress 
by the Secretary of the Air Force for a perimeter fence around 
the Air Force Research Laboratory Information Directorate, 
otherwise known as Rome Lab and I will refer to it as Rome Lab.
    Rome Lab is a premier research and development facility 
committed to our nation's safety and cyber security. As a 
leader in communications and information technologies, Rome Lab 
ensures that our defense capabilities remain on the cutting 
edge.
    In a world where defense is increasingly technological in 
nature, Rome Lab is critical to the mission success of your 
warfighters. At the present time, Rome Lab lacks a perimeter 
fence to secure the facility and meet the existing force 
protection requirements as outlined by the Department of 
Defense.
    The highly sensitive nature of Rome Lab's research and 
development projects place the site at heightened risk. The 
critical work conducted at Rome Lab necessitates appropriate 
security safeguards including a secure system of perimeter 
fencing. Without this important precaution, the facility's 
sensitive information is vulnerable. A security fence around 
Rome's perimeter will also increase the safety of the lab's 
more than 3,000 personnel.
    Additionally, the fencing will reduce the facility's 
susceptibility to terrorist-type activities. Joint Staff 
Integrated Vulnerability Assessment or JSIVA teams identified 
security vulnerability risk at Rome Lab in 2008 and then again 
in 2014. Indeed, in the last 10 years, over 240 individuals 
were detained, interviewed and released by security at Rome Lab 
due to the lack of perimeter security.
    Mr. Chairman, it is 10 years since the JSIVA identification 
that I mentioned, that is far too long a time to allow the site 
to remain unsecured. As the parent of an active duty Marine 
officer and Representative to over 50,000 veterans, I sincerely 
appreciate the important work that this subcommittee does for 
our military and our nation's veterans.
    I urge the subcommittee to provide strong consideration on 
the request for perimeter fence as submitted to Congress by the 
secretary of the Air Force and to prioritize the safety of the 
men and women who sacrifice so much to defend our nation as 
well as the vulnerability of this very sensitive military 
research.
    Thank you for allowing me to testify and I yield back the 
balance of my time or any questions you may have.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                      ROME LAB SECURITY FENCE COST

    Mr. Dent. Real quickly, this projected is on the unfunded 
priority list I believe. Do you know what the price tag is on 
this one?
    Ms. Tenney. $14.2 million.
    Mr. Dent. Okay. The only comment I am going to make, I am 
sympathetic to perimeter fences; we just were able to do one in 
my own area for the same reasons you just outlined very well. 
So, I am sympathetic.
    These facilities obviously are in great need of greater 
security given the risk of terrorists and other bad actors who 
might try to penetrate. So, I don't have any questions. We will 
do our best in the unfunded priority list to try to see if we 
can accommodate you.
    Ms. Tenney. Thank you. I appreciate your advocacy. Thank 
you.
    Mr. Dent. Okay. Well then, thank you so much, Congresswoman 
Tenney.
    Ms. Tenney. Thank you.
                              ----------                              

                                           Tuesday, April 17, 2018.

                                WITNESS

HON. MARK TAKANO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Dent. Representative Takano, from California. Welcome. 
We look forward to receiving your testimony. You are recognized 
for five minutes.

                    statement of congressman takano

    Mr. Takano. Thank you, Chairman Dent, Ranking Member 
Wasserman Schultz and other members of the subcommittee. Thank 
you for allowing me to join you this afternoon to discuss 
funding priorities for the Department of Veterans Affairs.
    I have been a proud member of the House Committee on 
Veterans Affairs since my first term in Congress and I 
currently serve as the committee's vice ranking member.
    The main issue I would like to address this afternoon is 
the administration's proposal to consolidate the VA's medical 
services and community care accounts. I heard Congressman 
Walz's testimony, some of it.
    Given the VA's notorious difficulty in forecasting the 
spend rate of the Choice program, I believe this proposal is 
misguided and will make it harder for members of Congress to 
provide critical oversight of how the VA spends its funding for 
medical care and in turn will undermine the care that veterans 
receive.
    Now, as many of you will recall, the Choice program arose 
from the Phoenix wait time scandal. It was a rushed response to 
a serious emergency and its implementation reflected the 
prioritization of speed over effectiveness. The program was 
actually set to sunset in August of 2017 or when the VA had 
spent the $10 billion Choice fund.
    After months of being told by VA officials that the Choice 
fund would be depleted well short of the sunset day, the VA 
revised its estimate. By spring of 2017, the VA forecasted that 
it would actually hit the 2017 sunset date with more than $1 
billion remaining in the account.
    Now, Congress then acted quickly and lifted the sunset date 
to allow the remaining funds to be spent on veterans' care. 
However, by July of that year, the VA reverted back to its 
previous estimates, prompting Congress to pass the VA Choice 
and Quality Employment Act of 2017 to provide $2.1 billion to 
the program.
    Well, by December, the VA notified Congress that it would 
again run out of funding for Choice in January 2018. So, what 
did Congress do? It appropriated an additional $2.1 billion to 
the Choice fund.
    This latest funding was expected to last through the end of 
this fiscal year, 2018. But now, the VA expects it will run out 
of funding in early June, more than three months before the end 
of the fiscal year.
    Now, if you found that narrative difficult to follow, then 
you understand my point. Tracking the cost of the VA's Choice 
fund is difficult even when it is separate from the medical 
services account. Merging the two accounts would make 
meaningful oversight nearly impossible.
    Additionally, the merger of the community care and medical 
services accounts runs directly counter to the Surface 
Transportation and Veterans Health Improvement Act of 2015 
which mandated that VA provide a request for community care in 
the budget. And most importantly, this change would invite 
community care spending to encroach upon the budget that is 
dedicated to maintaining the VA facilities and workforce that 
provide high quality care to our nation's veterans.
    Every year, roughly nine million veterans rely on VA 
services. So, I implore us to reject any proposal that 
jeopardizes our ability to ensure those services will remain 
available.
    In my remaining time, I would like to highlight the need 
for funding to fully implement the Forever GI Bill. The 
landmark bill guarantees veterans a lifetime GI Bill benefit 
rather than benefits that expire. It simplifies and 
consolidates the Montgomery GI Bill and the post 9/11 GI Bill 
and has valuable protection so that veterans don't lose their 
benefits when a school closes mid semester like ITT Tech or 
Corinthian did.
    However, for this to succeed, the VA needs full funding for 
implementation. And I am concerned that without proper funding 
for IT upgrades, the VA is ill-equipped to comply with the new 
provisions of the law and will fall short of keeping the 
promise we have made to veterans.
    I ask that the Appropriations Committee provide the full 
$30 million authorized in Section 115 of the law for claims 
processing and IT upgrades. The Forever GI Bill is an historic 
step forward and we owe it to our veterans not just to 
authorize it but to fully fund implementation so that veterans 
can receive its full benefit.
    I thank you for your time this afternoon. I look forward to 
continuing to work with you to ensure that veterans receive the 
services and support they deserve, and I yield back.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dent. Thank you, Representative Takano, for your 
comments on the GI Bill, and as appropriators we do our best to 
try to accommodate the authorizing committee and what you have 
just stated on the GI Bill is extremely important. And we are 
deeply committed, also on the health care. I won't belabor what 
was spoken about earlier except to say that your concerns about 
transparency are well-founded. And I think we have all been a 
little bit frustrated about getting reliable data from the VA.
    And this has been going on for some time, about the cost of 
care at the agency, either that they provide or they pay for. 
So your point is well-taken. And I thank you for your 
testimony.
    Representative Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. I would 
associate myself with your remarks and underscore that I share 
your concerns not only about transparency, but also on what 
appears to be a potential march towards privatization, which I 
find inappropriate and would not be what is best for our 
veterans. And I share their concerns on moving in that 
direction as well.
    Mr. Dent. Thank you.
    Ms. Wasserman Schultz. I yield back.
    Mr. Fortenberry. Just to take an opportunity to also follow 
through on a comment that was made when Congressman Walz was 
here. Congressman Takano also played a very constructive role 
of helping navigate the bill that we were able to pass last 
year that created the public private partnership option that we 
are now implementing in Omaha.
    So that, again, the first time I have to thank you 
publicly. I wanted to take it and really appreciated your 
negotiating skills, your flexibility and then joining with that 
team effort to get this done.
    Mr. Takano. Thank you, Vice Chairman Fortenberry. It was 
when I was the vice ranking member of the Veterans Affairs 
Committee and worked with Congressman Ashford, worked with your 
junior Senator at the time and it was a coming together of 
knowing that we could bring the private sector into how we 
operate the VA.
    And I am so glad that that came to pass. So I am very 
pleased. I just want to mention one more thing--you are from a 
state that is very rural. The thing I will say is that we are 
facing a tremendous doctor shortage in our country.
    And part of the problem with the VA is the understaffing 
and to make sure it is fully staffed out. And I imagine also in 
Pennsylvania we have also serious problems with doctors. The 
solution is graduate medical school education.
    And I really believe the VA--one of the reasons we can't do 
away with VA health care is actually in rural communities, it 
is a strategy to get doctors into those communities. And to 
fund the training of those doctors through the VA, so I would 
love to have more conversations about that in the future.
    So thanks.
    Mr. Dent. Thank you, Representative Takano.
                                           Tuesday, April 17, 2018.

                                WITNESS

HON. JOHN RUTHERFORD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

                  Statement of Congressman Rutherford

    Mr. Dent. Let's go to Representative Rutherford of Florida. 
You are recognized for five minutes.
    Mr. Rutherford. Chairman Dent and Ranking Member Wasserman 
Schultz, thank you, and distinguished members of the Committee, 
thank you for this opportunity to testify on behalf of my 
Northeast Florida priorities for the fiscal year 2019 Military 
Construction and Veteran Affairs appropriations bills.
    First, as a member of the House Veteran Affairs Committee, 
I want to thank all of your work to ensure that veterans are 
receiving the best care possible. And the 115th Congress has 
made great strides in increasing the access to quality care, 
improving accountability and reforming many broken systems of 
VA.
    These reforms are a testament to our two committees 
effectively working together and I look forward to continuing 
this important progress. However, I would like to use today to 
focus on two projects of high importance to Naval Station 
Mayport, which I am proudly representing here in Congress.
    The mission of Naval Station Mayport is to sustain and 
enhance warfighter readiness and is the third largest fleet 
concentration area in the United States. While serving as the 
home to an amphibious ready group, several destroyers, cruisers 
and other ships, Mayport is also the proud east coast home port 
for the littoral combat ship Freedom Class. The USS Milwaukee, 
the USS Detroit and the USS Little Rock have already been 
delivered to the Navy and homeported at Mayport.
    And as Congress strongly supported the LCS program, 
eventually a total of up to 14 LCS will be homeported at 
Mayport by 2020. As the LCS continues to be delivered to the 
fleet, it is vital that required military construction projects 
are funded by this Congress.
    That is why the president's fiscal year 2019 budget request 
includes funding for the LCS support facility and the LCS 
operational training facility located at Mayport. These 
projects are a second phase of MILCON that is essential to the 
training and equipping of the LCS squadrons as this class of 
ship begins to enter its active deployments over the next few 
years.
    Before I discuss why these projects are so important to 
fund in this coming fiscal year, I want to explain what makes 
the LCS different than other surface combatants. The LCS 
training and manning plans are designed to maximize efficiency 
of deployed ships, transferring traditional training and 
administrative functions to shore facilities.
    The Blue/Gold crew swapping in the shore facilities allow 
for training and financial efficiencies. Without these 
capabilities the Navy would require larger crews, diminishing 
the tactical advantages of the LCS in close-contested waters.
    As we see the threats across the globe on the rise, having 
this capability will prove essential in the years to come. The 
two projects requested by the President in fiscal year 2019 
will accommodate the LCS squadron command staff, classrooms, 
systems trainers, operation watch floor and other space 
critical for the LCS mission.
    It will also provide a multistory parking garage, which has 
been a need at Mayport for many years, especially as it 
continues to expand into the coming years and will convert 
other portions of the base to support the LCS mission.
    The Navy has clearly stated the need for these projects to 
be completed quickly and included them on the unfunded 
priorities list for 2018. The LCS concept of operations 
requires these facilities to be in place two years in advance 
of ship arrival in order to meet training and support 
requirements.
    The first phase of these buildings was funded in 2015 and 
later constructed. However, due to the delay in funding for 
phase two, crews have been training in temporary structures at 
Mayport and enabled base station in San Diego, the West Coast 
LCS homeport.
    This leads to inadequate training for the crews and is, in 
the Navy's own words, unsustainable. The Navy also stated that 
without these structures both the squadron and the ship crews 
cannot be adequately supported by existing shore facilities due 
to primarily overcrowding, which will serve severely impact 
ConOps in mission capability.
    And as we have seen in the recent ship collisions in the 
Pacific fleet, funding and supporting of adequate training for 
our sailors is truly a matter of life and death. The Navy is in 
many ways leading the Services and how they look at training.
    This includes the immersive virtual shipboard environment 
lab training systems that are used for these LCS crews. 
Congress has supported this game-based training strategy which 
has already proven to save training hours and can be done 
ashore instead of on the ship.
    I believe that this model has the potential to reshape how 
training is carried out across the fleet which is why funding 
this facility is so important. We owe it to the LCS crews, the 
squadron leadership, and to all of our sailors to ensure these 
training and support facilities are in place before we ask them 
to carry out their mission.
    Inadequate structures and temporary work grounds, 
workarounds for a growing program only weakens our security. 
And again, I want to thank you all for the opportunity to speak 
here today. And also I want to say thank you on behalf of a 
grateful nation for all of the hard work that you all are doing 
to ensure that our nation remains the strongest and safest in 
the world.
    And I am always available for further discussion on these 
and other topics of interest. And I yield back.
    [The information follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               LCS PROGRAM

    Mr. Dent. Well, thank you Representative Rutherford for 
your testimony and updating the subcommittee on the importance 
of the LCS program. It is vitally important. And I also want to 
certainly let you know that we will continue to work with you 
on the Mayport Naval Station and the unfunded priority list. I 
am sure there is going to be a lot of demand for it this year, 
but we are going to do our best to accommodate as many of the 
Members as we can, so with that thank you.
    And I yield to the ranking member.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman, for the 
opportunity to greet my fellow Floridian. As you know, we were 
not able to get all of our MILCON needs in Florida addressed in 
the hurricane supplemental that recently passed and was signed 
by the President.
    Were there any facilities at Mayport specifically damaged 
by the recent hurricanes that have MILCON needs and still need 
to be addressed that weren't included in this one?
    Mr. Rutherford. I don't believe there were.
    Ms. Wasserman Schultz. Okay. Thank you.
    Mr. Dent. Thank you, Representative Rutherford. I 
appreciate your testimony and pleased to work with you over 
this appropriations process.
    Mr. Rutherford. Thank you, Mr. Chairman. And I just want to 
say congratulations on a great term and time in Congress and 
thank you for all that you have done personally for us in 
Florida. Thank you.
    Mr. Dent. Thank you. I hope to get to spend more time in 
northeast Florida.
    Mr. Rutherford. Yes.
    Mr. Dent. It's a very nice part of the world.
    Mr. Rutherford. Come and see.
    Mr. Dent. Really, I know it is a wonderful place.
    Mr. Rutherford. Thank you.
                              ----------                             

                                           Tuesday, April 17, 2018.

                                WITNESS

HON. ANN McLANE KUSTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW HAMPSHIRE

               Opening Statement of Congresswoman Kuster

    Mr. Dent. Okay. Thank you.
    I would like to recognize Representative Kuster of New 
Hampshire. And you are recognized for five minutes.
    Ms. Kuster. Thank you, Mr. Chairman, and distinguished 
colleagues. Thank you for the opportunity to come before you 
today to join my colleagues on the Veterans Affairs Committee 
to talk about veterans' benefits and services from my 
perspective as ranking member of the House Veterans Affairs 
Subcommittee on Oversight and Investigations. And 
coincidentally, the only Congressional delegate in our New 
Hampshire delegation to serve on either the House or Senate 
Committee on Veterans Affairs.
    It is no secret that VA's capital assets are in serious 
need of repair. For Granite State veterans, this reality is so 
much more obvious when the Manchester, New Hampshire VAMC 
experienced a catastrophic water pipe breach. Emergency repairs 
have been ongoing since this episode, which occurred within 
days last spring of the Boston Globe's report on patient access 
to care issues at the facility.
    What I wanted to bring to your attention is that my home 
state of New Hampshire lacks the same robust VA capital assets 
that other veterans across the country enjoy. We are one of the 
only states that does not have a full service VA hospital 
within our borders.
    As the ranking member of the Oversight and Investigations 
Subcommittee, it was my displeasure to learn about the gross 
misuse of funds in major construction projects like Aurora, 
Colorado while the Granite State veterans continue to see their 
needed improvements deprioritized.
    As proud, frugal Yankees, New Hampshire veterans understand 
the realities of our current budgetary environment. And from 
that perspective, I respectfully request that the subcommittee 
seriously examine leveraging innovative concepts to deliver 
veterans' health care, both economically and effectively.
    In my letter to the subcommittee dated March 16, 2018, I 
requested the prioritization of ambulatory surgical centers 
(ASC) as a solution that provides both quality health care 
while being fiscally responsible.
    As you know, ASCs have long been utilized by the private 
sector to lower cost and improve health outcomes. ASCs would 
help resolve many of the issues surrounding veteran health care 
today. And it is incumbent upon us to provide VA with the tools 
it needs to care for those who have borne the battle. It is 
imperative that the Appropriations Committee continue to 
robustly fund the Choice program. And here I join my colleague 
Mark Takano to ensure its operation while an improved community 
care program is implemented. I remain concerned, however, that 
the funding shortfalls would put patients at risk.
    And one of the most important lessons from the Manchester 
VAMC is the need for a program that values clinical input over 
budgetary issues. Patients must always come first.
    I request the subcommittee consider two aspects of my bill, 
the VA Community Care Enhancement Act, that would require VA to 
implement a demonstration program between Veterans Affairs 
Medical Centers (VAMCs) and federally qualified health centers 
(FQHCs).
    Like Mr. Fortenberry, I have a rural district. I consider 
that to be a compliment, not a slight. And I respectfully 
request that you recognize the importance of FQHCs for the 
future of the VA community care. Unfortunately, VA has not 
directed enough of its resources to integrating FQHCs into the 
VA community care network, despite the fact that right now, 
FQHCs treat over 300,000 veterans.
    My bill also provides a mechanism to potentially resolve 
the issue with improper payments. In some cases it appears 
these payments are made to incentivize participation of certain 
community providers.
    But FQHCs provide a novel solution. FQHCs receive an 
enhanced Medicare rate, negotiated to better cover their actual 
cost, while tying the rate to periodic audits by the Human 
Resources and Services Administration to ensure that FQHCs are 
only claiming legitimate costs.
    VA currently lacks the flexibility to apply these rates to 
FQHCs and it has proven to be a significant disincentive for 
their participation. I urge my colleagues on the subcommittee 
to work with the Veteran's Affairs Committee to develop these 
authorities.
    If I may, I wish to take this opportunity to applaud the 
Subcommittee for separating funds for VA's modernization 
efforts for the new electronic health records, from the VA's 
general IT account.
    This move wisely recognizes the importance of enhanced 
oversight over the VA's IT modernization. As the ranking member 
in the O & I Subcommittee, I welcome continued coordination 
between our subcommittees to ensure effective oversight.
    However, I urge my colleagues to heed the lesson and deny 
VA's proposed consolidation of the medical services account and 
the community care account. Consolidating these accounts would 
only serve to make VA's expenditures on community care less 
accountable for Congress.
    Increasing the opacity of these accounts will likely 
heighten the pressure to ration care and further dissuade 
medical centers from requesting additional funding. I remain 
encouraged by the work of your subcommittee. And it was my 
pleasure to appear before you today.
    And I want to join my colleagues in thanking you, Mr. Dent, 
for your extraordinary service to our country. We are very 
grateful.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dent. Thank you, Representative Kuster. And you have 
got a lot in there for five minutes.
    I just want to say I think the areas of concern that you 
have highlighted are probably shared by many members of the 
subcommittee. While the funding issues are something we 
certainly can address, it seems to me that some of the 
priorities fall within your own committee's jurisdiction, and 
so to the extent that we can where funding is the issue, we 
will certainly work with you and seriously consider all the 
issues you have raised. I don't have any questions but thank 
you.
    Ms. Kuster. Thank you very much. I worked very closely with 
my chair, General Jack Bergman. And so, we would be happy to 
work with you to resolve any of these issues. Thank you so much 
for your time. I appreciate it.
    Mr. Dent. Representative Wasserman Schultz.

                        ELECTRONIC HEALTH RECORD

    Ms. Wasserman Schultz. Just a quick question. As the 
chairman mentioned, your committee obviously manages the 
authorization of a lot of the issues you mentioned. I agree 
with you on the electronic health records concerns. No 
question. In fact, we inserted in the omnibus appropriations 
bill language that would ensure, that I suggested, that the GAO 
oversee the process through the years, which will be lengthy.
    Ms. Kuster. Yes.
    Ms. Wasserman Schultz. But that helped in the past, like 
when we were trying to bring the Capitol Visitor Center 
project, which was over budget and extended far beyond its 
original completion time, so that helped a bit.
    But does your Oversight and Investigations Subcommittee 
plan to look into this issue? I mean, as you know, Secretary 
Shulkin was fired literally today before he was supposed to 
sign the Cerner contract. And we have quite a bit of 
uncertainty as to when that contract will be signed.
    Ms. Kuster. I can't speak for the Chair in terms of what he 
is planning. But I do know from previous conversations that he 
shares the concerns. In fact, our Chair, Dr. Roe, it is very 
bipartisan.
    Ms. Wasserman Schultz. Yes.
    Ms. Kuster. Our concern is about both the time table for IT 
improvements and the deliverables if you will. If it is any 
indication, we had a very good roundtable discussion this 
morning on a slightly different topic, the VA appeals process, 
but it related to new IT, and when we met with them in January, 
we had been very frustrated. We had no time timetable, no 
deliverables.
    Today with the GAO's help, they were much, much more 
attentive to the questions that we had raised and I would 
expect that that would become a model for the committee as with 
regard to the electronic health record.
    Ms. Wasserman Schultz. Good oversight process to put in 
place while you are in the process of going through instead of 
coming in at the end.

                             AURORA PROJECT

    Ms. Kuster. Yes. And I will say, I mean, I have been on the 
committee for five years and certainly the Aurora example was 
eye-opening for everyone on the committee, that this much money 
could be spent without accountability.
    And so, I think you would find the committee to be much 
more attentive to these details at this point.
    Ms. Wasserman Schultz. Thank you.
    Ms. Kuster. And to our oversight role. Thank you very much.
    Mr. Dent. Thank you, Representative Kuster. You have raised 
the Aurora project that is the project of which we shall never 
speak again.
    Ms. Kuster. I never should have mentioned it.
    Mr. Dent. We have very good friends in Ed Perlmutter and 
Mike Coffman and your Senators have become very close friends 
to the subcommittee as a result of that project. And hope we 
never see another one like that.
    Ms. Kuster. Well, our subcommittee was out there, summer 
before last and we had an excellent hearing, but I have to say 
I was a little bit stunned that some of the testimony was that 
despite opening Aurora, that they had a large increase coming 
out of Colorado Springs of veterans that needed care.
    And it was too far to get from there to Aurora and that 
they needed additional facilities. And I shouldn't laugh, I am 
sorry.
    Mr. Dent. I know.
    Ms. Kuster. I just shook my head.
    Mr. Dent. If you don't laugh, you will cry.
    Ms. Kuster. Yes, exactly. Thank you. Thanks very much.
    Mr. Dent. Thank you. Thank you, Representative Kuster.
                              ----------                            

                                           Tuesday, April 17, 2018.

                                WITNESS

HON. FRENCH HILL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARKANSAS

                     Statement of Congressman Hill

    Mr. Dent. At this time, I would like to recognize the 
gentleman from Little Rock, Arkansas, French Hill.
    Mr. Hill. Thank you, Mr. Chairman. I appreciate Chairman 
Dent, Madam Wasserman Schultz and my friend Jeff Fortenberry 
for letting me testify today. I appreciate the chance to 
present my views.
    That was fun to hear Congressman Rutherford reference the 
USS Little Rock arriving in North Florida. They have been stuck 
in the ice in Montreal since December 16, 2017 when that ship 
was launched and they just arrived in the last two weeks.
    So it was a cold, bleary winter in Montreal in the Saint 
Lawrence Seaway for the USS Little Rock. I know they are 
reveling shore leave in Florida. I appreciate the opportunity 
to testify in front of you today to talk about expanded 
research into the U.S. Department of Veteran Affairs 40-mile 
rule.
    The Veterans Choice Program that you heard so much about 
today provides veterans with the ability to receive medical 
care from the community outside the VA when required or 
necessary.
    One requirement for eligibility under this program is for a 
veteran to live more than 40 miles as defined by driving 
distance from the nearest VA medical facility with a fulltime 
primary care physician.
    This does not account for facilities within the 40-mile 
radius that may not provide the proper services for any given 
veteran. I have three wounded warriors on my staff at our 
district office in Little Rock. And we have 50,000 veterans in 
the second congressional district of Arkansas. So it is a prime 
focus of my office as we are home to Little Rock Air Force Base 
and Camp Robinson, the National Training Facility for the 
National Guard.
    And so I hear persistent concerns from our veterans about 
the 40-mile rule within the Choice program. The program was 
designed to make it easier for our veterans to receive the care 
they deserve.
    And I don't believe the distance a veteran lives from a 
facility should necessarily affect the quality care they 
receive. For this reason, I respectfully request that you 
include the following language in the fiscal year 2019 MILCON 
VA bill.
    And I quote that language. ``The U.S. Department of 
Veterans Affairs Secretary shall conduct a review of the 
Veterans Choice Program 40-mile rule and determine whether it 
serves the best interest of our veterans.
    ``The Secretary shall issue a report to Congress on such 
policy not later than one year after enactment of the Act''. I 
appreciate the chance, Chairman Dent, to be before you today 
and also give you my very best regards and fraternal friendship 
as you leave your quality service in the Congress. Congress 
will be a less wise, less commonsense place with your 
departure. And thanks for the ability to testify today.
    [The information follows:]
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              40 MILE RULE

    Mr. Dent. Well, thank you, Congressman Hill, really I have 
enjoyed serving with you too. It was a pleasure to get to meet 
your wife too and her service to our country on the National 
Security Council during the Bush Administration.
    So, I want to thank you for that. But now, if you are going 
to be stuck in Montreal, let it be during hockey season. And 
hope you enjoyed it up there. A couple of things just on the 
40-mile rule, I know there are areas in your state where that 
40-mile rule does limit access to care. I have been frustrated 
by that rule as well.
    I know that VA is trying to make some accommodations in the 
application of that particular rule, but I think the better 
news is that the authorizers are conferencing right now on a 
replacement program for Choice.
    And I don't think that they intend to use the mileage-based 
measures to determine eligibility for non-VA care. But we had 
three members here previously from the VA authorizing committee 
who might be able to give us some insights on what this new VA 
Choice 2.0 is going to look like. But I share your concerns on 
that issue.
    It is something that is enormously frustrating to me that 
geographic criteria is quite limiting to the people in so many 
ways, that I don't think it should be geographically based 
anymore. In many cases we are denying veterans' access to some 
of the best health care institutions in the world based on 
where they live.
    And I think that is unfair. So, with that I thank you and I 
yield to Mr. Fortenberry to see if he has any questions.
    Mr. Fortenberry.
    Mr. Fortenberry. No. I think you raised a reasonable point. 
It is just I don't know the criteria by which 40-miles is 
selected. It might be just a pure budgetary constraint, but yet 
an artificial one that perhaps keeps some people from the 
quality of care that they deserve.
    You have got to have some set of criteria that make it 
somewhat objective and yet at the same time the rules are for 
the benefit of persons and when they interfere with that, then 
the rule itself ought to be reexamined. So, I don't know where 
the authorizers are either. But thanks for raising the issue.
    Mr. Hill. Thanks for the opportunity.
    Mr. Dent. Well, thank you, Representative Hill.
    And that concludes our hearing today. I see no other 
Members here for this Member Hearing Day. Are there any others 
here who want to speak up? Say so now, or forever hold your 
peace.
    So with that any comments from the ranking member?
    If not, this hearing is adjourned.




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bingham, Lieutenant General Gwen.................................    95
Coglianese, Major General V. A...................................    95
Green, Major General T. S........................................    95
Hill, Hon. French................................................   248
Kuster, Hon. A. M................................................   237
Niemeyer, Hon. Lucian............................................    95
Rutherford, Hon. John............................................   231
Shulkin, Hon. D. J...............................................     1
Smith, Vice Admiral D. R.........................................    95
Takano, Hon. Mark................................................   224
Tenney, Hon. Claudia.............................................   219
Walz, Hon. Tim...................................................   197








                               I N D E X

                              ----------                              

                  U.S. Department of Veterans Affairs

                                                                   Page
Chairman, Opening Statement of...................................     1
Ranking Member, Opening Statement of.............................     2
Shulkin, Hon. David J., Opening Statement of.....................     4
Shulkin, Hon. David J., Prepared Statement of....................     8
A National Opioid Crisis.........................................    35
Accountability Within VA.........................................    37
Alameda Point....................................................    40
Blue Water Navy Veterans.........................................    32
Community Care versus VA-Provided Care...........................    30
Community Outreach Program.......................................    55
Complementary Care...............................................    45
Construction.....................................................    57
DC VA Hospital and Restructuring VHA.............................    50
DOD and VA Suicide Prevention Coordination.......................    56
Electronic Health Record.........................................28, 51
Funding the Choice Program.......................................    27
Health Needs of Female Veterans..................................    49
Infrastructure...................................................38, 53
Inpatient Substance Abuse Treatment Wait Times...................    48
Integrate Community Care into a Single Account...................    30
Internal Dynamics................................................    27
Medical Marijuana................................................    40
Military Parade..................................................    42
Modernization and Telehealth.....................................    33
National Center for PTSD.........................................    49
OIG Report on Veteran Wait Time..................................    31
Poor Performing Employees........................................    37
Predictive Analytics.............................................    56
Private Care versus VA-Provided Care.............................    39
Privatization of VA Care.........................................30, 54
Prosthetics Technology...........................................    33
Public-Private Partnerships......................................    46
Rural America and Broadband Access...............................    34
Telehealth Program...............................................    43
Transition Assistance Programs...................................    43
The Pathway Home Model...........................................    41
VA Partnerships with Historically Black Colleges.................    58
Vacant and Under-utilized Buildings..............................    55

               Fiscal Year 2019 Budget Oversight Hearing
               on Energy, Installations, and Environment

Chairman, Opening Statement of...................................    95
Ranking Member, Opening Statement of.............................    96
Niemeyer, Hon. Lucian, Opening Statement of......................    98
Niemeyer, Hon. Lucian, Prepared Statement of.....................   103
Bingham, Lieutenant General Gwen, Prepared Statement of..........   126
Smith, Vice Admiral Dixon R., Prepared Statement of..............   133
Coglianese, Major General Vincent A., Prepared Statement of......   139
Green, Major General Timothy S., Prepared Statement of...........   146
Base Closure and Realignment.....................................   168
Bipartisan Budget Agreement Increase Funding for DOD.............   159
Border Wall......................................................   175
BRAC Naming......................................................   174
Cost of DOD Portion of a Border Wall.............................   158
Contracting Mechanism............................................   167
Detainees........................................................   175
DOD Jurisdiction for a Border Wall...............................   158
Drought Conditions...............................................   171
Energy Resilience................................................   172
Environmental Remediation at Conveyed Land.......................   164
Excess Capacity at Military Installations........................   169
Fort Bliss Hospital Construction Delays..........................   166
High Value Detention Facility at GTMO............................   160
Hospitals Instead of Clinics on Installations....................   171
National Guard Training Lands....................................   162
Naval Air Station Lemoore Military Construction..................   170
Oakland Army Base Remediation....................................   165
Readiness Centers................................................   163
Resiliency and Sea Level Rise....................................   168
Rhine Ordnance Barracks Energy Study.............................   159
Sustainment Costs of Current Facility............................   162

                              Members' Day

Chairman, Opening Statement of...................................   197
Ranking Member, Opening Statement of.............................   197
Walz, Hon. Tim, Opening Statement of.............................   198
Walz, Hon. Tim, Prepared Statement of............................   206
Tenney, Hon. Claudia, Opening Statement of.......................   219
Tenney, Hon. Claudia, Prepared Statement of......................   221
Rutherford, Hon. John, Opening Statement of......................   231
Rutherford, Hon. John, Prepared Statement of.....................   233
Takano, Hon. Mark, Opening Statement of..........................   224
Takano, Hon. Mark, Prepared Statement of.........................   226
Hill, Hon. French, Opening Statement of..........................   248
Hill, Hon. French, Prepared Statement of.........................   250
McLane Kuster, Hon. Ann, Opening Statement of....................   237
McLane Kuster, Hon. Ann, Prepared Statement of...................   240
Aurora Project...................................................   248
Care in the Community............................................   216
Electronic Health Record.........................................   247
LCS Program......................................................   237
40 Mile Rule.....................................................   253
Rome Lab Security Fence Cost.....................................   224

                                  [all]

</pre></body></html>
